<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF TRANSPORTATION, THE DEPARTMENT OF COMMERCE, AND THE EXECUTIVE OFFICE OF THE PRESIDENT</title>
<body><pre>[Senate Hearing 111-418]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-418
 
                           NOMINATIONS TO THE
                     DEPARTMENT OF TRANSPORTATION,
                    THE DEPARTMENT OF COMMERCE, AND
                 THE EXECUTIVE OFFICE OF THE PRESIDENT

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 21, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
52-165                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 21, 2009...................................     1
Statement of Senator Inouye......................................     1
    Prepared statement of Hon. John D. Rockefeller IV submitted 
      by Hon. Daniel K. Inouye...................................     2
Statement of Senator Hutchison...................................     3
Statement of Senator Kerry.......................................     5
Statement of Senator Dorgan......................................    41
    Prepared statement of Hon. Ellen O. Tauscher, U.S. 
      Representative from California, Tenth District, submitted 
      by Hon. Byron L. Dorgan....................................    63
Statement of Senator Warner......................................    49
    Prepared statement...........................................    49
Statement of Senator Johanns.....................................    52
Statement of Senator Begich......................................    53
Statement of Senator Lautenberg..................................    55
Statement of Senator Klobuchar...................................    56
Statement of Senator Thune.......................................    58
Statement of Senator Cantwell....................................    90

                               Witnesses

Hon. Richard Durbin, U.S. Senator from Illinois..................     6
Peter H. Appel, Administrator-Designate, Research and Innovative 
  Technology Administration, Department of Transportation........     8
    Prepared statement...........................................    10
    Biographical information.....................................    10
Hon. Joseph C. Szabo, Administrator-Designate, Federal Railroad 
  Administration, Department of Transportation...................    17
    Prepared statement...........................................    18
    Biographical information.....................................    20
Dana G. Gresham, Assistant Secretary-Designate of Transportation 
  for Governmental Affairs, Department of Transportation.........    26
    Prepared statement...........................................    27
    Biographical information.....................................    28
Robert S. Rivkin, General Counsel-Designate, Department of 
  Transportation.................................................    32
    Prepared statement...........................................    34
    Biographical information.....................................    34
Roy W. Kienitz, Under Secretary-Designate, Department of 
  Transportation.................................................    41
    Prepared statement...........................................    42
    Biographical information.....................................    43
April Boyd, Assistant Secretary-Designate, Office of Legislative 
  and Intergovernmental Affairs, Department of Commerce..........    64
    Prepared statement...........................................    65
    Biographical information.....................................    66
    Letter, dated February 20, 2009, from April S. Boyd to 
      Barbara S. 
      Fredericks, Assistant General Counsel for Administration, 
      U.S. Department of Commerce................................    72
Cameron F. Kerry, General Counsel-Designate, Department of 
  Commerce.......................................................    73
    Prepared statement...........................................    75
    Biographical information.....................................    76
Sherburne B. Abbott, Associate Director-Designate of Environment, 
  Office of Science and Technology Policy, Executive Office of 
  the President..................................................    90
    Prepared statement...........................................    92
    Biographical information.....................................    94

                                Appendix

Response to written questions submitted to Peter H. Appel by:
    Hon. John D. Rockefeller IV..................................   109
    Hon. Mark Begich.............................................   111
Response to written questions submitted to Joseph C. Szabo by:
    Hon. John D. Rockefeller IV..................................   111
    Hon. Byron L. Dorgan.........................................   113
    Hon. John Kerry..............................................   114
    Hon. Frank R. Lautenberg.....................................   114
    Hon. Mark Begich.............................................   115
    Hon. Tom Udall...............................................   115
    Hon. Sam Brownback...........................................   116
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to Dana G. Gresham..............................   117
Response to written questions submitted to Robert S. Rivkin by:
    Hon. John D. Rockefeller IV..................................   118
    Hon. Frank R. Lautenberg.....................................   119
Response to written questions submitted to Roy W. Kienitz by:
    Hon. John D. Rockefeller IV..................................   119
    Hon. Byron L. Dorgan.........................................   120
    Hon. Tom Udall...............................................   121
    Hon. John Thune..............................................   122
    Hon. David Vitter............................................   123
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to Cameron F. Kerry.............................   124
Response to written questions submitted to Sherburne B. Abbott 
  by:
    Hon. John D. Rockefeller IV..................................   124
    Hon. Tom Udall...............................................   125
    Hon. Mark Begich.............................................   126
    Hon. John Thune..............................................   127


                           NOMINATIONS TO THE

                     DEPARTMENT OF TRANSPORTATION,

                    THE DEPARTMENT OF COMMERCE, AND

                 THE EXECUTIVE OFFICE OF THE PRESIDENT

                              ----------                              


                        TUESDAY, APRIL 21, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Daniel K. 
Inouye, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. The Committee will come to order.
    Unfortunately, Chairman Rockefeller cannot be here with us 
today. He had a very serious, painful knee injury last week, 
and he has to be hospitalized and underwent surgery. I think we 
all wish him the best for a speedy recovery.
    I hope you will forgive me for my voice. That is what 
happens to politicians who talk too much.
    [Laughter.]
    Senator Inouye. The Committee will consider nominees for 
the United States Department of Transportation, the United 
States Department of Commerce, and the Office of Science and 
Technology Policy.
    If confirmed, these men and women will be charged with 
leading the Federal Government's efforts to promote 
transportation mobility, advance commerce, strengthen ocean 
management, and improve environmental science and technology 
throughout the Nation and the world.
    Working together, we have the opportunity to creatively 
reform our entire transportation system. Mr. Robert Rivkin, Mr. 
Dana Gresham, Mr. Roy Kienitz, Mr. Joseph Szabo, and Mr. Peter 
Appel will face many important issues and challenges as we work 
to improve our Nation's transportation and infrastructure in an 
environmentally sustainable manner.
    The two nominees for the Department of Commerce, Mr. 
Cameron Kerry and Ms. April Boyd, have enormous tasks ahead in 
support of diverse responsibilities for the Department, ranging 
from fisheries management to the census.
    I would also like to welcome Ms. Sherburne Abbott, the 
nominee for Associate Director for Environment at the Office of 
Science and Technology Policy. This important position has been 
left vacant for the past 8 years, and I am pleased that this 
Administration has made filling this position a priority. 
Climate change is a critical long-term issue this country must 
address. Therefore, it is important that we have coordination 
across the many Federal agencies responsible for developing the 
solution.
    I wish to congratulate the nominees and express the 
Committee's appreciation for their commitment to public 
service.
    Before I proceed any further, I have a statement for the 
record by Senator John D. Rockefeller IV, the Chairman of this 
Committee. Without objection, it will be made part of the 
record.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    I wish to congratulate all of you on your nomination for positions 
in the United States Department of Transportation (DOT), the United 
States Department of Commerce, and the Office of Science and Technology 
Policy. It is a true honor to be selected by President Obama to serve 
in these important positions, and, if confirmed, you will be emboldened 
with leading the Federal Government's efforts to promote transportation 
mobility, advance commerce, strengthen ocean management, and improve 
environmental science and technology throughout the Nation and the 
world.
    Mr. Appel, Mr. Gresham, Mr. Kienitz, Mr. Rivkin, and Mr. Szabo--the 
timely and efficient movement of people and goods is an integral 
component of our daily lives. Given the current economic climate, 
considerable energy and resources must be devoted to make sure the 
severe challenges our transportation system faces do not inhibit the 
flow of national and global commerce. Carbon emissions--both from the 
transportation choices we make and the growing congestion across the 
system--contribute significantly to climate change. Increased freight 
and passenger demand has begun to overwhelm our entire transportation 
network, creating congestion and bottlenecks at our ports, in our 
skies, and on our roads and rails. Safety continues to plague our 
roadways--in 2007 alone, over 41,000 people were killed in highway 
accidents, with more than 2,400,000 injured. Out of this total, nearly 
5,000 people were killed in large truck crashes alone and over 10,000 
people were killed in vehicle rollover accidents.
    Together with the Congress, President Obama, and Secretary LaHood, 
we have the opportunity to creatively reform our entire transportation 
system and address the many challenges it faces. We must rethink the 
way that the transportation network operates, the way projects and 
programs are funded, what technologies must be incorporated into the 
system, and the proper role for Federal involvement in developing and 
managing the system. Mr. Rivkin, the upcoming reauthorization of our 
surface transportation policies and programs is an opportunity to 
prepare our infrastructure for 21st century demands and reprioritize 
our travel methods in a more environmentally sustainable way. 
Similarly, I hope to continue modernizing our aviation system with the 
reauthorization of the Federal Aviation Administration (FAA). In both 
these situations, and others facing the DOT, Mr. Appel, we will have to 
rely on trustworthy research and data in order to accurately 
incorporate technological solutions into our expanding transportation 
system.
    As the Committee responsible for establishing the Nation's policies 
and goals for all modes of transportation, I plan for this Committee to 
be very active in setting clear objectives for our Federal surface, 
aviation, and maritime transportation programs, Mr. Gresham, and hope 
that we can build the strong partnership needed to accomplish the type 
of change that President Obama and Vice President Biden have discussed 
and that we all agree must occur.
    The attention this Administration is devoting to passenger rail is 
unprecedented. Mr. Szabo, I applaud the Department's high-speed rail 
strategic plan released last week for implementing the $8 billion 
investment included in the American Recovery and Reinvestment Act. We 
will be closely monitoring the implementation of this plan to make sure 
it achieves the goals set forth in the Passenger Rail Investment and 
Improvement Act passed last fall, including furthering the development 
of a national rail system. We will also work with the Federal Railroad 
Administration to make sure that the aggressive goals in the Rail 
Safety Improvement Act for the establishment of positive train control 
systems and the improvement to rail workers hours of service are 
successfully implemented.
    Finally, I am concerned about the strength of our maritime and 
freight systems. In this increasingly competitive global economy, 
America must maintain efficient access to the world's markets. Far too 
many of our ports and trade corridors are mired by inadequate 
infrastructure and limited capacity. We need to develop a strong 
multimodal program that will provide investments in essential port and 
freight infrastructure projects that have national significance and 
will be looking to you, Mr. Kienitz, and your Policy office, to work 
with us to move this critical issue forward.
    For our two distinguished nominees for the Department of Commerce, 
Mr. Kerry and Ms. Boyd, I would again like to congratulate you on your 
appointments and also remind you of the enormous tasks which you are 
nominated to oversee. The mission of the Department of Commerce is 
wide-ranging. It affects almost all sectors of our Nation's economy, 
from international trade to local economic development. The 
Department's programs literally touch each of our lives, whether 
providing daily weather forecasts, aiding communities with economic 
development, or conducting the decennial Census. The Department of 
Commerce is preparing to undertake a massive and critically important 
2010 U.S. Census. It goes without saying that a tremendous amount of 
pressure and many eyes will be on this Department and its leaders until 
its successful completion. This is only one important area that you 
both will be vested in overseeing.
    In these difficult economic times, I hope you use your talents to 
promote U.S. exports, our country's unbeatable travel and tourism 
industry, and stand up for U.S. manufacturers by vigorously enforcing 
our international trade laws. For too long, we have seen a slow 
weakening of these laws and in some instances have seen the World Trade 
Organization overstepping its jurisdiction through its 
misinterpretation of the Antidumping laws. Though we cannot deny our 
interdependence on foreign countries for trade--in fact I heartily 
welcome trade with our foreign friends--we cannot do so at the expense 
of running roughshod over our own laws and putting U.S. companies at a 
comparative disadvantage. This includes addressing countries that have 
instituted retaliatory tactics on certain goods and services. I hope 
you can tell us today that you plan on remaining vigilant in these 
areas.
    Our oceans and climate are significant economic drivers for our 
economy. The National Oceanic and Atmospheric Administration's (NOAA) 
programs and services affect more than one-third of the Nation's gross 
domestic product, including supporting our fisheries, farmers, and 
maritime industry. NOAA makes up the largest part of the Department of 
Commerce's resources, accounting for more than fifty percent of the 
Department's overall budget. The economic health of our Nation depends 
on our coastal economies, which generate one-half of our Nation's Gross 
Domestic Product and are home to more than 50 percent of the Nation's 
population. Our Nation's fisheries generate $111 billion for state 
economies, yet the United States currently has an $8 billion seafood 
trade deficit. There is great untapped wealth in our oceans. 
Maintaining the economic and ecological viability of our coastal 
communities and oceans, rebuilding our wild fisheries, promoting 
sustainable aquaculture, and monitoring our Nation's weather and 
climate are vital to building our Nation's economic and environmental 
wealth. Unfortunately, NOAA's value to our communities often goes 
unrecognized. I hope that you will make it a priority to work with 
Congress to strengthen NOAA's critical programs and services and its 
role within the Department of Commerce.
    I look forward to your quick confirmation and excellent work at the 
Department of Commerce.
    I would like also like to welcome Ms. Shereburne Abbott, nominee 
for Associate Director for Environment at the Office of Science and 
Technology Policy. This important position has been left vacant for the 
past 8 years, and so I am pleased to see it finally filled. Since 
climate change will be a critical long issue this country will be 
addressing, it is important that we have coordination across the many 
Federal agencies responsible for developing the solution.
    I look forward to hearing your testimony and will do my best to 
facilitate a quick confirmation process so that we can get started with 
the work ahead of us.

    Senator Inouye. And now may I call on our Ranking Member, 
Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you very much, Mr. Chairman. 
I really appreciate, as I know all of us do, that you are 
presiding over this hearing in Senator Rockefeller's absence, 
and we all wish him well with his recovery.
    I want to thank all of you for coming. I am so pleased that 
we are having a hearing and putting these nominees forward 
because we know that the agencies need all of you to start 
taking some of the load off the beleaguered Secretaries.
    Let me say I also want to introduce my Texas constituent 
before us today, Shere Abbott, who you mentioned earlier is the 
nominee for Associate Director of Environment for the Office of 
Science and Technology Policy. She has had 25 years of human 
development and environmental research education and policy 
experience and has been an active faculty member of the 
University of Texas at Austin for 3 years where she has served 
as Director of the Center for Science and Practice of 
Sustainability in the Office of the Executive Vice President 
and Provost.
    She has also worked as a consultant before that, advising 
the World Bank, private foundations, and nongovernmental 
foundations. She was Chief International Officer for the 
American Association for the Advancement of Science from 2003 
through 2005 and has vast experience in this field.
    She graduated from Goucher College and earned her Masters 
of Forest Science from Yale University where she was a Dodge 
Fellow in human animal ecology.
    In 2000, she was appointed Senior Research Fellow at 
Harvard's Kennedy School of Government.
    I am very pleased that she is a nominee to be a part of 
this Administration.
    I just want to make a general statement that the Committee 
cannot do the work that we are expected to do without the 
cooperation and help from the legal and governmental affairs 
officers at all of our agencies and our cabinet offices. These 
offices are charged with the task of keeping us aware of 
activities and undertakings at the agencies and responding to 
our information requests, often within a very short timeframe. 
This Committee has successfully maintained a productive and 
bipartisan working relationship with the agencies within our 
jurisdiction, and I look forward to continuing that bipartisan 
cooperation during this Administration.
    I also note that we have a number of important positions at 
the Department of Transportation that we will consider today. 
It is very important that we have a lot of input from the 
nominees here because we have both the FAA reauthorization and 
the highway reauthorization bills, both very important for our 
transportation infrastructure. I hope very much that we will be 
able to work through getting the NextGen air traffic control 
system at the Department of Transportation enacted. We also 
hope to be able to move on the highway reauthorization 
legislation, which is so important to so many States.
    So I appreciate all of you for being here and thank you, 
Mr. Chairman, for subbing for our Chairman.
    Senator Inouye. Thank you very much.
    I am pleased to call upon Senator Kerry. He has a statement 
and introductions.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Thank you, Mr. Chairman.
    Obviously, we wish Senator Rockefeller were here, but we 
are also pleased to see you back in the chair, though 
temporarily.
    Mr. Chairman, this is a great pleasure for me and, 
obviously, a special privilege. I am going to recuse myself 
from the vote because I think that is the appropriate thing to 
do, but I am not going to recuse myself from the introduction 
to the Committee of my brother.
    And we are in that rare situation where an introducer gets 
to actually say, ``I have known somebody all my life.''
    [Laughter.]
    Senator Kerry. Here, there is not much question about that. 
I think he was the first person I ever babysat for and some 
might allege that I am here doing that again, but I do not 
think so.
    He is accompanied by his wife who is an attorney in her own 
right and, in fact, President of the Boston Bar Association, 
Kathy Weinman. They are joined by my niece, his daughter, 
Jessica, who is a recent graduate of Brown and has been deeply 
involved in guess what--politics--for the last year or so and 
more.
    But, Mr. Chairman, what is important here is whether or not 
Cameron Kerry is qualified for this job, and I believe, through 
all my years of service on this Committee and knowing what the 
job is about, that he is highly qualified. He is a thoroughly 
public service-minded person. He is a gifted and capable lawyer 
who will make a terrific legal counsel for the Department of 
Commerce. He has spent all his life in the private sector as a 
lawyer, navigating very complicated legal issues ranging from 
environmental law to toxic torts, privacy, insurance 
regulation.
    As we know, the Department of Commerce has a very broad, 
diverse portfolio. It calls for a general counsel who is able 
to bring public judgment tested in public policy. In fact, 
Cameron has all his life been involved in supporting other 
people, myself included, who have run for office and is very, 
very knowledgeable about those issues. I think he brings a 
judgment and a facility with a range of issues, and that has 
been the nature of his career as a litigator, as a regulatory 
lawyer at leading law firms in both Boston and Washington, D.C. 
and also as a teacher of communications law.
    I think he has a special appreciation of the needs and 
interests of the Department's business stakeholders. He has 
represented the private sector. He has been on the front lines 
of seeing the kinds of conflicts and tensions and needs that 
businesses have, and he has a deep understanding of the 
economic crisis that our country and our people are facing 
today.
    He also, I might add, has a very strong sense of the 
Internet and technology because we come from Massachusetts 
where we are privileged to have an extraordinary network of 
colleges and universities and research laboratories and people 
who are on the front lines of much of the business that comes 
before this committee.
    So I know that he believes deeply in President Obama's 
agenda, and he will roll up his sleeves and put everything he 
has into serving the Administration and our country. He will 
uphold the best standards of legal judgment and of the 
Constitution of the country. I think he will put country ahead 
of politics, which is an important ingredient in all of this.
    Senator Inouye. Will you yield at this point?
    Senator Kerry. Yes, sir.
    Senator Inouye. Since I will not be here to hear Mr. Kerry 
speak, may I ask that Mr. and Mrs. Kerry stand to be 
recognized?
    Senator Kerry. Thank you, sir.
    Senator Inouye. Welcome. Congratulations.
    Senator Kerry. Thank you, Mr. Chairman.
    Senator Inouye. He is a good-looking fellow.
    [Laughter.]
    Senator Kerry. We have argued about that for 57 years.
    [Laughter.]
    Senator Kerry. Mr. Chairman, can I also say I am also very 
proud of another nominee before the Committee today, April 
Boyd, who has been nominated, as we know, to head up the 
legislative and intergovernmental affairs at Commerce. I have 
not known April her whole life, but I have known her long 
enough to share the President's confidence in her skills that 
she brings to this job.
    She served as my national press secretary between 2004 and 
2006, and before that, she was Chief of Staff to Representative 
Ellen Tauscher of California, and before that, a Special 
Assistant in the Department of Energy and a Media Liaison at 
GSA. I think the President in nominating her has found someone 
who will work with us on the Hill with knowledge of the Hill, 
of our lives and of the intersection of the requirements of the 
Department of Commerce.
    So I am really pleased to be able to commend both nominees, 
maybe one slightly more than the other, but both nominees. And 
I thank you, Mr. Chairman, for the courtesy. Thank you.
    Senator Inouye. I thank you very much.
    Senator Kerry. I have another meeting going on right now, 
so I need to excuse myself. I apologize.
    Senator Inouye. It is my great pleasure to call upon 
Senator Durbin. He has introductions to make.

               STATEMENT OF HON. RICHARD DURBIN, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Chairman Inouye, Ranking Member Hutchison, 
Members of the Committee, thank you for the opportunity to 
introduce two Illinoisans, Robert Rivkin and Joe Szabo for 
their nominations to the Department of Transportation. Both men 
have made significant contributions to the State of Illinois, 
and I believe they will make a significant contribution to our 
Nation at the federal Department of Transportation.
    First, a few words about Bob Rivkin. He has a long, 
successful legal career, and his experience will serve him 
well. He recently served as Vice President and Deputy General 
Counsel of Aon Corporation, a Chicago-based management and 
financial services firm. In this capacity, he has been 
responsible for all litigation, employment law, and regulatory 
and government affairs for Aon's businesses in North and South 
America.
    In addition to his work at Aon, Bob Rivkin has developed a 
long resume working on transportation issues. From 2001 to 
2004, Bob was General Counsel to the Chicago Transit Authority, 
the second largest public transportation system in America. 
There, Bob was instrumental in negotiating a $530 million full-
funding agreement between the Federal Transit Administration 
and the CTA for the massive overhaul of the Brown Line. Today, 
that project enables thousands of commuters to have quality 
access to public transportation. Because of Bob's work early in 
the process, the project has been on budget and on schedule.
    I would like to mention one more thing about Bob. It is 
something that he is going to bring to this position of General 
Counsel at DOT. That is his family's dedication to public 
service. Bob's father, William R. Rivkin, served this country 
honorably, as the Chairman did, as a Lieutenant Colonel in the 
U.S. Army during World War II, where he earned the Bronze Star. 
Following his decorated service in the military, President 
Kennedy appointed William Rivkin Ambassador to Luxembourg where 
he served from 1962 to 1965. President Johnson then appointed 
William Rivkin Ambassador to Senegal and Gambia where he served 
until 1967.
    Bob begins the process of Senate confirmation today with 
this hearing, a process his father underwent more than 40 years 
ago. I am sure this Committee will learn today that Bob Rivkin 
is ready to serve this country and continue his family's legacy 
of distinguished public service.
    Mr. Chairman and Members of the Committee, I am also 
pleased to introduce Joe Szabo of Chicago, Illinois, the 
nominee for the Administrator of the Federal Railroad 
Administration. Joe is here today with his father, Joseph F. 
Szabo, and three sisters, Jo Clark, Susan Stables, and Peggy 
Szabo.
    The FBI investigation found only one major flaw when it 
came to Joe Szabo, and I think we should put that on the record 
early in the hearing. And that flaw is that Joe Szabo is a die-
hard Cubs fan.
    [Laughter.]
    Senator Durbin. Luckily for all of us, the Cubs are playing 
a night game so they will not miss any of the action at Wrigley 
Field to come here to Washington.
    Seriously, I am pleased they could join us today for this 
important and proud moment for Joe and his family.
    Joe Szabo understands better than most the long days, 
unpredictable schedules, and sometimes hazardous working 
conditions that come with the railroad industry. He has worked 
for the railroad, both the Illinois Central and METRA, since he 
was 18 years old, including stints as yard switchman, road 
trainman, and commuter passenger conductor. Five generations of 
his family have worked in the railroad. Joe learned firsthand 
about the railroad from his dad. His father instilled in him a 
passion for rail work that has helped Joe become a trusted and 
respected voice in rail labor and in the industry. Joseph F. 
Szabo, a 40-year switchman for the Illinois Central Railroad, 
today is watching from the front row as his son, Joe Szabo, 
goes through this confirmation hearing to be the chief railroad 
official in the Obama Administration, a job he is uniquely 
qualified to hold.
    Joe has a distinguished career in public service and many 
accomplishments. As an elected mayor of Riverdale, Illinois and 
State Legislative Director for the United Transportation Union, 
UTU, Joe has developed a reputation as a passionate advocate of 
freight and passenger rail and its workers. During his tenure 
as UTU's State Director, Joe's work was integral to the State 
of Illinois doubling its investment in passenger rail. This 
additional State investment allowed Illinois to double the 
frequency of Amtrak trains leaving Chicago for Quincy, 
Carbondale, and St. Louis and lay the groundwork for expanding 
Amtrak service. His advocacy helped Illinois passenger rail 
achieve the fastest growth in ridership and revenue in the 
entire Amtrak system.
    Joe now brings his passion for the railroad industry and 
his experience with rail labor to a national stage. As all of 
us know, President Obama, Vice President Biden, and this 
Congress have made the single largest investment in passenger 
rail in our country's history. The $8 billion we included in 
the stimulus for high-speed rail and outlined by the President 
last week represents a commitment to taking the next step in 
the next generation of inter-city passenger rail. Implementing 
this vision will not be easy. It will be monumental. It will 
take a good faith working relationship between Congress, the 
Administration, the railroads, State and local government.
    Joe has earned the confidence and full support of President 
Obama. They worked closely together when the President served 
as State Senator in Springfield. And I am here to tell you what 
President Obama and I already know. When it comes to making 
high-speed rail a reality and ensuring that millions of 
Americans have access to safe, reliable passenger and freight 
rail, there is no one better for the job than Joe Szabo.
    Chairman Inouye and Members of the Committee, I want to 
thank you for the opportunity to introduce my good friend and 
neighbor and fellow Illinoisans, Joe Szabo and Bob Rivkin. As 
you conduct this hearing and the strong oversight that is to 
follow, I can assure you that you will find that both of them 
understand their unique responsibilities at the Federal level 
and look forward anxiously to serving our Nation in this new 
capacity. I thank you very much for giving me this opportunity.
    Senator Inouye. I thank you very much, sir. Will Mr. Rivkin 
rise so that we may recognize him and your family?
    And Mr. Szabo and your family?
    Mr. Szabo. My father, Joseph Szabo.
    Senator Inouye. Congratulations. Thank you very much.
    And now may we have the panel? I would like to call upon 
our first nominee, Peter Appel.

          STATEMENT OF PETER H. APPEL, ADMINISTRATOR-

         DESIGNATE, RESEARCH AND INNOVATIVE TECHNOLOGY

          ADMINISTRATION, DEPARTMENT OF TRANSPORTATION

    Mr. Appel. Thank you. Mr. Chairman and Ranking Member 
Hutchison, distinguished Members of the Committee, it is a 
privilege to appear before you today. Thank you very much for 
your time and your consideration.
    I would also like to wish Chairman Rockefeller a very 
speedy recovery.
    I want to express my appreciation to President Obama for 
nominating me and to Secretary Ray LaHood for his confidence in 
me.
    And I would like to thank my wife Barbara who has provided 
tremendous support as I pursue further public service. Barbara 
is sitting right here behind me.
    The U.S. Department of Transportation today faces 
challenges and opportunities unlike any it has seen in its 42-
year history. Never before has the DOT had a better opportunity 
to leverage the talents of its people and the commitment of 
Congress and the Administration to improve the lives of the 
American people. We see frequent reminders of the need to 
continually improve safety, the pressing need to achieve 
economic recovery, the critical need to rebuild our 
infrastructure and to improve mobility, and the imperative of 
sustainability. The Department is well positioned to 
simultaneously advance the goals of safety, mobility, 
livability, sustainability, and economic growth through well-
thought-out policies and investments in transportation systems 
and infrastructure.
    DOT's Research and Innovative Technology Administration, 
known as RITA, is in an ideal position to help ensure that our 
investments make the best use of our taxpayers' dollars. RITA 
sets out to bring together first-rate transportation research 
and training, thorough data and analysis, and an innovative 
spirit to ensure the safest, most efficient, most sustainable, 
and robust transportation network across every mode of 
transportation.
    My background in transportation research and analysis and 
Federal transportation policy, management consulting to large 
and complex organizations, and innovative problem-solving 
across every mode of transportation, positions me well to lead 
this agency at this critical time.
    One of RITA's mandates is to foster top-notch 
transportation education through its University Transportation 
Centers, and another is to bring together some of the country's 
best engineers and scientists to do multimodal research at the 
Volpe National Transportation Systems Center. I am a product of 
one of those University Transportation Centers, the MIT 
transportation program, and my studies there 22 years ago, just 
a few hundred yards from what is now called the Volpe Center, 
allowed me to see firsthand the kind of advanced thinking that 
this Department produces. In these challenging times for our 
Nation, we must ensure that all this great thinking is brought 
to bear in tackling the complex issues that we do face.
    I very much look forward to the opportunity to work with 
this Committee and the Secretary to advance our Nation's 
transportation interests. Thank you very much for the 
opportunity to appear before you, and I welcome any questions 
the Committee may have.
    [The prepared statement and biographical information of Mr. 
Appel follows:]

Prepared Statement of Peter H. Appel, Administrator-Designate, Research 
 and Innovative Technology Administration, Department of Transportation
    Chairman Rockefeller, Ranking Member Hutchison, Distinguished 
Members of the Committee, it is a privilege to appear before you today. 
Thank you very much for your time and consideration.
    I want express my appreciation to President Obama for nominating me 
and to Secretary LaHood for the confidence he has placed in me. I would 
also like to thank my wife Barbara, who has provided tremendous support 
as I pursue further public service.
    The U.S. Department of Transportation faces challenges and 
opportunities unlike any it has seen in its 42-year history. Never 
before has DOT had a better opportunity to leverage the talents of its 
people and the commitment of Congress and the Administration to improve 
the lives of the American people. We see frequent reminders of the need 
to continually improve safety, the pressing need to achieve economic 
recovery, the critical need to rebuild our infrastructure and to 
improve mobility, and the imperative of sustainability. The Department 
is well positioned to simultaneously advance the goals of safety, 
mobility, livability, sustainability, and economic growth through well 
thought-out policies and investments in transportation and 
infrastructure.
    DOT's Research and Innovative Technology Administration (RITA), is 
in an ideal position to help ensure that our investments make the best 
use of the taxpayers' dollars. RITA sets out to bring together first-
rate transportation research and training, thorough data and analysis, 
and an innovative spirit to ensure the safest, most efficient, most 
sustainable, and most robust transportation network across every mode. 
My background--in transportation research and analysis, Federal 
transportation policy, management consulting to large and complex 
organizations, and innovative problem-solving across every mode of 
transportation--positions me well to lead this agency at this critical 
time.
    One of RITA's mandates is to foster top-notch transportation 
education through its University Transportation Centers, and another is 
to bring together some of the country's best engineers and scientists 
to do multi-modal research at the Volpe National Transportation Systems 
Center. I am a product of one of those University Transportation 
Centers--the MIT transportation program. My studies there 22 years ago, 
just a few hundred yards from what is now called the Volpe Center, 
allowed me to see firsthand the kind of advanced thinking that this 
department produces. In these challenging times for our nation, we must 
ensure that all this great thinking is brought to bear in tackling the 
issues we face.
    I very much look forward to the opportunity to work with this 
Committee and the Secretary to advance our Nation's transportation 
interests. Thank you for the opportunity to appear before you. I 
welcome any questions that the Committee may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Peter H. 
Appel.
    2. Position to which nominated: Administrator, Research and 
Innovative Technology Administration, U.S. Department of 
Transportation.
    3. Date of Nomination: 4/20/09.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: A.T. Kearney, Inc., 8100 Boone Blvd. Suite #400, 
        Vienna, VA 22182.

    5. Date and Place of Birth: 08/20/64; Princeton, NJ.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Barbara Zamora-Appel (spouse, not employed); I have no 
        children.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Master of Science, Transportation, Massachusetts Institute of 
        Technology, 1987.

        Bachelor of Arts, Economics and Computer Science, Brandeis 
        University, 1985.

        General Course Certificate, London School of Economics and 
        Political Science, 1984.

    8. List all post-undergraduate employment, and highlight all 
management- level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        1997-Present, A.T. Kearney, Inc. (Management Consulting); 
        Principal, Manager, Associate.

                Relevance to RITA Position: Consultant to senior 
                executives at large corporations and public sector 
                agencies, on strategy, operations improvement, and 
                other management initiatives, with particular focus on 
                transportation and infrastructure. Managed teams of 
                consultants and joint consultant/client project teams. 
                Significant focus on transportation, technology, and 
                infrastructure.

        1993-1997, U.S. Dept. of Transportation, Federal Aviation 
        Administration; Special Assistant to the Administrator.

                Relevance to RITA Position: Advised and assisted the 
                FAA Administrator on a range of management and 
                strategic planning activities associated with 
                overseeing 47,000 person DOT modal administration. 
                Coordinated outreach and intra-governmental initiatives 
                between the FAA, the office of the Secretary of 
                Transportation, and other agencies.

        1989-1993, Amtrak; Assistant Director, Pricing and Yield 
        Management; Manager, Pricing Policy and Analysis; Associate 
        Economist.

                Relevance to RITA Position: Managed staff and a range 
                of analytical activities to increase revenue to the 
                railroad, leveraging complex computer models and 
                extensive transportation data.

        1987-1989, Dukakis for President Campaign and Dukakis/Bentsen 
        Committee Inc., Director of Information Systems.

                Relevance to RITA Position: Managed information 
                technology acquisition, contracts, and staff.

        1985-1987, Massachusetts Institute of Technology, Flight 
        Transportation Laboratory; Research Assistant.

                Relevance to RITA Position: Conducted research to 
                improve asset utilization in transportation operations 
                using information systems technology. This and other 
                research done at MIT's Flight Transportation Laboratory 
                relates to the kind of research coordinated by RITA.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    As a management consultant with A.T. Kearney, Inc., provided 
consulting services to U.S. Department of the Navy, Naval Sea Systems 
Command, in 2005-2007.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Principal, A.T. Kearney, Inc. (Management Consulting), 1997-
        Present.

                As an employee of A.T. Kearney, provided management 
                consulting services to the following clients in the 
                last 5 years:

                CenterPoint Properties (2008).

                Eclipse Aviation (2008).

                Brookfield Asset Management (2008).

                Goldman Sachs (2008).

                Morgan Stanley (2008).

                Landrum and Brown (2008).

                Credit Suisse (2006-2007, 2008).

                Dubai Aerospace Enterprise (2006).

                CSC, in conjunction with work for the U.S. Department 
                of the Navy (2005-2007).

                A.T. Kearney, Inc. (2004).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Member, Aero Club of Washington (1998-2009).

        Member, National Aeronautical Association (1998-2009).

        Member, Intermodal Association of North America (2008-2009).

        Member, Belle Haven Citizens Association (1998-2009).

    None of these organizations restricts membership on the basis of 
sex, race, color, religion, national origin, age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    I have been appointed to one public office, as a Schedule C 
appointee of the U.S. Department of Transportation, in the position of 
Special Assistant to the Administrator, FAA, 1993-1997.
    I have never been a candidate for elected public office.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Obama Victory Fund, $496, 10/26/2008.

        Obama Victory Fund, $500, 10/23/2008.

        Obama Victory Fund, $1,000, 7/31/2008.

        Obama for America, Primary Fund, $1,000, 3/31/2007.

        Obama for America, Primary Fund, $1,300, 10/12/2007.

        James Webb for U.S. Senate, $350, 11/01/06.

        James Webb for U.S. Senate, $250, 8/28/06.

        Kaine for Governor, $500, 9/15/05.

        A Lot Of People Supporting Tom Daschle/New Leadership for 
        America PAC, $1,000, 9/10/2004.

        John Kerry for President, $1,000, 7/14/04.

        John Kerry for President, $325, 7/7/2004.

        John Kerry for President, $500, 1/14/04.

        DNC Services Corporation, Democratic National Committee, 10/26/
        2000, $1,000.

    In addition, in the last 10 years I have performed volunteer work 
for political campaigns as follows:


                 Volunteer Roles on Political Campaigns
------------------------------------------------------------------------
   Political Campaign
      Organization          Year                  Key Roles
------------------------------------------------------------------------
Obama for America          2007-20  Delegate Analysis and Strategy
                               08    Development
                                    Voter Targeting Analysis
                                    Boiler Room Operations
                                    Fundraiser Host Committee Chair
------------------------------------------------------------------------
Fenty for Mayor (DC)         2006   Fundraiser Host Committee Member
------------------------------------------------------------------------
John Kerry for President     2004   Voter Targeting Analysis
                                    Delegate Analysis and Strategy
                                     Development
                                    Get-Out-The-Vote Planning and Boiler
                                     Room Operations, Florida
------------------------------------------------------------------------
Booker for Mayor (NJ)        2002   Get-Out-The-Vote/Field Operations
------------------------------------------------------------------------
Gore for President           2000   Delegate Analysis and Strategy
                                     Development
                                    Get-Out-The-Vote Planning and Boiler
                                     Room Operations, Missouri
------------------------------------------------------------------------

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Sigma Gamma Tau, Aerospace Honor Society, 1987.

        Sigma Xi, Scientific Research Honor Society, 1987.

        Magna Cum Laude, Brandeis University, 1985.

        Highest Honors in Computer Science, Brandeis University, 1985.

        Michtom Prize for Outstanding Honors Work in Computer Science, 
        1985.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Made presentation on ``Transportation in the New Economy'' to a 
        conference of the Association of Railway Communicators, 2000.

        Published article ``Facilitating International Air Freight 
        Hubs'' in Transportation & Distribution, August, 1997.

        Made presentation on ``Yield Management in the Railroad 
        Industry'' at conference of the Transportation Research Forum, 
        October 1992.

        Made presentation on ``Amtrak at 20'' Transportation Research 
        Board, 1991.

        Authored MIT Report ``A Flexible Scheduling Environment using 
        Dynamic Exception Handling'', MIT Flight Transportation 
        Laboratory, 1987.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    I have not testified orally or in writing before Congress.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    The Research and Innovative Technology Administration sets out to 
bring together first-rate transportation research, the most thorough 
and relevant data, and an entrepreneurial and innovative spirit to 
ensure the safest, most efficient, and most robust possible 
transportation network across every mode. My background--in 
transportation research and analysis, Federal transportation policy, 
management consulting to large and complex private and public sector 
organizations, and innovative problem solving across every mode of 
transportation--positions me well to lead this agency in a time when 
its mission is more critical than ever.
    Throughout my career, I have worked extensively with transportation 
research and statistics. In my graduate work at MIT in the Flight 
Transportation Laboratory, I developed computer models to improve air 
carrier scheduling efficiency. At Amtrak, I built analytical models 
using railroad operational data and passenger demand data to develop 
effective rail product offerings such as for the Northeast Corridor. At 
the FAA, I got to know firsthand the implications of how new 
technology--and the frequent issues associated with its 
implementation--can have a profound impact on the transportation system 
and the commerce that relies on it. In my work for many management 
consulting clients across rail, air, highway, and ocean transportation, 
I have incorporated a thorough understanding of available technology 
and robust data to help clients make sound business decisions affecting 
billions of dollars of investments.
    My background in Federal transportation policy as Special Assistant 
to the FAA Administrator positions me well to address the sensitive 
inter-agency issues that RITA faces. During 4 years at FAA--in which I 
worked to coordinate policy development on behalf of the Administrator 
across divisions within the FAA, and between the FAA and the rest of 
the DOT--I gained experience in managing policy initiatives that must 
reflect the views of a range of stakeholders. RITA can only be 
effective if it works well across each modal administration and the 
rest or DOT--and my experience with and understanding of the priorities 
and unique issues of each part of DOT will help me achieve its 
potential.
    For the last twelve years, I have been a management consultant at 
the global management consulting firm of A.T. Kearney, Inc. A.T. 
Kearney, which works globally across every industry, has worked in 
transportation since its founding in 1926. My clients conic to our firm 
both to solve operational issues and to develop strategies to grow in 
the marketplace. I have worked with the private and public sectors to 
significantly improve operational efficiency and to identify the best 
ways to grow. RITA is a large organization that needs to maximize its 
efficiency and identify how to bring the most value to its customers, 
and I want to bring my management experience to bear in achieving this 
goal.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed at the Administrator, I will be fully responsible--to 
the Secretary and the President--to ensure that RITA makes the most 
effective use of taxpayer dollars, both those directly budgeted to it 
and those for which it plays a coordinating role. I believe strongly in 
ensuring strong management reporting capabilities, clear metrics to 
show success or failure in achieving goals, and full accountability in 
each unit within an organization. I have served as a management 
consultant helping leaders of large organizations drive toward major 
efficiency improvements, have led teams to achieve aggressive goals, 
and have worked closely with the FAA Administrator to build 
organizational and management models to ensure executive accountability 
across a 47,000 person agency.
    20. What do you believe to be the top three challenges facing the 
department/agency and why?

        1. RITA must identify ways that it can accelerate and amplify 
        the economic impact of the 2009 stimulus package and other 
        transportation investment. By bringing to hear technologies--
        such as Intelligent Transportation Systems--for which it has 
        been leading ongoing research and deployment, RITA can help 
        ensure that when the Administration invests in infrastructure 
        such as roads and transit, that investment will have the 
        maximum impact on mobility, resulting economic activity, and 
        ultimate job creation in our communities.

        2. RITA must establish and articulate a clear value proposition 
        to the rest of DOT and the Federal Government to show how it 
        can ensure that RD&T programs across DOT are aligned to achieve 
        the goals of the department--including safety, mobility, and 
        sustainability.

        3. RITA must fully identify the needs of its customers--such as 
        the users of the data and analysis produced by the Bureau of 
        Transportation Statistics, its transportation safety training 
        programs, and research across every mode--and ensure that the 
        government's investment in these products are effectively 
        aligned with those customer needs. By clearly understanding who 
        uses its products, who might potentially use its products if 
        they were modified or enhanced, and what value its customers 
        derive. RITA can expand its customer base and its impact. RITA 
        has an excellent opportunity--with the top-notch research 
        performed at the Volpe National Transportation Systems Center 
        and the University Transportation Centers--to remove barriers 
        to technological innovation, and it is important to demonstrate 
        to a broader audience how RITA can address needs across every 
        mode.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.

    My only financial arrangements with my employer are:

        a. to receive my normal compensation from A.T. Kearney while 
        still employed with the firm until and if I am confirmed for 
        the prospective position.

        b. to receive the second of two installments of my 2008 A.T. 
        Kearney bonus, scheduled to be paid in second quarter of 2009.

        c. my ownership of stock shares in ATK Holdings, for which a 
        sale will he executed following my departure from the firm and 
        the proceeds will be distributed to me over a 3-year period.

    My retirement accounts are 100 percent vested and are maintained by 
investment funds outside of my employer organization.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In 2000, under while performing management consulting services at 
A.T. Kearney, Inc., I conducted business analysis of potential railroad 
operations associated with the proposed merger of the Canadian National 
Railway and the Burlington Northern--Santa Fe Railroad. The results of 
my analysis were used in conjunction with Canadian National Railway's 
application to the Surface Transportation Board for approval of the 
proposed merger, which was ultimately not approved.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee.
                            c. legal matters
    Have you ever been disciplined or cited for a breach of ethics by, 
or been the subject of a complaint to any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should he disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                        resume of peter h. appel
Work Experience
    A.T. Kearney, Inc., April 1997-present, Principal.

        Led over 40 management consulting engagements to develop and 
        implement strategic initiatives for private sector and public 
        sector clients in Transportation, Infrastructure, and 
        Aerospace, focusing on:

                Strategic Planning.
                Public-Private Partnerships.
                Acquisition Due Diligence.
                Organizational Design.
                Operations Improvement.
                Post-Merger Integration.

        For a major North American railroad, assessed potential growth 
        markets, developed acquisition strategies, and managed 
        successful post-merger integration initiatives.

        Led strategy engagements for two major North American airports, 
        identifying specific ways to improve asset performance and 
        achieve significant commercial revenue growth opportunities.

        Developed intermodal transportation strategy for major investor 
        in rail, trucking, and maritime transportation.

        Re-engineered onboard service procedures to reduce costs and 
        improve service at major U.S. airline.

        For a global maritime shipping company and port operator, 
        assessed transportation networks and trade growth across 
        several regions to identify and quantify market growth 
        opportunities.

        Developed trucking operations improvement program for major 
        U.S. manufacturer--encompassing improved fleet allocation and 
        network strategies.

        Led an initiative to improve supply chain efficiency for a 
        major U.S. Navy shipbuilding program.

        Developed business strategy for space launch vehicle division 
        of major aerospace systems manufacturer.

    Federal Aviation Administration, May 1993-April 1997, Special 
Assistant to the Administrator.

        Assisted head of FAA in strategic planning and operational 
        aspects of managing 47,000-person agency, including supporting 
        successful initiatives to overhaul the agency's personnel and 
        acquisitions systems.

        Coordinated a major agency-wide reorganization that more 
        clearly defined executive accountability.

        Managed outreach on policy decisions to airlines, aerospace 
        industry, Congress, and government agencies.

        Coordinated FAA involvement in major cross-departmental White 
        House initiatives.

    National Railroad Passenger Corporation: Amtrak, Feb. 1989-May 
1993, Assistant Director for Pricing and Yield Management.

        Directed pricing and inventory control activities for national 
        railroad.

        Managed staff in pricing analysis, yield management, and 
        operations research to develop targeted pricing strategies to 
        optimize revenue on a route-by-route basis.

        Designed and executed targeted marketing programs, generating 
        several million dollars in incremental revenue.
Education
        Massachusetts Institute of Technology, M.S. Transportation I 
        Aeronautics, 1987.

        Brandeis University, B.A., Economics & Computer Science, 
        Highest Honors, 1985.

        London School of Economics, General Course, Economics and 
        Transportation, 1983-84.
Additional Experience
    Obama for America, April 2007-Nov. 2008.
    National Delegate Operations

        Managed campaign's national delegate count throughout primary 
        season and provided analysis and rationale to support 
        correction of any inaccuracies in media delegate counts.

        Built detailed targeting model to identify delegate win 
        opportunities across congressional districts, territories, and 
        other sources, and used this analysis to inform resource 
        allocation.

        Advised Director of National Delegate Operations on delegate 
        tracking and national convention operations.
    Iowa Caucus
        Developed detailed turnout-tracking systems and forecasting 
        models to develop earliest estimates of caucus turnout for use 
        in caucus-night strategy.

        Supported development and execution of statewide Boiler Room 
        operation.
    Targeting and Analysis National Boiler Room Operations

        Worked with targeting staff for each region to develop and 
        update statewide turnout forecasts and targets across each 
        demographic group.

        Managed analysis of Early Vote across battleground states to 
        support resource allocation.

        As part of national Boiler Room team, tracked turnout levels 
        across targeted groups to develop real-time recommendations for 
        election day resource allocation.

    Office of the President-Elect and Vice President-Elect, Dec. 1992-
Jan. 1993.
    Member, Clinton-Gore Presidential Transition Team, Transportation 
        Policy Cluster
        Developed strategic recommendations and policy briefings for 
        incoming U.S. Secretary of Transportation focusing on key 
        pending issues associated with airline and rail industries.

    Senator Inouye. May I now call upon Mr. Joe Szabo?

       STATEMENT OF HON. JOSEPH C. SZABO, ADMINISTRATOR-

          DESIGNATE, FEDERAL RAILROAD ADMINISTRATION,

                  DEPARTMENT OF TRANSPORTATION

    Mr. Szabo. Thank you, Chairman Inouye, and I would also 
like to thank Chairman Rockefeller and Ranking Member Hutchison 
for calling this hearing today and, of course, the Members of 
the Committee for the privilege of appearing here today.
    Certainly also I would like to thank Secretary LaHood for 
his trust in offering me an opportunity to serve the 
Administration and, of course, to thank Senator Durbin for the 
incredibly kind introduction.
    As a fifth-generation railroader, it is certainly an honor 
to have been nominated by President Obama and have the 
opportunity to serve.
    And I am especially pleased to have with me members of my 
family today, especially my father, who is a 40-year rank-and-
file switchman for the Illinois Central. It is from him that I 
inherited my genetic affinity for railroading, as well as for 
the Chicago Cubs. It was from my father, as well as my mother, 
that I learned the importance of civic duty.
    When I hired out on the railroad and first began breaking 
in as a railroad switchman, on my very first day it was my 
father that was training me out there in that rail yard. And 
that is when I learned firsthand the dangers of railroading.
    The mission that FRA has is very, very personal for me. I 
have had friends and coworkers killed in the line of duty. I 
have been on the locomotive when we have been involved in grade 
crossing accidents that have caused fatalities to motorists. I 
have been the mayor of a community that had two major railroad 
yards and so, from a public safety perspective, I understand 
the issues of railroading and public safety.
    If confirmed, heading FRA would allow me to enforce the 
Federal rail safety laws to protect rail workers and enhance 
public safety. But equally as important, it would allow me to 
help grow an industry that I truly love. It would give me the 
opportunity to implement financial assistance programs that 
would help both freight and passenger rail and help the 
industry prosper. And this, in turn, would improve the mobility 
of goods and people, reduce vehicle congestion, and reduce 
greenhouse gas emissions.
    If confirmed, I will make it a priority to implement the 
many new statutory requirements of the Rail Safety Improvement 
Act of 2008, and this includes more than 40 rail safety 
rulemakings, studies and model State laws. Obviously, it 
includes a high priority of this Committee implementing 
positive train control on major freight railroads and passenger 
railroads no later than the end of 2015. It means implementing 
the mandates of hours of service reform passed by this 
Committee and, of course, the opportunity for more creative 
risk reduction programs.
    It also means implementing those statutes and mandates in 
the Passenger Rail Investment and Improvement Act of 2008 
which, of course, reauthorizes Amtrak for the first time since 
1997. It provides capital grants for States, congestion relief 
programs, and the development of high-speed rail corridors.
    And if those were not enough, add to it the requirements of 
the American Recovery and Reinvestment Act of 2009, which 
includes the $8 billion in capital grants for high-speed rail. 
Truly what we are seeing is a renaissance in rail as part of a 
balanced transportation network in our Nation.
    If confirmed, it would be my duty to ensure that all of 
these programs are carried out effectively, efficiently, and in 
a timely and transparent manner. Obviously, the plate is full, 
but I truly cannot think of a better time, a more exciting time 
to be leading FRA.
    I look forward to your questions, comments, and any 
guidance that you might provide.
    [The prepared statement and biographical information of Mr. 
Szabo follows:]

 Prepared Statement of Hon. Joseph C. Szabo, Administrator-Designate, 
     Federal Railroad Administration, Department of Transportation
    Chairman Rockefeller, Ranking Member Hutchison, and other Members 
of the Committee, thank you for the privilege of appearing before you 
today. Thank you, Senator Durbin, for your gracious introduction. I am 
honored to have been nominated by President Obama to serve as the 
Administrator of the Federal Railroad Administration (FRA), and if I am 
confirmed, I will do my best to bring my substantial experience, as a 
railroad operating employee, as a union representative of railroad 
employees, and as a public servant in my hometown and home state, to 
Secretary LaHood's management team at the Department of Transportation. 
Today I would like to let you know what my approach would be to serving 
as FRA Administrator, if I am confirmed, and then learn from you which 
issues and matters you believe are most important for our country's 
freight and passenger rail transportation system.
    I am excited about the possibility of serving as FRA's 
Administrator because of my long, possibly genetic affinity for 
railroading and my equally deep-seated desire to make government work 
even better for the many dimensions of the public good. I would like to 
serve FRA because of what the agency is commissioned to do: to enforce 
the Federal railroad safety laws and prescribe new regulations that 
will enhance railroad safety; to implement railroad financial 
assistance programs to help address the needs of the freight railroads 
and stimulate the development of high-speed intercity passenger rail 
service; to conduct research and development necessary to improve 
railroad safety; and to consolidate government support of rail 
transportation activities while ensuring that rail plays a continuing 
role in meeting the challenges of moving people and goods safely and 
efficiently. Leading such a broad range of missions would be 
exhilarating enough, but the prospect of becoming FRA's Administrator 
is particularly appealing to me given where the agency stands at this 
juncture in time: today it is FRA's job to carry out not only most of 
the provisions of two very significant reauthorization statutes enacted 
last fall, but also to play a central role in managing historic 
investments provided for in this year's economic recovery legislation. 
If confirmed, I will make it a priority to implement the many new 
statutory measures that Secretary LaHood has assigned to FRA.
    With regard to the Rail Safety Improvement Act of 2008, which 
became law in October 2008, it would be a special honor to play a role 
in its implementation because of my longstanding involvement in rail 
safety issues both as an operating employee and as a union 
representative of other employees. Despite both recent and long-term 
improvements in rail safety, the September 2008 collision between a 
commuter train and a freight train in Chatsworth, California, 
underscores the clear need to act aggressively for safety in the rail 
mode, as well as in the other modes of transportation. As Secretary 
LaHood told this Committee in his confirmation hearing, ``safety . . . 
has always been and must continue to be the central focus of the 
Department of Transportation.'' My understanding is that this new law 
mandates more than 40 rail safety rulemakings, studies, and model state 
laws. These statutory mandates include a rulemaking to establish the 
essential functionalities required for positive train control systems 
that the Act requires to be installed on major freight and passenger 
railroads by 2015. The Act also improves the statutory protections 
afforded by the hours of service laws and, for the first time, grants 
the Secretary the authority to set hours of service standards for 
passenger train crews. If confirmed, I plan to make the implementation 
of these new safety provisions a priority.
    The other legislation enacted last fall that is primarily FRA's to 
carry out is the Passenger Rail Investment and Improvement Act of 2008. 
That Act represents the first reauthorization of Amtrak and rail 
passenger programs since 1997, and the most comprehensive Amtrak 
legislation in recent decades. The Act authorizes very substantial 
levels of funding for Amtrak capital investments, operating expenses, 
and repayment of principal and interest on the railroad's long-term 
debt. It also authorizes significant new funding programs, including 
capital investment grants to States to support improved intercity 
passenger rail service, a congestion relief program, and a high-speed 
rail corridor development program. Again, if confirmed, I plan to make 
the successful implementation of these new provisions a priority.
    The last set of legislative mandates that are FRA's responsibility 
to carry out were established by the American Recovery and Reinvestment 
Act (ARRA) and entail two major types of rail grant programs. One is 
funded at $1.3 billion for capital grants to Amtrak, of which $450 
million is for security improvements, including life safety 
improvements. The other grant program is funded at $8 billion for 
capital grants for high-speed rail corridors and intercity passenger 
rail service, programs authorized in the Passenger Rail Investment and 
Improvement Act of 2008. President Obama has proposed to reshape the 
Nation's transportation system by building a world-class network of 
high-speed passenger rail corridors to complement our other modes. This 
new strategy begins with the $8 billion provided in ARRA and continues 
with the President's proposed budget for Fiscal Year 2010, which calls 
for a $5-billion, 5-year high-speed rail grant program. I am thrilled 
at the possibility of leading FRA's implementation of these programs so 
necessary to the restoration and growth of our economy.
    Finally, as we look to the next surface transportation 
reauthorization, I would, if confirmed, advocate that rail be 
considered an integral part of a larger solution for reducing highway 
and airway traffic congestion as well as promoting environmental 
protection, energy independence, and livable communities. The benefits 
of moving passengers and freight by rail can support reductions in 
emissions and greenhouse gases while at the same time providing the 
much needed capacity enhancements that help to promote improved 
mobility and economic growth.
    Thank you so much for inviting me to speak with you today. I would 
be happy to respond to any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Joseph (Joe) 
C. Szabo.
    2. Position to which nominated: Administrator, Federal Railroad 
Administration, United States Department of Transportation.
    3. Date of Nomination: 03/26/2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: United Transportation Union, 304 Pennsylvania, SE, 
        Washington, DC 20003.

    5. Date and Place of Birth: December 26, 1957; Evergreen Park, Cook 
County, IL.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage). None.
    7. List all college and graduate degrees. Provide year and school 
attended.

        Bachelors of Arts, Personnel Management and Labor Relations, 
        1990, Governors State University.

        Associate of Applied Science, Accounting, 1984, South Suburban 
        College.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    Management experience as related to each position is highlighted in 
italics:

        Alternate National Legislative Director, United Transportation 
        Union, 01/09 to Present: Assist in providing direction to rail 
        safety and regulatory issues in the United States, as well as 
        advocacy for improving passenger and freight rail service.

        Illinois State Legislative Director, United Transportation 
        Union, 02/96 to 01/09: Provided direction to rail safety and 
        regulatory issues in Illinois, as well as advocacy for 
        improving passenger and freight rail service.

        Vice President, Illinois AFL-CIO, 10/06 to Present.

        Mayor, Village of Riverdale, 1997-2000: Served as CEO of a 
        community of approximately 15,000 residents, 90 full-time and 
        35 part-time employees, and an annual $9 million budget.

        Village Trustee, Village of Riverdale, 1987-97: Drafted annual 
        budgets for the Village and assisted in negotiating labor 
        contracts from a management perspective.

        Train Conductor, Metra/Illinois Central Railroads, 1976-96: 
        Performed railroad duties as a yard switchman, freight road 
        trainman, and commuter passenger conductor in accordance with 
        Federal railroad regulations and operating rules.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Mayor Emeritus, Village of Riverdale, 11/2000-4/2009.

        Federal Railroad Administration, Rail Safety Advisory Committee 
        (RSAC), 9/2000-2/2009.

        State of Illinois, Climate Change Advisory Group, 1/2007-12/
        2007.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Metropolis 2020, Executive Council Member, 2/99 to Present.

        Illinois AFL-CIO, Vice President. 10/06 to Present.

        Historic Pullman Foundation. Board of Directors. 4/00 to 9/07.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social. charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Transportation For Illinois Coalition, Member, 12/07 to 
        Present, No resrictions.

        Dolton Elks, Member 02/88 to 03/01, No restrictions.

        Metropolitan Planning Council, Member 02/01 to Present, No 
        restrictions.

        Business Leaders for Transportation, Member 02/20011 to 
        Present, No restrictions.

        Eugene V. Debs Society, Member 11/96 to Present, No 
        restrictions.

        National Association of Railroad Passengers, Member 12/03 to 
        Present. No restrictions.

        AARP, Member, 04/08 to Present, No restrictions.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        Ivanhoe Park Board, Commissioner, 1982-87; no debt.

        Candidate for State Representative, Illinois 33rd District, 
        1984: no debt.

        Village Trustee, Village of Riverdale, 1987-97; no debt.

        Mayor, Village of Riverdale, 1997-2000; no debt.

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    As of April 15, 2009:

        United Transportation Union PAC

                1998--$1,200

                1999--$1,200

                2000--$1,200

                2001--$1,200

                2002--$1,200

                2003--$1,200

                2004--$2,100

                2005--$2,400

                2006--$2,400

                2007--$2,500

                2008--$2,400

                2009--$600

        Friends of Dick Durbin

                1996--$1,000

                1999--$500

                2000--$500

                2001--$500

                2002--$500

                2005--$1,000

                2006--$1,000

                2007--$1,000

                2008--$1,350

        John Kerry for President

                2004--$1,000

        Obama for America

                 2008--$4,600

                Volunteer Work: Knocked on doors in precincts to get 
                out the vote

        Jesse Jackson, Jr. for Congress

                1999--$1,000

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        2000, Village of Riverdale Employee of the Year awarded by the 
        Riverdale Chamber of Commerce.

        1999, Golden Eagle Award by the Riverdale Redevelopment 
        Corporation.

        1982, Outstanding Local President by the Illinois Jaycees.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Mayor's Column, Riverdale Review, Quarterly 1997-2000.

        State Director's Column, UTU Illini-Line, Irregularly 1996-08.

        ``U.S. 66 Coal-Mining Town Gets Recognized After 106 Years: The 
        Battle of Virden at Last Gets Its Monument,'' Route 66 
        Federation News, Spring 2007.

        ``Four Miles of Futility: How Railroad Improvements Can Solve 
        Chicago's Highway Congestion Problems,'' Speech to the Council 
        of Mayors--Chicago Area Transportation Study, April 29, 2003.

        ``CREATE: Improvements to Chicago's Rail Infrastructure,'' 
        Speech to the UTU Tri-State Rail Conference, June 4, 2004.

        ``California's Passenger Rail Success Story,'' Speech to 
        Illinois Municipal League Rail Workshop, September 24, 2005.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    Testified before the House Transportation & Infrastructure 
Subcommittee on Railroads, April 25, 2001, in support of H.R. 1020 the 
Railroad Track Modernization Act of 2001.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I bring a blend of hands-on experience in governmental management, 
railroad safety, passenger and freight rail advocacy and practical 
railroad operating experience. My goal is to apply the full spectrum of 
my experience toward carrying out the President's stated policies for 
rail development and safety.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting, 
controls, and what experience do you have in managing a large 
organization?
    The agency must follow all applicable regulations governing 
financial and accounting matters and he responsible in all 
expenditures--they must return value. I am quite conscious of my 
fiduciary responsibility due to my experience as the Mayor of Riverdale 
where I confronted these issues on a daily basis. As a result of my 
years in managing local government and managing people, I have learned 
how to effectively set direction and utilize delegation to allow staff 
to perform to the best of their capabilities. I will be responsive to 
the direction and oversight of Congress and the Senate Commerce 
Committee in executing my duties.
    20. What do you believe to be the top three challenges facing the 
department/agency and why?
    Implementing provisions of the Rail Safety Improvement Act of 2008, 
the Passenger Rail Investment Act of 2008, and the American Recovery 
and Reinvestment Act of 2009. FRA is a relatively small agency that has 
3 significant pieces of legislation to deal with in a cost effective 
and timely manner. There are several complex regulatory issues that 
will have a profound effect on the safety of our Nation's railroads as 
well as statutory deadlines for completing this important work. Just as 
important is FRA's ability to shape the future high-speed rail 
opportunities that are a centerpiece to the Recovery and Reinvestment 
Act and included in President Obama's 2010 budget as a Presidential 
initiative. This is both a challenging and exciting time for FRA.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have a pension with the United Transportation Union.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As Alternate National Legislative Director for the United 
Transportation Union I assist in providing direction to rail safety and 
regulatory issues in the United States, as well as advocate for 
improving passenger and freight rail service.
    As State Legislative Director for the United Transportation Union, 
and Vice President for the Illinois AFL-CIO, I have been involved in 
advocating for rail safety legislation in Illinois, and passenger and 
freight rail advocacy. This included the passage of a state statute for 
railroad crew van safety standards; railroad walkway safety standards; 
trauma counseling for rail workers involved in serious incidents; 
prohibition of rail carriers from delaying, denying or interfering with 
the medical treatment of injured workers; and amendments to the 
Railroad Police Act to provide objective oversight. I also worked to 
increase state and Federal funding for freight, commuter, and intercity 
passenger rail service, and for modifications to the Federal Railroad 
Retirement system. I also discussed with Congressional staff the 
language regarding delaying, denying or interfering with the medical 
treatment of injured rail workers in S. 1889, Rail Safety Enhancement 
Act of 2007 and had a limited role in its passage.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will he resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    May 1976, I was arrested in Macomb, Illinois, for attempting to use 
a false I.D. to purchase beer. I was 18 and the drinking age at the 
time for beer and wine was 19. The charges were dropped.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I have not personally been named in any administrative agency 
proceeding or civil litigation. As State Legislative Director for the 
United Transportation Union, I have signed rail safety complaints on 
behalf of the union and its members that were adjudicated before an 
Administrative Law Judge of the Illinois Commerce Commission and have 
occasionally testified at the hearings.
    While Mayor, the Village of Riverdale was party to a number of 
lawsuits. To my knowledge I was not personally named in any of those 
lawsuits.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should he disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    Are you willing to appear and testify before any duly constituted 
committee of the Congress on such occasions as you may be reasonably 
requested to do so? Yes.
                                 ______
                                 
                       resume of joseph c. szabo
    Seeking the position of Administrator, Federal Railroad 
Administration
Summary of Qualifications
    Broad experience in railroad safety and development. Proven success 
in drafting and enactment of state rail safety laws and contributing to 
the adoption of Federal regulations. Experience in implementing state 
supported rail service and expanding rail service to populations in 
need. Experience in managing budgets and working with state and local 
elected officials, as well as Members of Congress.
Professional Highlights
    United Transportation Union, 1996-present, Alternate National 
Legislative Director.

        From January 2009 to present, assisted the National Legislative 
        Director with rail safety and regulatory issues, and provided 
        leadership and direction for UTU State Legislative Directors.

    Illinois State Legislative Director.

        From 1996 to 2009, provided vision and direction to rail safety 
        and regulatory issues in Illinois, drafted safety laws and 
        regulations, and prepared and delivered testimony before 
        Illinois House and Senate Committees on rail safety issues. 
        Served on the Federal Railroad Administration's Rail Safety 
        Advisory Committee participating in the development of Federal 
        regulations on rail safety. Provided advocacy for improving 
        passenger and freight rail service in Illinois.

    Key Contributions:

        Provided leadership to the coalition that doubled intercity 
        passenger rail service in Illinois, creating the Nation's 
        second largest state-sponsored passenger rail program.

        Provided state-wide vision as co-chairman of the Freight Rail 
        Subcommittee for Illinois Governor Rod Blagojevich's 2002 
        Transition Team.

        Contributed practical rail safety insight as a national United 
        Transportation Union representative for the Federal Railroad 
        Administration's Rail Safety Advisory Committee regulatory 
        efforts covering Operating Rules, Locomotive Safety Standards, 
        Passenger Safety, and Medical Standards.

        Drafted and coordinated enactment into state law key safety 
        legislation to provide injured rail employees prompt medical 
        treatment, and which language was adopted in the Federal Rail 
        Safety Improvement Act of 2008.

        Strategically led one of three coalitions that modernized the 
        Illinois Railroad Facilities Code.

        Prepared language and led discussions with the rail industry 
        for agreed-to regulatory language for walkway safety standards 
        in Illinois.

        Drafted and coordinated enactment into Illinois law crew van 
        safety standards, hours of service for crew van drivers and 
        inspection requirements for crew vans.

        Provided training to United Transportation Union staff on 
        Effective Workplace Safety Programs; developed in partnership 
        with the University of Illinois a training module on Effective 
        Documentation and Writing.

    Village of Riverdale, 1987-2000, Mayor.

        From 1997-2000, elected to serve as Chief Executive Officer of 
        a community of approximately 15,000 residents, 90 full-time and 
        35 part-time employees, and an annual $9 million budget.

    Village Trustee.

        From 1987-1997, elected to serve as a member of the Village 
        Board, chairing Finance, Personnel, and Economic Development 
        Committees. Reviewed and adopted ordinances and policies. 
        Drafted annual budgets and served on labor contract negotiating 
        committees. Acted as Mayor pro tempore in absence of the Mayor.

    Key Contributions:

        Provided regional leadership as member of the Executive Board 
        of the South Suburban Mayors and Managers Association (SSMMA) 
        and expertise in freight and passenger rail issues as a member 
        of the SSMMA Transportation Committee.

        Provided expertise on commuter and freight rail matters as 
        Member and Vice Chairman of the Executive Committee of the 
        Chicago Area Transportation Study.

        In conjunction with the Chicago Area Transportation Study, 
        assisted the Federal Railroad Administration in grade-crossing 
        safety discussions with communities across Chicago metro 
        region.

        Initiated Reinvestment in Riverdale program to acquire eyesore 
        properties, revitalize decaying neighborhoods. and institute 
        principles of Transit Oriented Development.

        Through careful budgeting and cost containment, eliminated an 
        accumulated deficit in the Village General Fund.

        Achieved Certificate of Excellence in Financial Reporting from 
        the international Government Finance Officers Association six 
        consecutive years.

        In an effort to address diversity in the Riverdale Police and 
        Fire Departments and ensure ethical enforcement of laws, 
        partnered with Operation PUSH, the local NAACP, and 
        neighborhood churches to create the Citizens Policy Review 
        Committee.

        Developed a sense of volunteerism and ensured strict community 
        standards by involving residents as volunteer property 
        maintenance code inspectors and also in the Community Awareness 
        Policing Academy.

        Provided vision to the region as Riverdale's member on the 
        Board of Directors of the Calumet Region Enterprise Zone.
Other Positions
    Vice President, Illinois AFL-CIO, 2006-present.

    Executive Council, Chicago Metropolis 2020, 1998-present.

        Focusing on regional issues of Education, Economic Development, 
        Governance, Land Use and Housing, Transportation and Taxation.

    Train Conductor, Metra/Illinois Central Railroads, 1976-1996.

        Performed railroad duties as a yard switchman, freight road 
        trainman, and commuter passenger conductor in accordance with 
        Federal railroad regulations and operating rules for the 
        Illinois Central Railroad from 1976 to 1987, and Metra from 
        1987 to 1996. Served as a member of the Metra Labor-Management 
        System Safety Oversight Committee.

    Commissioner, Ivanhoe Park District, 1982-1987.

    Riverdale Zoning Board of Appeals, 1980-1985.

        Served as Chairman, 1982-1985.
Education
    Governors State University

        Bachelors of Arts, Personnel Management and Labor Relations, 
        1991.

        Candidate for Masters in Public Administration, 2002-2004.

    South Suburban College

        Associate of Applied Science, Accounting, 1984.

    University of Wisconsin--Extension

        Continuing Education Units, Land Use Management and 
        Administration, 1983 and 1984.

    Senator Inouye. I thank you very much, Mr. Szabo.
    And now may I call upon Mr. Dana Gresham. Mr. Gresham?

STATEMENT OF DANA G. GRESHAM, ASSISTANT SECRETARY-DESIGNATE OF 
                TRANSPORTATION FOR GOVERNMENTAL 
             AFFAIRS, DEPARTMENT OF TRANSPORTATION

    Mr. Gresham. Mr. Chairman, with your permission, I would 
like to summarize my remarks and ask that my full statement be 
entered into the record.
    Senator Inouye. Without objection, so ordered.
    Mr. Gresham. Thank you, Mr. Chairman.
    Mr. Chairman and members of the Committee, thank you for 
the opportunity to appear before you today to discuss my 
nomination for the position of Assistant Secretary for 
Governmental Affairs at the Department of Transportation. I am 
deeply honored to be here as President Obama's nominee for this 
important position, and I am also grateful for Secretary 
LaHood's support of my nomination.
    In addition, I would like to thank my wife, Kathy, who is 
here with me today--stand up, Kathy--for all of her support 
throughout this process.
    Mr. Chairman, this is an extraordinary moment in our 
Nation's history. While there is no doubt that we are faced 
with enormous challenges, we are also presented with enormous 
opportunities to improve the lives of our fellow citizens. This 
is particularly the case in matters related to transportation. 
In the coming months, the Department and the Congress will have 
an opportunity to work together on many important initiatives, 
including both the aviation and surface reauthorization bills.
    As work begins in earnest on these and other major 
initiatives, it is critically important that there be clear and 
open lines of communication between the Department and 
Congress. Indeed, in his testimony before this very committee, 
Secretary LaHood made a commitment to be available to you and 
to be receptive to your ideas and input.
    Mr. Chairman, I share Secretary LaHood's commitment. If 
confirmed, I will work diligently to ensure that we are 
responsive and available to you and that your voices are heard 
within the Department, that we effectively communicate the 
Department's efforts to implement the legislative mandates 
passed by the Congress and signed into law by the President, 
and that we work closely with the modal administrations 
throughout the Department and the White House to ensure that 
the Department is not only speaking with one voice to Congress, 
but also to State and local elected officials, other Federal 
agencies, and all of the relevant transportation stakeholders.
    Mr. Chairman, Ranking Member Hutchison, and members of the 
Committee, it is an honor and a privilege to appear before you 
today. Should I be confirmed, please know that I will always be 
available to answer your questions and will maintain an open 
line of communication with you. Thank you for your 
consideration of my nomination. I will be pleased to answer 
your questions.
    [The prepared statement and biographical information of Mr. 
Gresham follows:]

Prepared Statement of Dana G. Gresham, Assistant Secretary-Designate of 
 Transportation for Governmental Affairs, Department of Transportation
    Chairman Rockefeller, Ranking Member Hutchison, and distinguished 
Members of the Committee, thank you for the opportunity to appear 
before you today to discuss my nomination for the position of Assistant 
Secretary for Governmental Affairs at the Department of Transportation. 
I am deeply honored to be here as President Obama's nominee for this 
important position. I am also grateful for Secretary LaHood's support 
of my nomination.
    In addition, I would be remiss if I did not thank my wife for her 
patience and steadfast support as I have continued to pursue a career 
of public service.
    Mr. Chairman, this is an extraordinary moment in our Nation's 
history. While there is no doubt that we are faced with enormous 
challenges, we are also presented with enormous opportunities to 
improve the lives of our fellow citizens. This is particularly the case 
in matters related to transportation. Indeed, already the 
Administration and Congress have come together to pass an Economic 
Recovery bill that is creating jobs and spurring additional investment 
in transportation infrastructure in every region of the country. In 
addition, in the coming months, the Department of Transportation and 
the Congress will have an opportunity to improve communities throughout 
the country for years to come by working together to reauthorize both 
the aviation and surface authorization bills.
    As the Congress and the Department work together on these major 
initiatives, it is critically important that there be clear and open 
lines of communication. In his testimony before this very committee, 
Secretary LaHood made a commitment to be available to you and receptive 
to you and your colleagues' ideas and input. As the nominee for the 
position of Assistant Secretary of Governmental Affairs, I share 
Secretary LaHood's commitment. If confirmed, I will work diligently to 
ensure that the Department is responsive and available to you and your 
staff and that your voices are heard within the Department.
    Mr. Chairman, as you know, I am a product of the House of 
Representatives. Over the course of more than 14 years, I've worked for 
three different Members of Congress, starting as a Staff Assistant and 
culminating as a Chief of Staff. My experience working on 
transportation issues for these Members has given me a great affinity 
for Congress as an institution. If confirmed, I intend to make sure 
that the Office of Governmental Affairs responds quickly and accurately 
to your inquiries; that we effectively communicate the Department's 
efforts to implement the legislative mandates passed by the Congress 
and signed into law by the President; and that we work closely with the 
modal administrations throughout the Department and the White House to 
ensure that the Department is not only speaking with one voice to the 
Congress, but also to state and local elected officials, other Federal 
agencies, and all the relevant transportation stakeholders.
    Mr. Chairman, Members of the Committee, it is an honor and a 
privilege to appear before you today. I am profoundly grateful for this 
opportunity to serve alongside such a respected public servant as 
Secretary LaHood and his entire team at the Department. Should I be 
confirmed, please know that I will always be available to answer your 
questions and will maintain an open line of communication with you. I 
look forward to working closely with you and your staff to move our 
Nation's transportation agenda forward.
    Thank you for your consideration of my nomination. I would be 
pleased to answer your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Dana Grant 
Gresham.
    2. Position to which nominated: Assistant Secretary for 
Governmental Affairs, United States Department of Transportation.
    3. Date of Nomination: March 10, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

    5. Date and Place of Birth: August 12, 1971; Birmingham, Alabama.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Kathryn Shelton Gresham, Trial Attorney, U.S. 
        Department of Transportation; child: Justin Nathaniel Gresham--
        Age 2.

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.S., Foreign Service--Georgetown University, 1994.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Summer 1994--Temporary Employee.
        Washington, D.C. based Temporary Employee Placement Firm.

        September 1994 to July 1997--Office of Representative Eva 
        Clayton.
        Positions held: Staff Assistant and Legislative Assistant.
        Relevant experience: As Legislative Assistant, I handled 
        transportation issues during the reauthorization of the 
        Intermodal Surface Transportation and Equity Act (ISTEA).

        July 1997 to December 2002--Office of Representative Bud 
        Cramer.
        Positions held: Legislative Assistant and Legislative Director.
        Managerial experience: As Legislative Director, I gave 
        legislative and strategic guidance to staff.
        Relevant experience: During my tenure in the office, Rep. 
        Cramer was a Member of the Transportation and Infrastructure 
        Committee as well as a Member of the House Appropriations 
        Committee. As a Legislative Assistant and then Legislative 
        Director, I handled his transportation authorization committee 
        work and then his transportation appropriations committee work.

        January 2003 to January 2009--Office of Representative Artur 
        Davis.
        Positions held: Chief of Staff and Senior Advisor.
        Managerial experience: As Chief of Staff, I was the direct 
        supervisor of staff in the Washington, D.C. office and 
        exercised general oversight over the District office staff. I 
        also managed a budget of approximately $1.3 million.

        November 2008 to January 2009--Presidential Transition Team.
        Positions held: Liaison, Congressional Relations staff and 
        Legislative Liaison, Department of Transportation Secretary 
        Designate Confirmation Team.
    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.
    Member, DKG Associates, LLC--October 2004 to November 2005.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Congressional Black Associates (CBA)

                Member, 1995 to 2000; 2004 to 2005; 2007 to 2008 (est.)
                Chair, Membership Committee, 1996.
                President, 1997.
                (No restrictions on Membership based on sex, race, 
                color, religion, national origin, age or handicap).

        Alpha Phi Alpha Fraternity, Inc.

                Member, 1997 to Present.
                (No restrictions on Membership based on sex, race, 
                color, religion, national origin, age or handicap).

        Emerging Leaders Institute

                Member, 1997 to 1998.
                (No restrictions on Membership based on sex, race, 
                color, religion, national origin, age or handicap).

        House Chiefs of Staff Association

                Member, 2003 to 2006 (est.)
                (No restrictions on Membership based on sex, race, 
                color, religion, national origin, age or handicap).

        Congressional Legislative Staff Association

                Member 1996 to 1998 (est.)
                (No restrictions on Membership based on sex, race, 
                color, religion, national origin, age or handicap).
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period. None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements. None.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed. None.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony. None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I believe my 14 years of experience working on Capitol Hill for 
three Members of the House of Representatives affirmatively qualifies 
me to be Assistant Secretary for Governmental Affairs. Over the course 
of this period, I've served in almost every legislative position there 
is to serve in a Member's personal congressional office, beginning my 
career on the Hill as a Staff Assistant for Representative Eva Clayton 
and culminating as Chief of Staff for Representative Artur Davis.
    Throughout my tenure on the Hill, I've worked on transportation 
issues. In particular, first as a Legislative Assistant and then as the 
Legislative Director for Representative Bud Cramer, I worked on 
transportation issues from both the authorization and the 
appropriations standpoint. In these capacities, I served as 
Representative Cramer's primary transportation staffer when he was a 
Member of the House Transportation and Infrastructure Committee and 
then later when he moved to the House Appropriations Committee, 
initially serving on the Transportation Appropriations Subcommittee. As 
Chief of Staff to Representative Artur Davis, a position I held for 
nearly 6 years, I maintained my substantive involvement with 
transportation issues while taking on a much broader managerial and 
policy portfolio. As such, I managed a budget of approximately $1.3 
million and directly supervised a staff of seven in the D.C. Office, 
while exercising general oversight over an average of eleven District 
employees spread across five District Offices. Moreover, as Chief of 
Staff to a Member who served in a leadership position with the New 
Democrat Coalition (NDC), while also being a Member of the 
Congressional Black Caucus (CBC), I worked closely with the Leadership 
of the House of Representatives and the various organized caucuses 
within the Democratic Caucus (i.e., the CBC, the New Dems, and the Blue 
Dogs).
    Over the course of a 14-year career on the Hill, I believe I have 
developed strong relationships with key institutional players and 
decisionmakers both on and off of the Hill. Consequently, I will bring 
to the job a broad and sophisticated knowledge of the legislative 
process and an understanding of the connection between policy and 
politics that drive decision-making on Capitol Hill. These qualities 
and experiences, I believe, make me qualified for the position to which 
I've been nominated.
    19.What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    As I understand the position, my primary responsibilities will be 
to: (1) supervise and coordinate all legislative and non-legislative 
matters between the Department and Congress; (2) Serve as the liaison 
with state and local elected officials, as well as the local and state 
transportation planning organizations; and (3) coordinate activities 
with other Federal Agencies, as necessary.
    I have 6 years of managerial experience serving as Chief-of-Staff 
to Representative Artur Davis with the responsibility of managing a 
staff of almost 20 employees and a budget of approximately $1.3 
million.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the top three challenges facing the Department today are:

        1. Improving transportation safety. This is an on-going 
        Departmental responsibility and one of the Department's highest 
        priorities. Making sure that Americans are safe, whether on the 
        roads, the rails, or in the air must continue to be a central 
        guiding principal for the Department. Technological advancement 
        must be a key component of this mission. In this regard, the 
        implementation of the FAA's NextGen system is essential;

        2. The Department must ensure that the economic recovery funds 
        are being monitored and used efficiently and effectively; and

        3. It is critical to our Nation's infrastructure and overall 
        economy that the Administration work with Congress to pass both 
        the aviation and surface reauthorization bills this Congress.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have no financial arrangements, deferred compensation agreements, 
or other continuing dealings with business associates, clients, or 
customer. My only retirement account is the Federal Government's Thrift 
Savings Plan.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    Over the course of the past 10 years, I have served in senior 
legislative positions for two Members of Congress. I served as 
Legislative Director for Congressman Bud Cramer from 1999-2002. In 
addition, I served as Chief of Staff and Senior Advisor for Congressman 
Artur Davis from 2003-2009. I was directly involved in drafting 
legislation and devising a legislative strategy to get legislation 
passed to further my Office's legislative agenda. This includes being 
actively involved in transportation legislation.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Should any conflict of interest arise, I will immediately recuse 
myself from all activities concerning that conflict.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       resume of dana g. gresham
Professional Experience
    Obama-Biden Presidential Transition Team, Washington, D.C.; 
Congressional Relations Team, November 2008-January 2009.

        Served as the Legislative Liaison on the Confirmation Team for 
        the Department of Transportation Secretary Designate, 
        Congressman Ray LaHood. In this capacity, helped to 
        successfully guide Secretary Designate LaHood through the 
        Senate Confirmation process.

        Primary liaison within the Transition Team for the following 
        Committees of the U.S. House of Representatives: 
        Transportation, Judiciary Science, and Agriculture. This 
        entailed coordinating and attending meetings between the 
        leadership of these four committees and the members of the 
        Agency Review Teams within the Transition in order to identify 
        legislative and regulatory issues to be addressed by the Obama 
        Administration.

    Office of Representative Artur Davis (AL-7), Washington, D.C.; 
Senior Advisor, November 2008-January 2009; Chief of Staff, January 
2003-November 2008.

        Primary political and policy advisor to Member of Ways and 
        Means.

        Served as lead staffer for Member in his role as Vice Chair of 
        the New Democrat Coalition. In this capacity, helped guide 
        overall legislative and political direction of the coalition. 
        This included working closely with the House Democratic 
        Leadership to further the legislative agenda of the coalition.

        Staffed Member in his role as Recruitment Committee Chair and 
        Co-Chair of the Red to Blue Program of the Democratic 
        Congressional Campaign Committee.

        Developed and maintained relationships with outside interest 
        groups and coalitions, as well as internal Democratic Caucus 
        groups in order to fulfill Member's legislative and political 
        agendas.

        Developed overall legislative agenda, provided broad strategic 
        counsel, and coordinated all activities of the legislative 
        staff, with emphasis placed on legislative activities Member's 
        committee assignments.

        Oversaw all legislative matters related to Transportation 
        issues and the Appropriations process.

        Directly supervised 7 employees in the Washington, D.C. Office 
        and exercised general oversight over ii employees in 5 District 
        Offices. Responsibilities included, planning and executing $1.3 
        million annual budget.

    Office of Representative Bud Cramer (AL-5), Washington, D.C.; 
Legislative Director, May 1999-December 2002.

        Primary legislative advisor to a Founding Member of the Blue 
        Dog Coalition.

        Exercised general oversight over all legislative activities 
        within Congressional Office. This included developing and 
        implementing legislative strategy as it relates to assignment 
        on the House Appropriations Committee and pursuing funding for 
        Alabama specific projects in the various Appropriations 
        Subcommittees--specifically Transportation, and VA-HUD.

    Legislative Assistant, June 1997-May 1999.

        Performed duties related to Member's assignment on 
        Appropriations Subcommittee on Transportation, including but 
        not limited to, securing funding for District specific projects 
        in DOT budget accounts. In the absence of earmarks, developed 
        directive report and bill language, and crafted committee 
        amendments as necessary.

        Exercised primary responsibility over several legislative 
        issues, including Transportation. In particular, managed 
        transportation issues while Member was on the Transportation 
        and Infrastructure Committee.

    Office of Representative Eva Clayton (NC-1), Washington, D.C.; 
Legislative Assistant, October 1995-June 1997.

        Researched, analyzed, and summarized legislation pertaining to 
        Small Business Committee with a special emphasis on minority 
        business development and the SBA's 8(a) program.

        Managed Member's transportation legislative issues during the 
        reauthorization of the ISTEA legislation.

    Staff Assistant, September 1994-October 1995.
Education
        Georgetown University, Washington, D.C., Bachelor of Science in 
        Foreign Service, May 1994.

        Major: International Politics with a concentration in Diplomacy 
        and International Security.
Affiliations
        Member and Past President, Congressional Black Associates 
        (CBA).
        Member, Alpha Phi Alpha Fraternity, Incorporated.

    Senator Inouye. Thank you very much and congratulations.
    May I now call upon Mr. Robert Rivkin?

                 STATEMENT OF ROBERT S. RIVKIN,

                   GENERAL COUNSEL-DESIGNATE,

                  DEPARTMENT OF TRANSPORTATION

    Mr. Rivkin. Thank you, Chairman Inouye, Ranking Member 
Hutchison, and Members of the Committee. I am proud to appear 
before you today as President Obama's nominee to serve as 
General Counsel of the Department of Transportation. I deeply 
appreciate, as do my colleagues, Secretary LaHood's confidence 
in my ability to assist him, if confirmed, with the exciting 
challenges and opportunities facing our Nation's transportation 
system.
    I would also like to thank Senator Durbin for taking the 
time out of his busy schedule to introduce me to the Committee 
today.
    I would like to introduce my wife, Cindy Moelis, who is 
here to support me today. Our three children, Stephanie, 
Claire, and Alexander Rivkin, are at school back in Chicago and 
could not be here today.
    Transportation is the lifeblood of our economy, the 
foundation for economic development and job growth, and the tie 
that binds our communities. It is fundamental to farmers and 
manufacturers who ship their goods to markets around the world, 
as well as to urban families trying to get their kids to 
school, parents to work, grandparents to doctors' appointments. 
Helping move people and goods affordably, efficiently, 
sustainably, and most important, safely is at the core of our 
national transportation policy.
    More than any time in recent memory, this moment offers the 
opportunity to return our roads, bridges, and rails to a state 
of good repair, to bring our aviation system into the 21st 
century, to rediscover, reinvigorate, and reinvent freight and 
passenger rail, to better utilize and integrate our maritime 
assets, and to more tightly knit our transportation resources 
into a system that is defined not by its modes, but by its 
contribution to our economy, our environment, and our quality 
of life.
    If confirmed, members of the Committee, I will do my very 
best to bring the skills I developed as a lawyer in private 
practice, a Federal prosecutor, a municipal legal policy 
director, the general counsel of our Nation's second largest 
transit system, and a legal executive at a multinational 
financial services company to provide the very highest quality 
legal advice and representation to the Department of 
Transportation. I will address Congressional mandates 
expeditiously, work to harmonize the efforts of DOT's operating 
administrations, seek creative solutions to complex problems, 
listen thoughtfully to the ideas and concerns of others, and 
work closely with the Congress, the EPA, HUD, DHS, Energy, 
Commerce, and other Departments of Government to implement the 
transportation policy goals of this Administration.
    If I am entrusted with the position of DOT General Counsel, 
I will look forward to working closely with the members of this 
Committee and their staffs, as well as engaging all 
stakeholders in respectful consultation about the challenges we 
face together in the spirit of openness and fairness that is 
the hallmark of Secretary LaHood's leadership.
    As Senator Durbin mentioned, I was raised in a family that 
honored public service, accounting in part for my having left 
the private sector on prior occasions to work in government. I 
believe that the mission of the Department of Transportation is 
crucial to the economic vitality, environment, and safety of 
our country, and the opportunity to serve as its chief legal 
officer would be the highest honor of my career.
    Thank you very much.
    [The prepared statement and biographical information of Mr. 
Rivkin follows:]

  Prepared Statement of Robert S. Rivkin, General Counsel-Designate, 
                      Department of Transportation
    Thank you, Chairman Rockefeller, Ranking Member Hutchison, and 
Members of the Committee.
    I am proud to appear before you today as President Obama's nominee 
to serve as General Counsel of the Department of Transportation. I 
deeply appreciate Secretary LaHood's confidence in my ability to assist 
him, if confirmed, with the exciting challenges and opportunities 
facing our Nation's transportation system.
    I'd like to thank Senator Durbin for taking the time out of his 
busy schedule to introduce me to the Committee today. I'd also like to 
introduce my wife, Cindy Moelis. Our three children, Stephanie, Claire 
and Alexander Rivkin, are at school back in Chicago and couldn't be 
here today.
    Transportation is the lifeblood of our economy, the foundation for 
economic development and job growth, and the tie that binds our 
communities. It is fundamental to farmers and manufacturers who ship 
their goods to markets around the world. It remains crucial to urban 
families trying to get their kids to school, themselves to work, their 
parents to doctor's appointments. Helping move people and goods 
affordably, efficiently, sustainably and--most important--safely is the 
core of our national transportation policy. More than any time in 
recent memory, this moment offers the opportunity to return our roads, 
bridges and rails to a state of good repair; to bring our aviation 
system into the 21st century; to rediscover, reinvigorate, and reinvent 
freight and passenger rail; to better utilize our maritime resources; 
and to more tightly knit our transportation resources into a system 
that is defined not by its ``modes,'' but by its contribution to our 
economy, our environment and our quality of life.
    If confirmed, I will do my very best to bring the skills I have 
developed as a lawyer in private practice, a Federal prosecutor, a 
municipal legal policy director, the general counsel of our Nation's 
second largest transit system and a legal executive at a multinational 
financial services company to provide the highest quality legal advice 
and representation to the Department of Transportation. I will address 
Congressional mandates expeditiously, work to harmonize the efforts of 
DOT's operating administrations, seek creative solutions to complex 
problems, listen thoughtfully to the ideas and concerns of others, and 
work closely with the Congress, the EPA, HUD, DHS and other departments 
of government to develop and implement the transportation policy goals 
of this Administration.
    If I am entrusted with the position of DOT General Counsel, I will 
look forward to working closely with the members of this Committee and 
their staffs, as well as engaging all stakeholders in respectful 
consultation about the challenges we face together, in the spirit of 
openness and fairness that is the hallmark of Secretary LaHood's 
leadership.
    I was raised in a family that honored public service, accounting in 
part for my having left the private sector on prior occasions to work 
in government. I believe that the mission of the Department of 
Transportation is crucial to the economic vitality, environment and 
safety of our country, and the opportunity to serve as its chief legal 
officer would be the highest honor of my career.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Robert Samuel Rivkin (Bob).

    2. Position to which nominated: General Counsel of the Department 
of Transportation.
    3. Date of Nomination: 4/20/09.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 200 E. Randolph, 8th Floor, Chicago, IL 60601.

    5. Date and Place of Birth: December 6, 1960 at Highland Park, 
Illinois.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Cindy S. Moelis, Director, White House Fellows Program 
        (as of 4/13/09); children: Stephanie Moelis Rivkin, 18; Claire 
        Welk Rivkin, 13; Alexander Moelis Rivkin, 11.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Harvard College, A.B., 1982.
        Stanford Law School, J.D., 1987.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated. (* denotes management 
position)

        9/82-6/83, Paralegal at Sidley & Austin, London, England.

        12/82-6/83, Aide to Member of Parliament Greville Janner, 
        London, England.

        2184-8184, Intern at the European Commission, Brussels, 
        Belgium.

        6/85-8/85, Summer Associate at Mayer Brown & Platt, Chicago.

        6/86-8/86, Summer Associate at Cleary Gottlieb Steen & 
        Hamilton, New York & Paris, France.

        9/86-1/87, Law Student Intern (unpaid), Public Defender 
        Service, Washington, D.C.

        6/87-8/87, Summer Associate at Jenner & Block, Chicago.

        9/87-9/88, Law Clerk to Joel M. Flaum, U.S. Court of Appeals 
        for the 7th Circuit, Chicago.

        10/88-4/89, Associate, Sachnoff Weaver & Rubenstein, Chicago.

        4/89-10/94, Assistant U.S. Attorney, Northern District of 
        Illinois, Chicago.

        10/94-1/97, Director of Programs and Policy, City of Chicago 
        Department of Law.

        1/97-4/98, Issues Director, John Schmidt for Governor.

        7/98-4/01, Partner, Schiff Hardin & Waite, Chicago.

        4/01-2/04, General Counsel, Chicago Transit Authority.*

        2/04-Present, Vice President & Deputy General Counsel, Aon 
        Corporation, Chicago.*

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.
    Vice President and Deputy General Counsel--Aon Corporation, 2/04 to 
present.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Director, Harvard Club of Chicago. approx. 1992 to 2008, and 
        Regional Director of the Harvard Alumni Association, 2001-2004.

        Director, City Year Chicago, 2007-present.

        Director, Leadership Greater Chicago, 2005-present.

        Director, Illinois Chamber of Commerce, 2005-present.

        Board of Governors (2008-present), Transportation Committee 
        (approx. 2002-2008) and Business Leaders for Transportation 
        (approx. 2000-2004), all of the Metropolitan Planning Council, 
        Chicago.

        Chicago Council on Global Affairs, President's Circle (and 
        predecessor committees) and 1999 Young Leader, 1999-present.

        Chicago Inn of Court, 2002-present.

        Economic Club of Chicago, 2005-present.

        Standard Club, Chicago, approx. 1999-present.

        Chicago Bar Association, 1998-2007.

        American Bar Association, 1998-present.

        International Bar Association, 2007-2008.

        Personal PAC, 1998-2003.

        Temple Sholom, approx. 1998-present.

        None of these organizations restricts membership on the basis 
        of sex, race, color, religion, national origin, ace, or 
        handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? No. If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: Not applicable.
    14.Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        7/14/99, $1,200 in-kind contribution (week at vacation home) to 
        Personal PAC.

        10/6/99, $500 to Obama for Congress 2000.

        12/8/99, $500 to Obama for Congress 2000.

        10/11/00, $500 to Personal PAC.

        6/6/01, $500 to John Schmidt for Attorney General.

        7/13/01, $500 to Personal PAC.

        11/8/01, $500 to Personal PAC.

        1/11/02, $500 to John Schmidt for Attorney General.

        9/3/02, $600 in-kind contribution (food) to Lisa Madigan for 
        Attorney General.

        10/3/02, $500 to Personal PAC.

        12/23/02, $1,000 to Friends of Barack Obama.

        12/22/03, $1,000 to Friends of Barack Obama.

        1/16/04, $500 to John Kerry for President, Inc.

        6/18/04, $2,000 to Obama for Illinois, Inc.

        8/6/04, $1,000 to Kerry Victory 2004.

        5/17/05, $1,000 to Obama for Illinois Inc.

        1/27/06, $500 to Citizens for Claypool.

        1/27/06, $500 to Friends of Eisendrath.

        10/19/06, $500 to Friends of Dick Durbin Committee.

        1/16/07, $2,100 to Obama for America.

        8/24/07, $500 to Markell for Delaware.

        9/28/07, $500 to Melissa Bean for Congress.

        10/26/07, $500 to Citizens for James M. Houlihan.

        7/22/08, $500 to Markell for Delaware.

        9/25/08, $2,300 to Obama for America.

        Obama for America, National Finance Committee Member, 2007-
        2008; Policy Coordinator--helped Policy Director set up 
        volunteer policy committees, spring 2007; Transportation Policy 
        Committee Convenor, 2007-2008; Department of Transportation 
        agency review team. September-October 2008; Canvassing and GOTV 
        efforts in Iowa, Nevada, Ohio, Pennsylvania, Indiana, Michigan.

        Democratic National Convention, Credentials Committee, August 
        2008.

        Presidential Transition Agency Review Team, Department of 
        Transportation, November-December, 2008.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Special Achievement Award, U.S. Department of Justice, 9/90.

        FBI--recognition in appreciation of invaluable contributions, 
        10/94.

        IRS--award in appreciation for outstanding assistance, 10/94.

        DEA--recognition in appreciation of outstanding contributions, 
        10/94.

        ATF--citation in recognition of outstanding assistance, 11/91.

        Cook County Medical Examiner certificate of commendation for 
        outstanding and dedicated service during heat wave of 1995.

        Leadership Greater Chicago, Fellow, 1993-1994.

        Chicago Council on Foreign Relations, Young Leader, 1999.

        Chicago Transit Board, Resolution in Appreciation, 2004

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have written no books or publications, and have given no public 
speeches. I wrote two letters to the editor of the International Herald 
Tribune in 1983-1984, and another to the Chicago Sun-Times in the mid-
1980s, but I can find no record of them. I co-wrote an article in the 
July-August 2008 Foreign Service Journal, entitled ``Telling Truth to 
Power,'' commemorating the 40th Annniversary of the William R. Rivkin 
Award. I have participated as a panelist at small professional 
gatherings over the years, including on litigation and accessibility at 
the American Public Transit Association Meetings in Monterrey in 
February 2002; on disclosure in the insurance industry at the 
University of Chicago Business School in September 2005; on corporate 
social responsibility at the International Bar Association in 2007: and 
on government investigations at an Association of Corporate Counsel 
lunch in October 2008. On December 21, 1994, I appeared on the local 
Chicago public television show ``Chicago Tonight'' to discuss the 
city's carbon monoxide detector ordinance. On June 30, 2007, a National 
Public Radio story on the William R. Rivkin Award featured a brief 
sound bite from my presentation of the award.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: Not applicable.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    First, my diverse experience in private practice, Federal 
prosecution, local government and at a fortune 250 company have 
provided me with a broad perspective on how best to provide effective, 
practical and ethical legal guidance in a fast-moving environment.
    Second, I have successfully managed large legal operations. I was 
the Chief Legal Officer of public agency with $925 million operating 
budget, $2.8 billion capital program and 11,500 employees, managing a 
department with 130 employees and a $15 million budget. In that role 
supervised inside and outside counsel on legal matters including public 
finance, labor and employment, real estate, contracts, construction, 
information technology, procurement, intellectual property, all 
categories of litigation and appeals. I also provided strategic 
direction on key issues facing the agency as part of five-member 
executive management team. As a manager, I re-engineered the Law 
Department to focus on client service and support, and installed new 
personnel, structure, technology and processes to increase quality and 
efficiency of the legal support function. More recently, as a corporate 
officer of Aon, an $8 billion NYSE insurance brokerage, consulting and 
risk management company with offices in 120 countries, I am responsible 
for Aon's legal functions in the Americas, including business 
counseling, litigation, regulatory affairs, employment law and 
government affairs. I currently manage over 60 employees and 
expenditures of over $50 million for outside counsel. I have helped 
improve the efficiency and effectiveness of Aon's legal services by 
adopting and implementing a series of best practices.
    Finally, I have substantial experience dealing with transportation 
issues and challenges. I was the Chief Legal Officer of the Nation's 
second largest public transportation system, the Chicago Transit 
Authority. For many years I participated in Business Leaders for 
Transportation and the Transportation Committee of Chicago's 
Metropolitan Planning Council, on whose board now serve. I was the co-
leader of Obama for America's Transportation Advisory Committee, and a 
member of Obama for America's and the Presidential Transition's 
Department of Transportation review teams.
    I was raised in a family that honored public service, accounting in 
part for my having left the private sector on prior occasions to engage 
in government service. I believe that the mission of the Department of 
Transportation is crucial to the economic vitality, environment and 
safety of our country, and the opportunity to serve as its counsel 
would he the highest honor of my career.
    19.What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    As general counsel, I would consider it a top priority to ensure 
that the Department maintains clear and effective management and 
accounting controls. As described above in my answer to question 18, I 
have experience with managing large organizations in the government and 
private sector, and appreciate the importance of clear controls and 
responsibilities in ensuring efficient and ethical operations.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the top three challenges facing the Department of 
Transportation are to effectively and efficiently implement the portion 
of the stimulus package falling under DOT's jurisdiction; to help 
Congress develop new surface transportation and aviation 
reauthorization bills reflecting the Nation's transportation priorities 
and needs: and to provide strong leadership at the FAA leading to 
better labor relations and the development of a new air traffic control 
system for the Nation.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have a 401(k) account with Aon (the Aon Savings Plan).
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? No. If so, 
please explain: Not applicable.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with tbe 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will he resolved in accordance with the 
terms of an ethics agreement that have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In 2001, while I was a lawyer at Schiff Hardin, a client engaged me 
to make some inquiries of the City of Chicago regarding the disposition 
of what I recall was a city-owned industrial park. I registered as a 
lobbyist with the City of Chicago and made a few phone calls on behalf 
of the client. I do not remember the details of the engagement, which 
was brief. I have not been engaged by any person or entity since then 
for the purpose of influencing legislation or public policy.
    As an officer of Aon Corporation I supervised company efforts, thus 
far unsuccessful, to pass Illinois legislation or regulation requiring 
greater disclosure in the commercial insurance field. I had discussions 
on this topic with members of the Attorney General's office, the 
Division on Insurance of the Illinois Department of Financial and 
Professional Regulation, and various state legislators.
    Also as a Vice President of Aon Corporation, from 2004 through 
2009. I had occasional discussions with Members of Congress and their 
staffs regarding potential legislation to reform the regulation of what 
are called ``surplus lines'' of insurance, as well as in support of an 
Optional Federal Charter for the insurance industry.
    In September 2008, I joined an agency review team within the Obama 
for America campaign to identify challenges facing the Department of 
Transportation. In November, I joined the Presidential Transition 
Agency Review Team for the DOT which prepared a report on these 
challenges for the incoming Secretary-designee.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No. If so, please explain: Not applicable.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Yes. During, the time I have been an officer of Aon Corporation, 
Aon and its subsidiaries have had on average over 400 pending matters 
in U.S. litigation, as well as a number of other matters in litigation 
around the world. As an insurance -``producer'' regulated by the 
states. Aon also has a number of administrative matters (e.g., premium 
tax calculation matters. licensing matters, audits) pending with state 
insurance and revenue departments.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No. Not applicable.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No. Not applicable.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should he disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       resume of robert s. rivkin
Legal Experience
    Aon Corporation, Vice President and Deputy General Counsel; For Aon 
Americas, 1/08-present; For Litigation and Government Affairs, 2/04-1/
08.

        Corporate officer of $8 billion NYSE insurance brokerage. 
        consulting and risk management company. Report directly to the 
        global general counsel. Responsible for Aon's legal functions 
        in the Americas, including business counseling, litigation, 
        regulatory affairs, employment law and government affairs.

        Manage 60 employees, annual budget of over $14 million, and 
        outside counsel expenses of over $50 million.

        Respond to and resolve investigations by Federal agencies, 
        state attorneys general and insurance commissioners. Lead Aon 
        attorney responding to insurance industry investigations.

        Established state and Federal Government affairs function.

        Established legal functions for Canada and Latin America.

        Improved efficiency and effectiveness of legal services by 
        implementing new preferred provider, matter management, early 
        case assessment, and electronic billing programs.

    Chicago Transit Authority, 4/01-2/04, General Counsel.

        Chief Legal Officer of public agency with $925 million 
        operating budget, $2.8 billion capital program and 11,500 
        employees, reporting to the President and Board of Directors. 
        Managed a department with 130 employees and a $15 million 
        budget; supervised inside and outside counsel on legal matters 
        including public finance, labor and employment, real estate, 
        contracts, construction, information technology, procurement, 
        intellectual property, all categories of litigation and 
        appeals.

        Provided strategic direction on all key issues facing the 
        agency as part of five-member executive management team.

        Re-engineered Law Department to focus on client service and 
        support.

        Installed new personnel, structure, technology and processes to 
        increase quality and efficiency of the legal support function.

    Schiff, Hardin & Waite, 7/98-4/01, Partner.

        Litigated commercial cases for clients such as Pepsi, Outboard 
        Marine, AT&T, Allegiance Telecom, and the City of Chicago.

        Conducted corporate internal investigations relating to alleged 
        fraud, theft and misappropriation of funds.

        Represented clients in state regulatory enforcement actions.

        Defended corporations, targets, subjects, and witnesses in 
        state and Federal white-collar criminal investigations of 
        healthcare, contracting and tax fraud.

    City of Chicago Department of Law, 10/94-1/97, Director of Programs 
and Policy.

        Advised Office of the Mayor and City commissioners on broad 
        range of legal policy matters.

        Managed special projects relating to the 1996 Democratic 
        National Convention, administrative adjudication system, 
        internal investigations, and other matters.

    Office of the United States Attorney, Northern District of 
Illinois, 4/89-10/94, Assistant United States Attorney.

        Investigated and prosecuted white collar fraud--including mail, 
        wire, insurance and securities fraud--as well as RICO, tax and 
        public corruption violations.

        Tried 24 jury trials and numerous appeals.

        Received Special Achievement Award from U.S. Department of 
        Justice and commendations from the FBI, IRS, DEA, and ATF.

    Sachnoff & Weaver, 10/88-4/89, Litigation Associate.

    U.S. Court of Appeals for the Seventh Circuit, 9/87-9/88, Law Clerk 
to Judge Joel M. Flaum.
Education
        Stanford Law School, J.D., 1987; Associate Editor, Stanford Law 
        Review.

        Harvard College, A.B., 1982; Magna Cum Laude in Social Studies.
Other Experience
        John Schmidt for Governor Campaign, Issues Director (Chicago), 
        1/97-4/98.

        Commission of the European Communities. Stagiaire (Brussels), 
        2/84-8/84.

        Greville Janner, QC, MP, Parliamentary Aide (London), 12/82-6/
        83.

        U.S. Senator Charles Percy, Senate Intern (Washington, D.C.), 
        6/81-8/81.
Boards/Affiliations
        City Year Chicago, Director.

        Illinois Chamber of Commerce, Director.

        Leadership Greater Chicago, Director and Fellow.

        Metropolitan Planning Council, Board of Governors and 
        Transportation Committee.

        Chicago Council on Global Affairs, President's Circle and Young 
        Leader 1999.

        Chicago Inn of Court, Member.

        Economic Club of Chicago, Member.

        William R. Rivkin Award (American Foreign Service Association), 
        Judge.

        Democratic National Committee, Credentials Committee, 2008.

        Obama for America, National Finance Committee, Policy 
        Development Committees, 2007-2008.

        Federal Defender, N.D. IL, Panel Attorney. 1999-2001.

        Harvard Club of Chicago. Director, 1992-2008.

        Harvard Alumni Association, Regional Director, 2001-2004.

        Personal PAC, Director, 1998-2003.

    Admitted to practice in Illinois, the Northern District of Illinois 
(trial bar) and the U.S. Seventh Circuit Court of Appeals. Languages: 
French (fluent), Spanish (fair).

    Senator Inouye. I thank you very much, Mr. Rivkin.
    I will have to relinquish the chair to Senator Dorgan. I 
have a prior commitment. Mr. Chairman, may I ask that my 
questions be submitted?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan [presiding]. Without objection.
    The next order of business will be to hear from Mr. Roy 
Kienitz. Mr. Kienitz, you may proceed. Your entire statement 
will be made a part of the permanent record.

    STATEMENT OF ROY W. KIENITZ, UNDER SECRETARY-DESIGNATE, 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Kienitz. Thank you, sir. Good afternoon, Mr. Chairman, 
Ranking Member Hutchison. Once again, my name is Roy Kienitz, 
and I am the President's nominee for Under Secretary of 
Transportation for Policy.
    A little about myself. I began my professional career in 
this building two floors up working for Senator Daniel Patrick 
Moynihan of New York, and for those of you who knew him, knew 
him to be a great advocate of many things in transportation 
policy. And I learned many of my most valuable lessons from 
him.
    Since then, I have worked in the nonprofit sector and in 
State government in the State of Maryland and most recently for 
Governor Ed Rendell in Pennsylvania where I was Deputy Chief of 
Staff, another well-known advocate of infrastructure 
investment.
    So I have helped shape transportation policy at the staff 
level here in the Senate in the Federal Government and then had 
to help implement it at the State level, and I hope that that 
will give me a balanced perspective of what is required to take 
the ideas we have here and turn them into practical policies on 
the ground.
    My primary goal at the Department working in the policy 
area will be to implement the President's and the Secretary's 
policy ideas. So far, I think that that can be summarized in 
four key areas, many of which have already been mentioned, the 
first of which is, obviously, the economy. We have lost 
millions of jobs over the last 2 years, and the Department has 
been fortunate enough to participate in the economic recovery 
bill, which included $48 billion in transportation investment. 
So far, $37 billion of that has actually been made available to 
grantees of one kind or another and projects are already 
getting underway. Just last week, the President came to the 
Department's building and with Secretary LaHood announced the 
2,000th transportation project being released by the Federal 
Government. So that work is already underway.
    Obviously, however, the short-term investments that are 
necessary for economic recovery also need to have long-term 
benefits, and that will be, obviously, a big focus of the 
Department.
    Second, when we make investments, we need to improve the 
sustainability of the transportation system. This is, 
obviously, a key priority for the President across the 
Government and will, as such, be a key priority for the 
Department of Transportation. Examples of those kinds of 
investments include the strategic plan for high-speed rail that 
was announced by the President last week, as called for in the 
Recovery Act, and billions of dollars of investment that will 
go into that.
    A third priority and one of particular concern to the 
Secretary is something that many people call livability, and 
these are sort of transportation investments that are uniquely 
tailored to the communities into which they are put. In more 
populated areas, that can be things like walking, biking, 
public transportation, things that make it easier for people to 
avoid traffic. In less populated communities, that can be 
reviving main streets or connecting rural communities. The key 
idea there, I think, is tailoring the investment very carefully 
to the place where it is made rather than a one-size-fits-all 
solution.
    On March 19, Secretary LaHood and Secretary Donovan 
announced the beginning of a partnership between the Department 
of Housing and Urban Development and Transportation on this 
very subject.
    Finally, obviously, something that has been mentioned. 
Safety is one of the first missions that was given to the 
Department of Transportation upon its creation in 1966, and 
that continues to be a major focus today. That will, obviously, 
be part of my focus if I have the good fortune to be confirmed.
    So these areas, economic competitiveness, sustainability, 
livability, and safety, are priorities, and I believe if we can 
focus our transportation policy around those areas, it will be 
successful for the country. As Senator Hutchison mentioned, we 
will have the opportunity potentially for both aviation and 
surface reauthorization this year, and if I have the honor of 
being confirmed, I look forward to working with the members of 
the Committee on those issues.
    I will be happy to respond to any questions the members 
have. Thank you, sir.
    [The prepared statement and biographical information of Mr. 
Kienitz follows:]

   Prepared Statement of Roy W. Kienitz, Under Secretary-Designate, 
                      Department of Transportation
    Chairman Rockefeller, Ranking Member Hutchison, Members of the 
Committee, it is an honor for me to appear before you today as 
President Obama's nominee for Undersecretary of Transportation for 
Policy.
    I began my professional career in this very building, working for 
Senator Daniel Patrick Moynihan of New York. Those of you who knew him 
will remember his great passion for transportation policy. I learned 
many of my most valuable lessons from him. Since then I have worked in 
the non-profit sector and in state government. I ran the State 
Department of Planning in Maryland and most recently served as Deputy 
Chief of Staff to Governor Ed Rendell of Pennsylvania, another man with 
a passion for infrastructure investment. I have helped shape 
transportation polices at the Federal level and helped implement them 
at the state level, and I hope this experience will help me take on the 
policy role at DOT with a balanced perspective if I have the honor of 
being confirmed.
    My primary goal at the Department, if confirmed, will be the 
implementation of President Obama and Secretary LaHood's priorities for 
transportation. So far this seems to break down into four key areas.
    First is the economy. As we all know, millions of jobs have been 
lost in 2008 and 2009. The inclusion of $48 billion for transportation 
projects in the American Recovery and Reinvestment Act has allowed the 
Department to be part of the recovery effort. Of the $48 billion 
provided, nearly $37 billion has already been released to states and 
other grantees. On April 13, the President and Secretary LaHood 
announced the 2,000th transportation project funded by the Recovery 
Act. Jobs are already being created across the country. The right 
investments today will also pay dividends over the long term by, for 
example, repairing existing infrastructure in all modes of 
transportation and improving the efficiency of freight movement so our 
exports are more competitive.
    Second, as we make these investments, we must improve the 
environmental sustainability of our transportation system. President 
Obama and Secretary LaHood are committed to this goal and so am I.
    A third priority is the pursuit of what some call livability. For 
surface transportation, this means finding ways to make investments 
that meet the needs of each individual community. Every city and small 
town across the country has its own unique transportation concerns. For 
more populated areas, a main consideration may be better opportunities 
for public transportation, biking, walking or other methods to help 
people avoid traffic congestion. For rural areas, we might focus more 
on safety and ensuring connectivity to surrounding communities. We must 
be mindful of these varying needs and realize that we cannot create a 
one-size-fits-all method of funding transportation projects.
    On March 19, Secretary LaHood and Secretary Donovan announced an 
interagency partnership between HUD and the Department of 
Transportation to address sustainable and livable communities. Work is 
already underway.
    Finally, safety in all modes of travel has always been and must 
continue to be a central focus of the Department of Transportation. 
This goal will remain the highest priority for the Department and its 
work force. If confirmed, you can rely on my full dedication to 
ensuring American citizens are provided with safe and secure means of 
transportation.
    The areas of economic recovery, sustainability, livable 
communities, and safety are high priorities for Secretary LaHood and, 
if confirmed, will be my priorities as well. I believe a transportation 
system that meets these goals is vital to our long-term national 
interest.
    In 2009, Congress and the Obama administration will have the 
opportunity to set long term policy goals for both our aviation and 
surface transportation programs. If I am confirmed, I hope to be 
actively engaged with you in these discussions.
    To conclude, Mr. Chairman, thank you again for scheduling this 
hearing. I would like to reiterate my desire to work with this 
Committee as policy and funding matters are discussed and debated, and 
I will be happy to respond to any questions you and the members of the 
Committee may have. Thank you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Roy Warren 
Kienitz.
    2. Position to which nominated: Under Secretary of Transportation 
for Policy, United States Department of Transportation.
    3. Date of Nomination: March 16, 2008.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

    5. Date and Place of Birth: September 14, 1962; Mountain View, CA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Katherine L. Kincade, Self-employed consultant to DC 
        Housing Enterprise.

        Children: Simon D. Kienitz Kincade, Age 12; Asa M. Kienitz 
        Kincade, Age 9.

    7. List all college and graduate degrees. Provide year and school 
attended.

        University of California at Santa Barbara, BA, 1983.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        United States Peace Corps, Volunteer, 1983-1986.

        Senator Daniel Patrick Moynihan, various positions including 
        Chief of Staff, 1987-1988, 1993-1994.

        U.S. Senate Committee on Environment and Public Works, 
        Professional Staff Member, Deputy Staff Director, 1988 to 1993.

        Center for Clean Air Policy, Director of International 
        Transportation Program, 1995.

        Surface Transportation Policy Project, Assistant Director, 
        Executive Director, 1995 to 2001.

        Maryland Department of Planning, Secretary, 2001 to 2003.

        Governor Ed Rendell, Pennsylvania, Deputy Chief of Staff, 2003 
        to March 2009.

        Senior Advisor to the Secretary, U.S. Department of 
        Transportation, March 2009--Present.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.
    Chairman of the Board, Building America's Future.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    Franklin Knolls Swim Club, 2003 to present. No membership 
restrictions.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    I have never been a candidate for elective office. I have been a 
political appointee in my last two jobs (Office of Governor Rendell and 
Maryland Department of Planning.) There is no debt.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        $500 to John F. Kerry For President, 7/11/2004.

        $500 to Friends of Kathleen Kennedy Townsend, candidate for 
        Governor of Maryland, 5/30/02.

         $500 to Friends of Kathleen Kennedy Townsend, candidate for 
        Governor of Maryland, 10/20/02.

        No party offices held.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Governor's Citation, for assistance to LaPlata, MD in 
        rebuilding after the most severe tornado in Maryland history, 
        2002.

        Special Recognition Award, National Park Service, U.S. 
        Department of the Interior, 2000. For work promoting new 
        transportation strategies for National Parks.

        Award, for Leadership in Intergovernmental Cooperation, 
        National Association of Regional Councils, 1992 (In recognition 
        of work on Intermodal Surface Transportation Efficiency Act of 
        1991).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        ``Blueprint for ISTEA Reauthorization'', Surface Transportation 
        Policy Project, 1997.

        ``TEA-21 Users Guide'', Surface Transportation Policy Project, 
        1998. ``Road Work Ahead: Is Construction Worth The Wait?'', 
        Surface transportation Policy Project, 1999.

        ``Minority Report'', Governor's Transportation Solutions Group, 
        State of Maryland, 1999, signatory.

        ``Mean Streets'', Surface transportation Policy Project, 2000.

        ``Driven to Spend'', Surface Transportation Policy Project, 
        2000.

        ``Greetings From Smart Growth America'', Smart Growth America, 
        2001, co-author.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        Senate Environment and Public Works Committee, March 18, 1999; 
        transportation policy.

        Senate Environment and Public Works Committee, April 15, 1999; 
        transportation policy.

        Senate Environment and Public Works Committee, April 29, 1999; 
        transportation policy.

        House Transportation and Infrastructure Committee, July 27, 
        1999; transportation policy.

        Senate Banking, Housing and Urban Affairs Committee, October 8, 
        2002; transportation policy.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have 20+ years experience in transportation policy at the Federal 
and state level in both executive and legislative positions, have 
authored multiple reports on transportation policy, and have testified 
before Congress on multiple occasions as a transportation policy 
expert.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Along with the other managers at USDOT, if confirmed I will be 
responsible for assuring proper management and accounting controls. I 
have management experience from helping to guide and manage large 
capital projects in my work in state government, have been the head of 
a state government agency, and have run a non-profit organization.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. Effective and open implementation of the nearly $50 billion 
        in transportation funding included in the American Recovery and 
        Reinvestment Act.

        2. Prompt reauthorization of the FAA's programs to allow for 
        quick and effective implementation of upgrades to the Nation's 
        air traffic control system.

        3. Reauthorization of the Nation's surface transportation 
        programs.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    PA state retirement, expected payments for immediate retirement.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As part of my employment with the Surface Transportation Policy 
Project (1995-2001) a portion of my work consisted of making 
recommendations on behalf of the organization regarding funding and 
policy in Federal transportation legislation. These recommendations 
related most directly to the Transportation Equity Act for the 21st 
Century (TEA-21), P.L. 105-206. STPP also made recommendations 
regarding the execution of laws and policy-making by USDOT.
    As part of my employment for Governor Rendell, I have been part of 
various efforts to support, oppose or affect legislation and the 
execution of laws as they affect the State of Pennsylvania, up to and 
including the Congressional debate over what later became the American 
Recovery and Reinvestment Act.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    If confirmed, I will follow the advice of USDOT counsel to assure 
that no conflict of interest occurs.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                        resume of roy w. kienitz
Experience: Government
    Deputy Chief of Staff, Governor Edward G. Rendell, Pennsylvania, 
2003-Present.

        Team leader for major initiatives on transportation, 
        alternative energy, environment. Oversee major capital 
        projects: PA Convention Center expansion, Pittsburgh sports 
        arena, Port of Philadelphia. Guide media strategy and appear on 
        TV, radio and in print. Politics, strategy, budgeting, problem 
        solving.

        Transportation:

        Fix It First. Implemented policy prioritizing repair of 
        existing roads over new construction.

        Public-Private Partnership. Personally structured terms for 75-
        year lease of PA Turnpike Leading to winning bid of $12.8 
        billion, largest such bid in the U.S. so far.

        Tolls. Negotiated legislation to add $1+ billion/year in new 
        funding and authorize new tolls on 1-80; first state to approve 
        tolls for existing free Interstate highway.

        Labor. Personally mediated round-the-clock negotiations on 
        labor contracts for Philadelphia and Pittsburgh transit 
        authorities; ended strike in Philadelphia, prevented strike in 
        Pittsburgh.

        Transit. Developed and implemented plan to `flex' $450 million 
        of road funds to transit after legislature blocked original 
        transit funding proposal. Prevented service cuts and layoffs.

        Alternative Energy:

        Conservation. Led administration effort to enact new energy 
        savings mandates for all electric utilities.

        Renewables. Enacted legislation requiring 18 percent of 
        electricity to come from alternative sources.

        Investment. Developed a negotiated passage of $625 million 
        alternative energy fund.

        Green Jobs. Helped attract wind turbine maker Gamesa to build 2 
        plants and create 1,000 green jobs.

        Environment:

        Growing Greener. Personally developed $825 million plan for 
        open space preservation and community reinvestment. Proposal 
        was approved by legislature and voter referendum.

        Clean Cars. Implemented plan for PA to opt-in to CA car 
        regulations, including CO<INF>2</INF> limits.

        Mercury. Won approval for plan to cut mercury emissions below 
        limits allowed by Bush Administration.

    Secretary, Maryland Department of Planning, 2001-2003.

        Implemented state's Smart Growth policies. Staff of 130, $10 
        million budget.

        Redevelopment. Emphasis on getting mixed-use, transit-oriented 
        projects funded and built.

        Land Preservation. Guided state funding for preserving 
        agricultural a sensitive lands.

        Local Government. Led state participation in key local 
        government development decisions.

    Chief of Staff, Senator Daniel Patrick Moynihan, 1993-1995. Ran 
personal staff of 50 for Senior Senator from New York and Senate 
Finance Committee Chair.

        Politics. Coordinated with successful 1994 campaign.

        Legislation. Oversaw legislative agenda including budget, 
        taxes, health care.

        Media. Guided press strategy for Washington, New York and 
        national media.

    Deputy Staff Director, Environment and Public Works Committee, U.S. 
Senate, 1992-1993; Professional Staff Member, 1988-1992. Staff of 30, 
$2 million budget.

        Transportation. Conceived, drafted and managed landmark 1991 
        transportation bill (ISTEA).

        Other Issues. Major work on Clean Air Act, water quality, Corps 
        of Engineers, nuclear energy.
Experience: Research and Advocacy
    Executive Director, Surface Transportation Policy Project, 1998-
2001; Deputy Director, 1996-1998.

        Advocated for innovation in transportation policy: smart 
        growth, better use of transit, environmental sensitivity, Less 
        reliance on one-size-fits-all highway design.

        Policy. Primary voice for progressive transportation policy at 
        the national level.

        Coalition Building. Coordinated with 200 partner organizations.

        Management and Fundraising. Ran four offices; raised and 
        managed $2 million/year budget.

    Director, International Transport Program, Center for Clean Air 
Policy, 1995-1996.

        Worked with policymakers in U.S., Canada and Europe on new 
        transportation, land use and air quality strategies.
Education
        B.A., Aquatic Biology, University of California at Santa 
        Barbara, 1980-1983. Graduated in 3 years.
Honors and Awards
        Governor's Citation, for assistance to LaPlata, MD after the 
        state's worst recorded tornado, 2002.

        Special Recognition Award, National Park Service, U.S. 
        Department of the Interior, 2000. For work promoting new 
        transportation strategies for National Parks.

        Award, for Leadership in Intergovernmental Cooperation, 
        National Association of Regional Councils, 1992, in recognition 
        of work on the 1991 transportation bill (ISTEA.)
Affiliations
        Building America's Future, Board of Directors, 2008. Non-profit 
        started by Gov. Rendell, Gov. Schwarzenegger and Mayor 
        Bloomberg to promote smarter investment in infrastructure.

        Pennsylvania Green Ribbon Commission, Member, 2004. Assessed 
        methods to invest in open space, community revitalization and 
        environmental improvement.

        Smart Growth America, Founding Chair, 2000-2001. National 
        coalition to promote smart growth.

        National Neighborhood Coalition, Board of Directors, 2001.

        Center for Transportation & the Environment, North Carolina 
        State University, Board of Advisors, 1998-2001.

        Environmental Excellence Awards, Federal Highway 
        Administration, Judge, 1999.

        Maryland Transportation Solutions Group, Member, 1998-1999. 
        Appointed by Governor to panel assessing investment options for 
        Montgomery and Prince George's Counties, MD.

        Congressional Observer Group, United Nations Conference on 
        Environment and Development (The Earth Summit), Rio de Janeiro, 
        1992.

        Subcommittee on Planning and Policy Review, Transportation 
        Research Board, National Academy of Sciences, 1992.
Publications
        Driven To Spend: The Impact of Sprawl on Household 
        Transportation Expenses, Surface Transportation Policy Project 
        (with Barbara McCann, Ryan Tracey-Mooney, Scott Bernstein and 
        Reid Ewing), 1999.

        TEA-21 User's Guide, Surface Transportation Policy Project 
        (with Elizabeth Thompson), 1998.

        A Blueprint for ISTEA Reauthorization: A Common Sense Guide to 
        Transportation Priorities for the 21st Century, Surface 
        Transportation Policy Project, 1997.
Personal
        Married, father of two

        Former Peace Corps Volunteer, Ecuador

        Fluent Spanish

        Aspiring triathlete

    Senator Dorgan. Mr. Kienitz, thank you very much.
    I have asked whether those of you who are here for your 
nomination hearing had introduced your families or whether you 
wished to introduce your families. I suspect that some of you 
have your families present. Would any of you wish to do that at 
this point?
    Mr. Rivkin. We did, Mr. Chairman.
    Senator Dorgan. You have. All right.
    My understanding also is that Senator Warner wished to 
introduce or say a few words about one of the----

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Mr. Chairman, I wanted to simply indicate 
my support for Peter Appel who is from Virginia and as somebody 
from Virginia, understands the enormous challenges we have in 
transportation. I would like to submit for the record my 
introduction comments, as he has already spoken.
    Senator Dorgan. Without objection.
    [The prepared statement of Senator Warner follows:]

   Prepared Statement of Hon. Mark Warner, U.S. Senator from Virginia
    Chairman Rockefeller and Ranking Member Hutchison, thank you for 
holding this important hearing. I want to introduce and lend my support 
to Mr. Peter Appel, of Alexandria, Virginia, who has been nominated by 
President Obama to be the Administrator of the Research and Innovative 
Technology Administration (RITA) at the U.S. Department of 
Transportation.
    Peter has focused for more than 20 years on innovative problem 
solving and forward-looking policy development in transportation and is 
the right person to lead RITA at this critical time. He brings a deep 
background in both technology and transportation. Following his studies 
in Computer Science and Economics at Brandeis University, he completed 
his Master of Science in Transportation at MIT, focusing on using 
computer technology to optimize transportation networks. Since then, he 
has worked in both the public and private sectors across every mode of 
transportation. Peter has led key initiatives at Amtrak, at the Federal 
Aviation Administration, and as a management consultant for clients in 
ocean shipping, rail, aviation, trucking, and transportation 
infrastructure development. His work has helped these organizations 
improve their day- to-day operations and develop and implement long-
term strategic plans.
    Coming from Virginia, which faces some of the most significant 
transportation challenges in the nation, I understand the critical need 
to bring our Nation's best thinking to address transportation issues. 
And having been a business leader in the high-tech industry for twenty 
years, I can attest to the importance of applying innovative technology 
to address our Nation's challenges. The Research and Innovative 
Technology Administration is positioned to play a key role in ensuring 
that our transportation investments effectively use technology and 
solid analysis to ensure the most positive impact on the lives of 
Americans. In Virginia, we embraced accountability and technology to 
fix and restore public confidence in Virginia's transportation system.
    With Peter's background in technology, rigorous analysis, and 
innovative problem solving, we look forward to a similar approach which 
will help our Nation reestablish a sound and effective transportation 
policy. I look forward to working with Peter Appel on the 
transportation challenges we face, and I urge my colleagues to quickly 
confirm him. Thank you, Mr. Chairman.

    Senator Dorgan. Although I was not here for the first part 
of the hearing, let me thank all of you for your willingness to 
serve your country and serve in the Department of 
Transportation in some very, very important positions.
    Senator Hutchison?
    Senator Hutchison. Thank you, Mr. Chairman.
    I would like to ask each of you to answer individually, 
starting with Mr. Appel, if you will work with members of this 
Committee on both sides, the Republicans and the Democrats, to 
provide the information that we would ask for and to give us 
any updates that you think are relevant to our oversight role. 
Mr. Appel?
    Mr. Appel. Yes, I will absolutely work with this Committee. 
I consider it an extremely valuable part of doing the job for 
which I am nominated.
    Senator Hutchison. Thank you.
    Mr. Szabo?
    Mr. Szabo. Senator, I most definitely look forward to 
working with the Committee in a very open manner.
    Senator Hutchison. Thank you.
    Mr. Gresham?
    Mr. Gresham. Yes, absolutely. I would consider that a 
primary responsibility of this office.
    Senator Hutchison. Thank you.
    Mr. Rivkin?
    Mr. Rivkin. Yes, Senator.
    Mr. Kienitz. Yes, ma'am. Obviously, that is a big priority 
of the Secretary as well, to do that on a bipartisan basis.
    Senator Hutchison. Thank you.
    I have a question for Mr. Szabo. Amtrak, our national rail 
system, is very important to many states, mine included. At 
Secretary LaHood's confirmation hearing, I asked him if he was 
committed to a national system for Amtrak to continue to 
pursue, and I will ask you that same question because, of 
course, you have a major role in Amtrak. I want to know if you 
are committed to a national system that covers all of the lines 
that are now in existence and what would be your thoughts, if 
you do, on how you would go forward helping to further develop 
those lines.
    Mr. Szabo. Well, Senator, most definitely I believe in a 
national network. I believe that that needs to be the backbone 
of our passenger rail program, and obviously, then the 
development of the high-speed rail corridors and such which 
start overlaying on top of that national network. In many ways, 
this is very similar to what has been done in Europe where the 
different levels of rail overlay each other, feed each other, 
supplement each other. So you will have your commuter 
railroads. You will have your regional corridors, and then you 
will have your national rail network. We consider that a 
priority.
    Senator Hutchison. Thank you. I certainly agree with you, 
and I think it is so important that we look at it from the 
national perspective and not just one line in the Northeast, 
which is important, but it is not everything.
    Let me ask you about the stimulus package, which allocated 
$8 billion for high-speed rail projects. How would you, working 
with the Secretary, propose to designate funds for communities 
that have the best prospects for a high-speed rail projects, 
and how would you envision that funding being allocated?
    Mr. Szabo. Obviously, if confirmed, I think it is 
imperative that we have a merit-based application process that 
is very fair, very transparent, and we ensure that the dollars 
go to where we get the best return on our investment.
    Senator Hutchison. So you would be working with the 
Secretary to come up with criteria that you think would be a 
fair and open process.
    Mr. Szabo. Absolutely.
    Senator Hutchison. Thank you.
    Mr. Kienitz, one of the areas where Senator Rockefeller and 
I have worked very hard in the last Administration, and we 
almost passed the FAA reauthorization with NextGen included. In 
fact, we also worked on an amendment in the stimulus to try to 
get a head start on NextGen, but it was not put in the bill. 
There was a resistance to having amendments to that bill. So we 
did not get that. But it is important to both the Chairman and 
myself that we have the NextGen and a concept and a funding 
mechanism to go forward.
    What is your thought about how we might jump start NextGen 
for the FAA?
    Mr. Kienitz. Thank you, ma'am. I think there are two pieces 
to it from my perspective, the first of which, obviously, is a 
funding source. And that was the source of the disagreement 
last year, I think, in Secretary LaHood's private conversations 
with you that I was present at and in his public statements has 
indicated a very strong desire to achieve agreement on that 
question. I think last year, it is fair to say, there was a lot 
of interest in the topic and then perhaps not quite enough 
interest in reaching agreement on the topic. And I think his 
view is there are a lot of good ideas about how to finance it, 
but the most important idea is the idea of let us agree to 
something and get it done so we can start down the road.
    The second piece is an implementation strategy by the 
Department and the FAA that inspires confidence, and that is 
something also that the Secretary has identified as one of the 
chief assignments that he will give the FAA Administrator when 
that person is confirmed and on board to roll out a plan that 
contains schedules that you all can have confidence and bring 
that system to fruition as quickly as possible.
    Senator Hutchison. Well, I think we finally came to pretty 
much an agreement on the funding, and we were still working on 
it. But one of the issues that held it up was a disagreement 
about air traffic control contracts and reopening a contract 
that has been negotiated. Are you going in with a view about 
reopening the air traffic controllers contracts or do you 
consider that settled and we should go forward? What is your 
view on that?
    Mr. Kienitz. I think that the Secretary's view has been 
that the current situation is perhaps not perfect although, as 
you say, the terms that were imposed a couple of years ago are 
currently in place. I think that he takes the optimistic view 
that perhaps we could come to some kind of understanding about 
terms going forward that will inspire a higher level of morale 
among controllers and more confidence going forward in the 
future. He has not described in any specifics what exactly he 
thinks that needs to be, but once again, that is, I think, one 
of the two top priorities he has identified for the FAA 
Administrator, is to look into that issue to see if some kind 
of change that improves morale among controllers can be agreed 
to.
    Senator Hutchison. Well, we will have an FAA Administrator, 
I am sure, to discuss that with, and it will be a major topic 
of interest because there is much disagreement. That is what 
really held up the NextGen and the FAA reauthorization, and 
there was strong disagreement. So I will just put that out 
there and we will talk to the FAA Administrator about it at a 
later time.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Johanns.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Mr. Chairman, thank you very much, and to 
the panel, congratulations. It is a great honor just to be 
here, and having sat where you sat 4 or 5 years ago, I just 
want to underscore that.
    I am going to ask a question to the whole panel, if I 
could, because I am kind of searching for some expertise here. 
Has anybody on this panel ever worked rural transportation 
issues, roads, intrastate, air service, that sort of thing? 
Does somebody want to jump in on that one?
    Mr. Kienitz. In my prior work, I worked for Governor 
Rendell in Pennsylvania, and although we have big metropolitan 
areas, a lot of Pennsylvania is very, very rural. So a big area 
of focus was really three things, I would say, the first of 
which was trying to maintain commercial air service to our 
small airports. Regardless of whatever the EAS program does or 
does not allow, we had major struggles with our major airlines 
trying to serve those smaller communities.
    The second of which is really a lot of money invested in 
rural roads which, anyone who has driven in Pennsylvania knows, 
are not that great in a lot of places.
    The third of which is we struggled very much to support 
rural transit systems, particularly for people with 
disabilities or others who do not have the ability to drive. I 
think by now, we have almost all the counties covered by rural 
transit of one kind or another.
    Senator Johanns. Both areas that you mentioned, 
transportation via air and roads, are hugely important in the 
State that I come from. We have really no intrastate air 
transportation system, and the difficulty with roads in rural 
areas is, of course, that they will not have the traffic count 
that a major metropolitan area would have.
    How would you deal with that issue as we start thinking 
about the highway reauthorization bill and funding? How do you 
get money into these rural communities that desperately need 
these roads for farm to market, just simple transportation 
needs?
    Mr. Kienitz. I think, Senator, the Senate in particular has 
a tradition of making sure that that issue receives--there are 
a lot of Senators who represent a lot of rural communities--to 
make sure that initially formula allocations are not, for 
example, based entirely on where traffic is or population or 
something. So the highway funding formulas have traditionally 
been perhaps somewhat more friendly to very rural areas which 
do not have the ability to generate tax receipts on their own 
from traffic to support roadway investment.
    If you look at the profile of where there are roads in poor 
condition that need repair across the country, you see huge 
concentrations of it in some very rural areas. And I think the 
highway program, in particular, so far has been structured to 
recognize that. The struggle is how to figure out a program 
that does that well but also deals with the terribly 
complicated issues you find in a place like Chicago or Los 
Angeles or something like that.
    Senator Johanns. Anyone else have any thoughts? Yes, sir.
    Mr. Szabo. Senator, to a certain extent, I have been 
involved with advocating for funding for short line railroads, 
which are the smaller mom-and-pop operations that tend to serve 
rural communities. So, obviously, we consider that a bloodline 
to those communities and part of a network that feeds into the 
larger rail system. So we consider that an important linkage.
    Senator Johanns. Anyone else want to offer any thoughts?
    Mr. Rivkin. Senator, though I have not worked on rural 
transportation issues in a rural area, I think we are well 
aware that the Administration's policy and the Secretary's 
intent is to make sure that all of America is served with a 
unified transportation system. The importance of things like 
EAS and bus service and train service, as well as rural roads--
all of us are well aware of that.
    Senator Johanns. Great.
    I will just wrap up, Mr. Chairman, with this thought. I 
asked that question mostly to use this opportunity to highlight 
the importance of these issues. $8 billion for transit relating 
to trains that run back and forth between metropolitan areas is 
great. I certainly do not have any problem with it. I do not 
know that it will help a lot in Nebraska, if you know what I am 
saying. Not to say that it is not insignificant because we do 
have Amtrak that goes through the State, but when you focus on 
rural transportation issues moving from one small community to 
another, it is going to be roads. It just simply is roads that 
make that work.
    So as you enter into your new assignments, if there is ever 
an opportunity to influence that discussion for these small 
communities, it will be greatly appreciated.
    And I look forward to working with all of you. Best of 
luck.
    Senator Dorgan. Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman. Thank 
you all very much for your willingness to serve and be part of 
the Obama Administration.
    First, I do want to say, Mr. Szabo, as a former mayor as of 
January of this year, I am glad to see another mayor within the 
Department of Transportation. That will help, I think, 
influence the perception that local governments know how to do 
it best and know how to deliver.
    I am going to follow up on what Senator Johanns said in 
regards to rural. His comment I liked is: ``Roads make it 
work.'' We do not have roads in lots of our areas in Alaska. So 
air makes it work also. So I want to augment that. Rural in 
Nebraska is nothing like rural in Alaska.
    I think your resumes are all very strong, and I have no 
problem with all of your appointments. So I am looking forward 
to working with you.
    But I did notice that most of you were kind of from the 
Midwest to the East, and I think the point Senator Johanns is 
saying is when you look at the Southwest, the deep Midwest, 
rural Alaska, we have very different kinds of situations. In 
southeast Alaska, we have the marine highway system. It never 
gets really any funding from the Federal Government even though 
it is the only way to move from one community to the next for 
food, services, medical.
    So as you take on these new roles, I would hope you would 
keep that rural aspect, what I would call the extreme rural 
aspect--and I would encourage you to come to Alaska, not on a 
cruise--though there are really good prices right now. But I 
would encourage you to come on up and kind of see what we have 
to deal with when it is literally life and death with regard to 
rural transportation.
    But I am anxious to get your appointments moving forward.
    Mr.--is it Appel?
    Mr. Appel. Yes.
    Senator Begich. Your role in research innovation--in the 
last TEA-LU bill there were, I believe, 10 research institutes 
established. I am not sure how familiar you are with these, but 
one is in Alaska on very unique, cold climate conditions. This 
center would benefit states like mine and others that are very 
rural and have cold climate conditions in the winter, pavement 
conditions and so forth.
    I would be interested in your comment now or later how you 
see those playing in. As you know, they were authorized only 
for a 5-year period of funding under the TEA-LU bill. So 
reauthorization will have an impact on those 10. So I would be 
curious how you see you see those research centers across the 
country. I think there are 10, and they usually are working 
with universities. I do not know if you have a comment now on 
that.
    Mr. Appel. Well, just in general, RITA has within it a 
number of different great sources of research, whether it is 
the Volpe Center within RITA or the 60-odd University 
Transportation Centers or focused research institutes that get 
funding from it. They all are playing a very important role. 
One of my priorities when I get there is to really understand 
what the complementary roles across all these different sources 
of thinking are to make sure that we align them to address the 
issues we have and to make sure we take advantage of the unique 
skills and qualifications and resources that each one brings.
    I enjoyed your remarks about Alaska. When I was with the 
FAA in the 1990s, I had a chance to spend some time with my 
boss, Administrator David Hinson, visiting--we must have 
visited 15 FAA facilities in Alaska in the course of about 4 or 
5 days. And I----
    Senator Begich. A unique experience.
    Mr. Appel.--in terms of the amazing dedication that the 
people there have to maintaining very complex electronics, very 
complex facilities in conditions that are just so much more 
difficult than what their colleagues in the rest of the United 
States have to face.
    So I respect that and I also realize the unique issues that 
are faced in Alaska, and the institute in Alaska will be 
something that I will take a look at to really understand how 
they all play together. But I am confident that there are 
unique contributions coming from each.
    Senator Begich. Well, thank you very much. We will look 
forward to talking with you in more detail. It is just that we 
have very unique, climate conditions, especially around winter.
    Again, the last comment I will make. I really encourage 
folks, as you deal with rapid transit rail--you know, in Alaska 
we have literally one rail system. But the big question in the 
long term is how do we connect rail to the Lower 48 for 
transportation of goods. That is a very new item. Alaska is 
aggressively looking at it. The military is also looking at it 
because it will move military goods from the Lower 48 into very 
strategic locations. So maybe at a later time, Mr. Szabo, you 
could give us some feedback on how you see that or if you do 
not see that. It has kind of a dual purpose. It is commerce, 
but it is also military equipment and movement. So just food 
for thought and a later discussion on that.
    Thank you very much.
    Senator Dorgan. Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman. Rarely do we see 
such a distinguished panel of people ready to take on these 
important jobs, and I welcome all of you who are ready to take 
on these important assignments. That does not mean you are 
confirmed.
    [Laughter.]
    Senator Lautenberg. But you have got a good step forward.
    In my State of New Jersey, we are looking to break ground 
on the largest mass transit project in the country, a new rail 
tunnel under the Hudson River. It is not a regional thing. It 
is a national thing in terms of the services that are provided 
around these States. It is a very densely populated area of the 
country. The project will take 22,000 cars off the road each 
day, create 6,000 construction jobs each year for 10 years. 
They are shovel-ready, pick-ready, drill-ready. It is all 
ready. And I think this totally meets the President's 
commitment to getting people to work. Nothing can be as ready 
to go as this tunnel project is. We hope that it will.
    Mr. Kienitz, how do you kind of ensure that projects like 
the Hudson River tunnel that reduce commutation time and 
reduces emission--how do we get them going as quickly as might 
be possible?
    Mr. Kienitz. Thank you, sir. I will say a few things, the 
first of which is your continuing advocacy for this project has 
made it sure that all the senior leadership of the Department 
knows all about what the ARC project is. So you have succeeded 
on that count.
    The difficulty, of course, as you know, and as your 
conversations with the Secretary have indicated, is the Federal 
share of that project is the largest commitment of transit 
dollars that there ever would have been to one project, and it 
is larger than the amount that is available to commit right 
now.
    So, obviously, as you say, the project is ready to go, and 
in terms of the internal evaluation criteria of the Department, 
it scored very well on all of the objective criteria. So I 
think your conversations with the Secretary indicate that they 
are looking for a way to allow the project to keep on track in 
terms of going forward, recognizing the fact that there is just 
not enough authority right now to give it the full promise of 
Federal support. I think that comes with the reauthorization.
    But your question is a good one, which is how in the 
reauthorization you create a structure whereby things that are 
big can get funded because what we have had up until now I 
think is system of----
    Senator Lautenberg. You have had wonderful experience 
working for Pat Moynihan, who was one of the great United 
States Senators.
    Mr. Kienitz. Yes, sir.
    Senator Lautenberg. Ed Rendell, someone else. And I would 
like to fill in their footsteps. So I urge you to do what you 
can to remind the Secretary, in case he did not hear what I had 
to say these last few days----
    [Laughter.]
    Senator Lautenberg.--to go ahead and take out the starter's 
gun and shoot it off and let us go.
    Mr. Szabo, welcome to you. You are going to be an important 
person in the railroad system of the country. In my Amtrak 
bill, which was signed last year, we required that the 
Northeast Corridor be brought into a state of good repair by 
2018.
    Now, as Administrator of the FRA, how do you see the 
priority getting fulfilled to meet this deadline and to be sure 
that we do accomplish the goal that we want for the Northeast 
Corridor?
    Mr. Szabo. Well, obviously, if confirmed, it is my 
obligation to make sure the statutory mandates from the laws 
that you have passed are implemented in a timely manner and to 
provide the appropriate level of feedback to you of our 
progress or, of course, any hurdles that we might be facing. 
But it is our obligation to deliver.
    Senator Lautenberg. Thank you.
    Mr. Rivkin, Aon--they have substantial presence in New York 
and the World Trade Center.
    Mr. Rivkin. Yes, tragically.
    Senator Lautenberg. That was the firm that you joined.
    Mr. Rivkin. Yes, Senator Lautenberg, and 175 colleagues 
from Aon perished in the World Trade Center.
    Senator Lautenberg. I remember that very well.
    That brings certainly the question of safety right squarely 
in front of you when you look at the things that we are doing 
now to make sure that we are going to operate as efficiently 
and safely and securely as we possibly can. We welcome all of 
you.
    Thank you very much, Mr. Chairman.
    Senator Dorgan. Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman, and 
thank you to all of you.
    I think we will be working a lot together because I do not 
just serve on this Committee but, like Senator Lautenberg, also 
serve on the Environmental Committee where we are doing the 
transportation bill in the coming year.
    So I had some questions, which I know I talked to Secretary 
LaHood about when he visited me with the two of you, Mr. 
Gresham and Mr. Kienitz, and that was about bridge maintenance. 
I told you I live six blocks from the bridge that fell in the 
middle of the Mississippi River that day. And so whether I 
wanted to or not, I became something of an expert on bridge 
funding.
    One of the things that Congressman Oberstar and I have 
learned is that there is supposed to be money set aside for 
bridge maintenance, but oftentimes that money goes to building 
new projects. We have a belief that sometimes it is more fun to 
cut ribbons at new projects and celebrate new projects, and 
some of our infrastructure is crumbling and needs to be 
inspected better and also needs to be maintained better. I 
wondered if you could comment about that, Mr. Kienitz and 
whoever else wants to join in.
    I also thought, Mr. Appel, there is some new technology 
that could be used more effectively to inspect bridges, and 
maybe you want to talk about that part.
    Mr. Kienitz. Thank you, ma'am. My aunt and uncle actually 
live about eight blocks from that bridge and have a very good 
view of it from their highrise there.
    Yes, obviously, I am very familiar with the issue that you 
raised, and that is something that has been debated and 
ultimately not changed in the last three reauthorizations by my 
count. I know, for example, in Pennsylvania, our program--the 
history was exactly you are allowed to take 50 percent of the 
bridge money and not spend it on bridges, and that was the 
tradition.
    Senator Klobuchar. Put it on like flowers.
    Mr. Kienitz. Or whatever.
    Our response to that really was to try to spend money on 
bridges in proportion to their need as part of the system and 
how many of them required repair. So we tripled, I think, the 
amount of spending on deficient bridges in Pennsylvania because 
we have more deficient bridges than any other state. So I am 
very aware of that problem and look forward to working with 
you, if confirmed, on that particular legal issue as the way 
the law is written now.
    Senator Klobuchar. Thank you.
    Mr. Appel, the technology?
    Mr. Appel. Certainly. Well, what RITA is all about is 
taking the best technology that we can either do research in-
house for or identify the research and technology from outside 
to make sure that when we make those investments in 
transportation infrastructure, we are doing it well.
    I have not looked specifically at the civil engineering 
types of research that relate to what you are asking, but it is 
one of the first things I will do when I get there.
    Senator Klobuchar. Great. There are just some very 
antiquated methods right now that are still being used to check 
bridges for safety, and I think we could use some advanced 
methods that are available.
    And then another thing I want to talk about--and actually I 
have talked to Senator Warner about it. He had a little to do 
with telecommunications in his past. But as we look at the 
infrastructure issues with broadband and what I call the rural 
electrification of our generation, I am working on some 
legislation--and I hope others will join me--with the upcoming 
reauthorization of the transportation bill to look at ways to 
integrate the broadband infrastructures and road construction 
with the work that is going on with transportation 
infrastructure--this is the whole digging up the streets 50 
times issue--to see if there are ways we can save taxpayer 
money, as well as reduce disruptions on the roads and also just 
facilitate the laying of this broadband.
    I just wondered if anyone wanted to comment on that, if 
anyone had any thoughts on that. Have you driven on these 
streets when they are digging them up?
    Mr. Appel. Absolutely. I want to talk from an intermodal 
perspective which can be--in other words, the agency, RITA, 
looks a lot at how work done with one particular mode of 
transportation impacts another mode of transportation and 
trying to find efficiencies such that when projects are done, 
they are integrated well. And integration between one mode and 
another mode has very much in common with the integration 
between a mode of transportation and some other type of 
commerce. So what you are describing is absolutely the kind of 
thing we would want to make sure we understand at RITA.
    Senator Klobuchar. Thank you very much.
    Mr. Szabo, I know everyone has been talking about their 
rail projects, and I loved how Frank described his as ``truly 
national'' instead of regional. And I would think rail through 
the Midwest, which is in the middle of the country, would truly 
be national, as we have to connect both sides of the country. 
So I wanted to point that out, as well as the good inter-city 
projects that are out there. Our Vice President Biden recently 
visited Minnesota, and I think he was kind of stunned by all 
the questions in St. Cloud, Minnesota, which is in the middle 
of our State on adding an extra part to the rail to connect Big 
Lake to Saint Cloud. So I just wondered if you could comment a 
little on the inter-city rail piece of this.
    Mr. Szabo. Well, Senator, obviously, I am aware that there 
is a very healthy debate in Minnesota about passenger rail. 
Frankly, it is one of the most exciting challenges before FRA 
right now. It has become one of the keystone pieces of the 
Administration's efforts in the recovery, and it truly is a 
renaissance for passenger rail. So I look forward to working 
with you on trying to make these projects become a reality.
    Senator Klobuchar. Thank you very much. I will say, Mr. 
Chairman, I learned a new term today from Senator Begich. I 
always thought we had something in common with rural areas, but 
now I know his are ``extreme rural.''
    [Laughter.]
    Senator Klobuchar. But I do not know where North Dakota 
fits in.
    Senator Begich. It is up there.
    Senator Dorgan. Senator Thune from South Dakota?
    Senator Klobuchar. Extreme rural.
    [Laughter.]

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you. We would be happy to take you to 
some extreme rural areas of our States.
    [Laughter.]
    Senator Thune. Thank you, Mr. Chairman and Senator 
Hutchison, for holding today's hearing, and I want to thank our 
panel for their willingness to serve. These are important 
positions, important to the operation of our Government, and 
obviously, we may not always agree on every policy, but it is 
important the positions be filled in a timely manner by 
qualified nominees who are ready to take on many of the 
challenges that face our country. And we have many. We have an 
over-dependence upon foreign energy. Infrastructure is aging. 
There is no shortage of issues that we need to take on. So 
thank you for your willingness to serve. I look forward to 
working with all of you and hope that we can find some 
solutions and some good results for the American people.
    I would like to pose, if I could, a question to Mr. 
Kienitz, and it has to do with the--some of which has already 
been alluded to--but the upcoming highway bill debate. Just to 
get your overall thoughts and without drilling down and getting 
real specific about how we should address the shortfall in the 
Highway Trust Fund that is so critical to our Nation's 
infrastructure.
    I do not know if you are familiar with it or not, but 
Senator Wyden and I have a bill, the Build America Bonds Act, 
which would supplement funding that States currently receive 
via the Highway Trust Fund.
    I am curious if I might get your overall thoughts with 
respect to that issue and where you see us going with regard to 
funding.
    Mr. Kienitz. Yes, sir. Thank you. Yes, I think that is the 
biggest obstacle right now in the way of the kind of debate 
over surface reauthorization that I think a lot of people want 
to have, which is how to create a program that looks to the 
future and what are the new opportunities available to us. As 
you know, the gasoline tax as a source of predictable, year-
over-year growth in funding has sort of collapsed, as it were. 
I think everyone feels that it is going to come back 
eventually. The economy will come back and driving will come 
back. But even over the last 10 or 12 years, there has been a 
growing mismatch between the rate at which project costs go up 
and the rate at which revenue goes up.
    So the Secretary is committed to and I think is already 
engaged in a process inside the Administration of looking at 
all the many possible options there are about how to fund 
reauthorization at the levels that I think the members are 
expecting. That conversation is not complete, and so I am not 
sure what I can really say about it other than I know they are 
talking about a whole bunch of different ways to do it. I think 
he is well aware of the great difficulty there will be in 
reauthorizing the program if the funding were to go down 
substantially from the last reauthorization rather than grow, 
for example.
    Senator Thune. That was sufficiently vague.
    [Laughter.]
    Mr. Kienitz. Those are my instructions.
    [Laughter.]
    Senator Thune. I understand.
    Just one other thought about that, though. There was 
injected into the stimulus bill debate this whole notion of no 
new capacity policy, and I am a little concerned we are going 
to be dealing with it in the surface transportation bill. It 
seems to me that when you have roughly 85 percent of your 
highway funds spent on maintenance activities, that this could 
be a solution in search of a problem. I guess my question is if 
you can explain why, on one hand, we want increased flexibility 
for State and local governments and yet, on the other hand, we 
are trying to constrain that flexibility to only certain 
activities.
    Mr. Kienitz. Well, I guess I am not familiar with that 
conversation as part of the Recovery Act discussion. I know 
there was a debate on the Recovery Act over what the total 
amount would be, how much would go to rail, how much would go 
to transit, and how much would go to roadways, but as far as I 
knew, the conversation on highway funding was really provided 
to the States according to the usual system whereby projects 
are selected at the State level.
    I will tell you from my experience working at the State 
level in Pennsylvania, our ability to fund big new capacity 
projects just grew less and less every year as funding stayed 
level and needs grew and we had 6,000 deficient bridges and 
tens of thousands of miles of deficient roadways. And so as a 
practical matter, that is sort of where the squeeze ends up, 
but as sort of a particular mandate at the Federal level, I 
guess I have not seen that yet.
    Senator Thune. I do not mean to ignore the rest of you. We 
are trying to drill down on some of these highway issues.
    But I do have a question for the second panel if I could 
submit it for the record. I do not know if I am going to be 
able to be around for that panel.
    Senator Dorgan. Without objection.
    Senator Thune. If I could enter that into the record, that 
would be great.
    So thank you all very much again for your willingness to 
serve.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Thune, thank you.
    Senator Warner?
    Senator Warner. Thank you, Mr. Chairman. Let me add my 
voice to my colleagues' in saying, hopefully, a prospective 
congratulations on your nominations and hopefully very quick 
approval.
    I have got two areas I want to take my time on. One is 
while I am not a mayor, I have dealt with State-level 
transportation challenges, and one of the most frustrating 
things at a State level is the silo nature of our 
transportation funding. One of the things that I particularly 
was happy to finally see in the Recovery Act was a pot of 
resources, albeit smaller than I would have liked, that would 
be supportive of multimodal transportation projects. I believe 
if we are really going to think in a prospective way about how 
we fund how we not only connect our road system with our rail 
system but the airports and ports in a State like Virginia 
where we have one of the gateway ports for the east coast and 
an international gateway airport at Dulles, this multimodal 
notion I think, even maybe for extreme rural States, is part of 
the mix.
    And I would like to hear any members of the panel, Mr. 
Kienitz, perhaps starting with you, comment about the 
commitment to multimodal and how, on a going-forward basis, the 
Recovery Act will not be a one-off time and that we do not get 
back to a funding cycle. Even as Senator Thune, I think, has 
appropriately pointed out, current funding is not going to get 
us where we need to be. And fighting over our ever-diminishing 
pot of dollars is going to get tougher and tougher.
    Is there going to be any chance that we are going to be 
able to have multimodal as a real transportation policy for the 
country?
    Mr. Kienitz. Thank you, sir. I guess I will start with 
that.
    Personally I would say I could not agree with you more. I 
think that that small funding program, though, is a great way 
to sort of show people what policymaking without consideration 
for the source of the funds being directed to one mode or 
another, what that can actually look like. And it means doing 
things where there is more than one mode involved in a project 
and not having to go through a horrible legal exercise to say, 
OK, this is the airport dollar, this is the transit dollar, 
this is the roadway dollar, but rather look at the project as a 
whole.
    When I spoke earlier to Senator Thune about the idea of 
what does the challenge for the 21st century look like for 
rewriting the transportation program, I think that is partly 
it, is to be able to set overall national objectives, economic 
competitiveness, safety, environmental sustainability, things 
like that, and then make funding decisions that drive the 
country toward those outcomes.
    It would certainly be my hope that by making funding 
available through that discretionary program, it can be 
demonstrated that that does not end up being an anti-rural 
program but it may be that the funds you spend in very 
congested urban areas get spent in different ways than they 
might have done in the past and that the connections between 
passenger rail and freight rail and airports are perhaps a 
greater source of interest to that funding than might have 
traditionally been in the past when you are spending money in 
places that have those complicated systems.
    Senator Warner. I would simply add on that. Amen to what 
you said, but I would hope that those jump-ball dollars that 
the Department is going to allocate soon, that you look at how 
the criteria will be established. I mean, there was a group 
that I was involved in before my election to the Senate, a 
bipartisan policy group, looking at transportation and what 
ought to be those new metrics. This would be a great 
opportunity, I think, with these early dollars to set out some 
new policy goals that could become part of the active debate 
next year or later this year on the Surface Transportation 
Reauthorization Act.
    I apologize. I want to get one question. I want to hear 
multimodal from everybody else. If you could perhaps submit any 
answers for the record.
    But I do want to get back to Mr. Appel on one question 
about technology, and that is that Senator Klobuchar mentioned 
the notion of combining roads and broadband so that when you 
make those changes, you lay in the broadband. We started an 
initiative like that in Virginia. There has been little real 
advancement in surface transportation technology.
    A little bit earlier today I was looking at what I hope 
will be one of the first generations of new electric vehicles 
that may have plug-in capabilities. There is Hawaii and Israel. 
Denmark has got a proposal to actually retrofit their whole 
transportation system. And my time is going to run out.
    But please comment on how we make sure we really push the 
technology edge, and from a parochial standpoint, as you look 
at locations to push that, Virginia Tech has been one of the 
leaders in this area with the Smart Road down in Blacksburg. 
And I hope that that would get on your radar screen, along with 
those Alaska projects, in terms of how we can push this 
technology.
    I think I have actually used up about all my time, but if 
you have got a quick response, I would appreciate it.
    Mr. Appel. Absolutely. First of all through the 
transportation infrastructure investment going on right now, we 
have a great opportunity to combine a lot of goals at the same 
time. Sustainability, which relates to the electrical vehicles, 
is a huge priority of the Department, as is safety, as is 
capacity. And a lot of the technology--the research that is 
being done at these universities, working with RITA, and the 
research being done at RITA itself at the Volpe Center, are 
geared toward trying to identify technologies that will 
increase the capacity of existing highways but also bring about 
the sustainability, bring about safety at the same time.
    Basically, if you take a look at what the Volpe Center up 
in Cambridge is doing right now, they are perhaps the most 
cross-modal group within the Department. There are engineers 
and researchers across every mode of transportation. They are 
working with their counterparts at the universities. And the 
kind of issues you are talking about are the kind of issues 
that they are looking at not just applying to roadways or 
surface transportation, but really across the modes.
    So these are exactly the kind of issues that I am going to 
take a look at as soon as I get there and really try to make 
sure that our priorities at RITA are aligned with the overall 
priorities of the Department and the Administration in those 
areas.
    Senator Warner. Thank you. Thank you, Mr. Chairman.
    Senator Dorgan. Senator Warner, thank you very much.
    Let me thank all of the nominees. I intend to support all 
of the nominees. I think you are of extraordinary quality. All 
of you aspire to join an agency that is part of a big 
bureaucracy, including bureaucracy within the specific agency 
to which you aspire to work. Let me urge you, to the extent you 
can, because every bureaucracy around this town is filled with 
the cholesterol that blocks the arteries of progress every 
single day. I hope you will just tip it upside down and shake 
it when you get there. You have got a lot of big issues on the 
plate. I mean, really a lot of big issues. I want you to 
transform the bureaucracy rather than having the bureaucracy 
transform you.
    I have a lot of questions that I would ask, but I think I 
will defer and submit some questions. But the issue of the 
modernization of the FAA system--I chair the Aviation 
Subcommittee here in the Commerce Committee. We have got a lot 
of issues there with respect to how do we fund modernization. 
Amtrak is very important, essential air service. There are just 
so many issues, rural roads.
    I am not going to get into the issue of extreme rural. Let 
me observe that--I mean, I come from a town of 300 people, and 
on the Fourth of July at the parade, we just parked the float 
and had people walk around the float.
    [Laughter.]
    Senator Dorgan. Where I come from, they call that real 
rural.
    So let me thank all five of you and I appreciate very much 
your appearance here today. You are dismissed.
    We will ask that the next nominees come to the table. We 
will call to the table Mr. Cameron Kerry who is nominated to be 
General Counsel at the Department of Commerce. Let me hold just 
for a moment while we clear the table. Ms. April Boyd, 
Assistant Secretary for Legislative and Intergovernmental 
Affairs at the Department of Commerce, and Ms. Sherburne Abbott 
to be Associate Director of the Office of Science and 
Technology Policy in the Executive Office of the President.
    If we can clear the room quickly, we would appreciate that. 
We would like to begin with the second panel, please.
    [Pause.]
    Senator Dorgan. Let me thank all of you for your 
cooperation. We are pleased here to receive the nominations of 
Mr. Cameron Kerry to be General Counsel of the Department of 
Commerce. Ms. April Boyd is nominated to be the Assistant 
Secretary for Legislative and Intergovernmental Affairs at the 
Department of Commerce, and Ms. Sherburne Abbott to be 
Associate Director of the Office of Science and Technology. I 
thank all three of you for being here.
    My understanding is that Congresswoman Tauscher wishes to 
have a statement entered into the record at this point with 
respect to the nomination of Ms. Boyd.
    [The prepared statement of Ms. Tauscher follows:]

             Prepared Statement of Hon. Ellen O. Tauscher, 
          U.S. Representative from California, Tenth District
    Mr. Chairman and Ranking Member Hutchison, thank you for the 
opportunity to introduce to the Committee today April Boyd. During the 
time April worked for me in the House of Representatives, she was known 
as one of Capitol Hill's most conscientious, dedicated and well-liked 
staff members, and I know she will fill the same role in the Obama 
Administration if confirmed as the Assistant Secretary for Legislative 
and Intergovernmental Affairs within the Department of Commerce.
    April served as my indefatigable Communications Director from 2001 
to 2004. In 2006, when my long-time Chief-of-Staff was leaving, I asked 
her to come back in that capacity. As my chief of staff, April not only 
capably managed my dedicated staff, but she played a key leadership 
role with the 67-Member House New Democrat Coalition, which I am 
privileged to chair. In this role, April was my strong voice for 
economic policies that foster the competitiveness and technological 
growth imperative to American businesses and workers.
    Throughout my tenure, I have worked with many bright, talented 
staffers on Capitol Hill, and April is among the best. She is a true 
team-player and, above all, a delight to work with. She is a 
responsible manager, a dedicated professional, and I am proud to also 
call her a friend.
    If confirmed by the Senate, I know April will be an asset to the 
Obama Administration's open, honest, accountable Federal Government. 
She understands the needs of Capitol Hill and will always put her 
credibility and dedication to our country first.
    Mr. Chairman, thank you for your time, and I hope you and your 
distinguished colleagues will see fit to confirm April Boyd as 
Assistant Secretary of Commerce for Legislative and Intergovernmental 
Affairs.

    Senator Dorgan. We will begin with Ms. Boyd. I would ask 
any of you, if you have members of your family who you wish to 
identify for the Committee, please feel free to do so.

                    STATEMENT OF APRIL BOYD,

            ASSISTANT SECRETARY-DESIGNATE, OFFICE OF

           LEGISLATIVE AND INTERGOVERNMENTAL AFFAIRS,

                     DEPARTMENT OF COMMERCE

    Ms. Boyd. Sure. Thank you, Mr. Chairman. In the interest of 
time, I would like to summarize my prepared remarks and ask 
that my full statement be submitted for the record.
    Senator Dorgan. Without objection.
    Ms. Boyd. Thank you.
    If I may, I would like to thank you, Chairman Rockefeller, 
and Ranking Member, Hutchison, for holding today's hearing, and 
especially Ellen Doneski, for her graciousness throughout this 
process.
    I would also be remiss if I did not thank the career staff 
at the Department of Commerce for their help thus far, 
especially Jim Schufreider and Karen Swanson-Woolf, and the 
General Counsel's Office, and acknowledge my large contingency 
of family here today. My husband Rob who, without his support, 
I could not even think about taking on this incredible 
responsibility. My daughter Adeline, who is probably going to 
practice her walking in the back of the hearing room. My mom 
Claudia, and my sister Monica.
    Senator Dorgan. Welcome.
    Ms. Boyd. Thank you.
    I am honored and humbled to have been nominated by 
President Obama and have Secretary Locke's support to appear 
before you this afternoon. If confirmed by the Senate, I would 
be honored to serve as the Assistant Secretary for Legislative 
and Intergovernmental Affairs and play a role in tapping the 
Department of Commerce's vast potential to help address our 
Nation's economic challenges.
    Whether it is the $4.7 billion in broadband grants the NTIA 
will distribute in communities throughout our country, to NOAA, 
the upcoming census, or efforts to spur economic development 
and the growth of new industries, it is hard to find even one 
American whose life is not impacted or cannot be improved by 
the work of the Department of Commerce.
    If confirmed, I believe my top priority at the Commerce 
Department should be to be as responsive as possible to 
Congress and other elected officials, in keeping with President 
Obama's call for the Federal Government to be open, 
accountable, bipartisan, transparent, and efficient.
    The opportunity to serve as a liaison with Congress and 
State and local governments is one I take very seriously. As 
someone who spent the last 8 years working in both the House 
and Senate, I respect and understand the role of the Congress 
in ensuring our Government is accountable to the people you and 
the President represent.
    I was fortunate to work for two amazing people on Capitol 
Hill: Representative Ellen Tauscher of California, and Senator 
John Kerry. I particularly want to thank Senator Kerry and his 
staff for teaching me about this incredible chamber and also 
that the Department of Commerce has a lot to do with our oceans 
and fisheries.
    I most recently served as Chief of Staff to Congresswoman 
Ellen Tauscher, the Chair of the House New Democrat Coalition. 
There I devoted much of my time to working to help enact 
policies that focus on strengthening America's competitiveness 
in the global marketplace and fostering the innovation that has 
always put our workers and businesses at the forefront.
    I believe my skills and experiences on the Hill and 
previously in the Executive Branch have prepared me well for 
this Assistant Secretary position. If confirmed, I would be 
honored to serve the President, Secretary Locke, and you at 
this unique time in our country's history.
    Thank you. I would be happy to answer any questions you may 
have as well.
    [The prepared statement and biographical information of Ms. 
Boyd follows:]

Prepared Statement of April Boyd, Assistant Secretary-Designate, Office 
  of Legislative and Intergovernmental Affairs, Department of Commerce
    Thank you Mr. Chairman, Ranking Member Hutchison, and Members of 
the Committee. It is an honor both to have been nominated by President 
Obama and to appear before you this morning. Chairman Rockefeller, 
during Secretary Locke's confirmation hearing you pointed out that it 
is ``extraordinarily important'' the Department and this Committee 
remain in close contact. I couldn't agree more and, if confirmed, you 
have my whole-hearted commitment to being open and accessible.
    I would like to acknowledge my family here today, beginning with my 
incredibly supportive husband, Rob, and our daughter Adeline. I'd also 
like to thank my mom; she raised my sister and me on her own and really 
instilled in us the value of hard work. And hopefully my grandmother's 
Internet is working so she can be watching today in Fremont County, 
Iowa. I would not be here today without any of them.
    I would also like to thank Secretary Locke, Phil Schiliro and 
everyone who has made possible this once-in-a-lifetime opportunity to 
serve. And I would briefly like to thank the dedicated career staff at 
the Department, particularly the Acting Assistant Secretary Jim 
Schufreider, Karen Swanson-Woolf, Jen Costanza and Matt Stout in the 
Office of Legislative and Intergovernmental Affairs, and the General 
Counsel's office.
    In his confirmation hearing, Secretary Locke talked about the 
Department of Commerce as ``an engine of innovation, job growth, and 
economic renewal.'' I believe his vision and energy are exactly what 
the Department and our country need in these difficult times. If 
confirmed by the Senate, I would be honored to serve as the Assistant 
Secretary for Legislative and Intergovernmental Affairs and play a role 
in tapping the vast potential of the Department to address our Nation's 
economic challenges.
    Because it impacts every sector of our economy, the Department of 
Commerce touches the life of virtually every American in some way. 
Under the Department's purview are the upcoming Census; the National 
Oceanic and Atmospheric Administration's crucial work in climate 
change, oceans, fisheries, and satellite programs; $4.7 billion in 
broadband grants the National Telecommunications and Information 
Administration will distribute in communities throughout our country; 
stimulus efforts to spur economic development and the growth of new 
industries through the efforts of the Economic Development 
Administration and Minority Business Development Agency; and the 
International Trade Administration's work to encourage economic growth 
and provide a level playing field for American businesses. Include with 
those vital areas the Patent and Trademark Office's work to protect 
Americans' intellectual property; the science being done at the 
National Institute of Standards and Technology; and the critical and 
continual economic policy analyses and statistics produced by 
Commerce's bureaus, and it's hard to find even one American whose life 
is not impacted or cannot be improved by the work of the Department.
    I believe my top priority at the Commerce Department should be to 
be as responsive as possible to Congress and other elected officials, 
in keeping with President Obama's call for the Federal Government to be 
accountable, transparent and efficient.
    The opportunity to serve as a liaison with Congress and state and 
local governments is one I take very seriously. As someone who spent 
the last 8 years working in both the House and Senate, it would be a 
privilege and an honor to be able to reach out and respond to you and 
your colleagues, Representatives, Governors, Mayors, and their staffs, 
and I would ensure that everyone reporting to me shared my same open, 
responsive philosophy.
    I was fortunate to work for two amazing people in Congress: 
Representative Ellen Tauscher of California and Senator John Kerry. I 
particularly want to thank Senator Kerry and his brilliant staff for 
teaching me about this incredible chamber and, in particular, that the 
Department of Commerce has a lot to do with our oceans and fisheries.
    Most recently, I served as the Chief of Staff to Congresswoman 
Tauscher, the Chair of the House New Democrat Coalition. There, I 
devoted much of my time to working to help enact policies that focus on 
strengthening America's economic competitiveness in the global 
marketplace and fostering the innovation that has always put our 
businesses and workers at the forefront. In this capacity, the issues 
on which I focused are some of the most important issues facing 
American businesses and workers today--passing the economic stimulus 
packages, expanding broadband deployment, protecting Americans' 
intellectual property around the globe, expanding trade in a way that 
creates jobs here at home and expands markets for American goods, and 
working to promote a regulatory environment that is fair and, above 
all, predictable.
    I believe my skills and experiences on the Hill and previously in 
the Executive Branch have prepared me well for the Assistant Secretary 
position, and I look forward to working with the Senate and House to 
ensure our government is accountable to the people you and the 
President represent.
    If confirmed, I will be honored to serve at this unique time in our 
country's history. The Department of Commerce's success is vital to 
America's economic recovery. You have my word that I will work 
aggressively to address the challenges and maximize the opportunities 
facing the Department.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        April Susanna Boyd (married name).

        Prior names: April Susanna Kingery (childhood name) and April 
        Susanna Kaufman (legally took stepfather's last name).

    2. Position to which nominated: Assistant Secretary for Legislative 
and Intergovernmental Affairs, Department of Commerce.
    3. Date of Nomination: Intent to nominate announced February 23, 
2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Office of Congresswoman Ellen Tauscher, 2459 Rayburn 
        House Building, Washington, DC 20515 (Note: Through January 31, 
        2009).

    5. Date and Place of Birth: August 8, 1975; Hamburg, Iowa.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Robert Newton Boyd, III, Associate Attorney, Holland & 
        Knight LLP, 2099 Pennsylvania Avenue, NW, Suite 100, 
        Washington, DC 20006; child: Adeline Anna Boyd, age 1 year.

    7. List all college and graduate degrees. Provide year and school 
attended.

        BA in Political Science, Magna Cum Laude, Loyola Marymount 
        University, Los Angeles 1997.

        Also attended: Pepperdine University, Malibu, California, 
        August 1993--December 1994 (first three semesters of college).

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

    Congresswoman Ellen Tauscher, Chief of Staff, August 2006 to 
January 2009.

        Served as top strategic advisor to leader of the 68-Member 
        House New Democrat Coalition, the largest bloc of moderates in 
        Congress.

        Managed annual budget of $1.3 million and diverse staff of 17 
        in Washington and three district offices.

        Directed all aspects of active Congressional operation, 
        including policy, communications, scheduling, political and 
        outreach.

        Oversaw development of international bipartisan Congressional 
        Delegation trips to ensure policy goals were achieved.

        Built targeted public outreach program, including strategies to 
        grow opt-in e-mail list and redesign of website, requiring 
        three-fold increase in outreach budget achieved through 
        budgeting and staffing efficiencies.

    Senator John Kerry, National Press Secretary, November 2004 to 
August 2006.

        Responsible for daily management of responses to media inquires 
        in fast-paced press office, including supervising and 
        coordinating daily activities of Deputy Press Secretary, 
        Committee Communications Director and Massachusetts Press 
        Secretary.

        Developed roll-out strategies for major policy initiatives, 
        involving speeches, targeted op-eds, background briefings for 
        media, and website content.

    Senator John Kerry, Official Press Secretary, April 2004 to 
November 2004.

        Identified legislative communications opportunities.

        Developed and edited rapid response communications to clarify 
        Senator's record and distribute to Hill surrogates.

    Congresswoman Ellen Tauscher, Communications Director, January 2001 
to April 2004.

    U.S. Department of Energy, Press Officer and Special Assistant, 
February 2000 to January 2001.

        Played lead communications role in successful strategy for 
        landmark legislative proposal to compensate sick nuclear 
        workers, including coordinating with press offices at field 
        sites in 12 states, placing surrogates in key markets and 
        briefing reporters and editorial boards.

    U.S. General Services Administration, Media Liaison, April 1998 to 
February 2000.

    The Hauser Group, Public Relations Consultant, March 1998 to April 
1998.

    The White House, Presidential Advance, March 1998 to April 1999. 
Note: Unpaid position, periodic work around specific events/not full-
time employment.
    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.
    My husband and I own four rental units which we lease out, two 
apartments in our home on 6th Street, SE and a two-unit home on 4th 
Street, SE, both in Washington, D.C.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        House Chiefs of Staff Association, 2007.

        American Legion Auxiliary, lifetime member (inactive). Note: 
        This is a women's organization.

        Daughters of the American Revolution, member 2002-present 
        (inactive). Note: This is a women's organization.

        Kappa Kappa Gamma sorority, alumna 1996-present (inactive). 
        Note: This is a women's organization.

        Atean Society, board 1999-2000 (This organization no longer 
        exists but at the time was a group of young professionals who 
        organized an annual charity benefit.)

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected. or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No; not applicable.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

    Political Contributions over $500:

        Obama for America, $2,300 to general election campaign.

        Richardson for President, $1,000 to primary campaign.

        Richardson for Governor, $500.

    Services and Affiliations:

        Democratic Congressional Campaign Committee--In my personal 
        time, I have co-hosted events, raised funds and attended events 
        benefiting the DCCC's efforts in the 2006 and 2008 cycles.

        NewDemPAC and Center Stage--I met with prospective House 
        candidates, made fundraising calls and attended fundraisers and 
        other events for the NewDemPAC (the Political Action Committee 
        of the House New Democrat Coalition) in my personal time during 
        the 2006 and 2008 cycles. I have attended events held by Center 
        Stage, an LLC which primarily held events at the 2008 
        Democratic Convention.

        Tauscher for Congress and Democrats for the Future--In my 
        personal time, I have made fundraising calls and attended 
        fundraisers and other events for Congresswoman Tauscher's 
        reelection committee and her Leadership PAC during the 2006 and 
        2008 cycles.

        Presidential Debates 2004--I assisted the Kerry-Edwards 
        campaign in a volunteer capacity with media booking and 
        surrogate staffing at the three Presidential debates in 2004.

        Democratic National Convention 2004--I volunteered as a Network 
        Liaison at the Democratic Convention in 2004. In this capacity, 
        I booked Kerry campaign officials on the networks assigned to 
        me and briefed them for their interviews during the week of the 
        Convention.

        DNC Convention Response Team--In this volunteer capacity, I 
        assisted in the Democratic response to 2004 Republican National 
        Convention.

        Gore-Lieberman 2000--In this volunteer capacity, I assisted the 
        Ohio Press Secretary with statewide surrogate pitching efforts.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

    Scholarships:

        I received several merit and need-based scholarships to attend 
        college.

    Other Special Recognition for Outstanding Service or Achievements:

        Secretary of Energy's Award for Excellence for the Energy 
        Employees Occupational Illness Compensation Program Act, 2000.

        Named one of the best press officers in the Clinton 
        administration by the Regional Reporters Association, 2000.

        Stanley Chan Award for the Outstanding Political Science 
        Graduate, Loyola Marymount University, 1997.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    All columns, op-eds and speeches I have written have been in the 
name of my employers.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: Not applicable.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    As Governor Locke said when nominated by President Obama to serve 
as Secretary of Commerce, ``We will harness the resources and the 
talent of the Department of Commerce to help you fulfill your 
commitment to the American people to build a stronger and more 
prosperous nation.'' If confirmed by the Senate, I would be honored to 
serve as the Assistant Secretary for Legislative and Intergovernmental 
Affairs at the Department of Commerce and play a role in that. The 
Department has tremendous work ahead of it to help get our economy back 
on track. I understand that American workers are the best and most 
industrious in the world and that when American businesses thrive, so 
will American workers. The President and Congress have undertaken an 
aggressive stimulus plan to create every opportunity for economic 
recovery. As the Chief of Staff to the Chair of the House New Democrat 
Coalition, I have devoted much of my time in the House to working to 
help enact policies that focus on strengthening America's economic 
competitiveness in the global marketplace and fostering the innovation 
that has always put our businesses at the forefront. In this capacity, 
the issues on which I focused are some of the most important issues 
facing American businesses today--passing the economic stimulus 
packages, expanding broadband deployment, protecting Americans' 
intellectual property around the globe, expanding trade in a way that 
creates jobs here at home and expands markets for American goods, and 
working to promote a regulatory environment that is fair and, above 
all, predictable.
    In addition, before returning to the House, I worked for Senator 
John Kerry, who serves on the Senate Commerce, Science and 
Transportation Committee. While there, I became versed in many of the 
issues facing the Department.
    The opportunity to serve as a liaison with Congress and state and 
local governments is one I take very seriously. As someone who spent 
the last 8 years working in both the House and Senate, it would be a 
privilege and an honor to be able to reach out and respond to the 
Senators, Representatives, Governors, Mayors, and their staff, and I 
would ensure that everyone reporting to me shared my same open, 
responsive philosophy.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    While the Department will be well run by the Secretary and his top 
managers, I would take great care to ensure taxpayer dollars are wisely 
spent in the Legislative and Intergovernmental Affairs office. In my 
most recent position, I was responsible for managing a $1.3 million 
annual operating budget and a diverse staff of 17. I have had to make 
hard staffing and budget decisions in the past, and I am prepared to do 
so again.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the top priority for the Commerce Department is to be as 
responsive to the American people and Congress as possible, in keeping 
with the President's call for the Federal Government to be accountable, 
transparent and efficient. Implementation of the American Recovery and 
Reinvestment Act presents historic challenges and opportunities for the 
Department, which I look forward to working with the Committee to 
ensure are met.
    The individual challenges in the Department will all benefit from a 
Department that operates in a way that reflects the Obama 
Administration's priorities--whether it is the upcoming Census; the 
National Oceanic and Atmospheric Administration's (NOAA) crucial work 
in climate change, oceans, fisheries, and satellite programs; or the 
dire need to spur economic development and the growth of new industries 
through the efforts of the Economic Development Administration, 
Minority Business Development Agency, National Institute of Standards 
and Technology, International Trade Administration, and the Patent and 
Trademark Office.
    If confirmed I will be as responsive to Congress and state and 
local governments as possible, and I will aggressively work to address 
all challenges and maximize all opportunities facing the Department.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    My husband has mutual fund retirement accounts that are not self-
directed, and I participate in the Federal Government's Thrift Savings 
Plan program. He continues to hold individual stocks he purchased prior 
to our marriage. In addition, we own rental property described above 
and in my SF-278.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    Throughout my career in government--eight years on the Hill and 
nearly 3 years in the Clinton administration--I have held positions in 
which I have worked to pass and impact legislation and public policy. 
Below I have highlighted key activities in each position.
    As the Chief of Staff to Congresswoman Ellen Tauscher, I have 
worked to pass and shape legislation. Specific examples include 
legislation she sponsored in the 110th Congress to:

        Bring greater transparency and accountability to commodity 
        markets without preventing pension funds and other 
        institutional investors from engaging in the futures markets 
        (H.R. 6976);

        Ensure that every crib sold in the United States is safe for 
        infants (H.R. 5692);

        Mandate our troops have sufficient ``dwell time,'' or periods 
        of rest and retraining, between deployments for Operation Iraqi 
        Freedom or Operation Enduring Freedom (H.R. 3159); and

        Repeal the 2002 Congressional Resolution authorizing the use of 
        force in Iraq (H.R. 2450).

    In addition, because of the Congresswoman's role as Chair of the 
68-Member House New Democrat Coalition, I have been involved in that 
organization's efforts to enact legislation that strengthens U.S. 
competitiveness, meets the challenges posed by globalization in the 
21st century, and bolsters America's standing in the world. The 
organization played an active role in the Speaker's Innovation Agenda--
including longstanding New Dem efforts to promote ``green tech'' jobs, 
simplify and extend the research and development tax credit, and 
implement Healthcare Information Technology to reduce healthcare costs 
and provide savings for patients and businesses. The New Dems also 
played a lead role in the bipartisan new U.S. trade policy, which 
includes enforceable core labor and environmental standards, announced 
in May 2007. A summary of the New Dems' accomplishments in the 110th 
Congress can be found at http://www.house.gov/apps/list/press/
ca10_tauscher/110th_Accomplishments.html.
    As the National Press Secretary to Senator John Kerry, I worked to 
generate public support for passage of his Kids First bill (S. 114). 
This legislation would have ensured health care coverage for the then 
11 million uninsured children in America by encouraging states to 
expand coverage under Medicaid and the State Children's Health 
Insurance Program and by providing tax incentives for parents to insure 
their children.
    At the Department of Energy, I had primary communications 
responsibility for the administration's landmark proposal to compensate 
sick nuclear workers, the Energy Employees Occupational Illness 
Compensation Program Act, which was signed into law by President 
Clinton in 2000. This legislation became only the fourth Federal 
workers' compensation program in history.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    See attached Ethics Agreement.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    Yes. As someone who has spent the last 8 years on the Hill, I 
respect and understand the role of the Senate and House in ensuring our 
government is accountable to the people they represent.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    Yes. During my work at the Department of Energy (DOE), I was 
sympathetic to the men and women who for decades before were blowing 
the whistle on unsafe working conditions at Atomic Energy Commission 
and DOE sites. The refusal of the government to acknowledge their 
claims resulted in decades of our Cold War warriors being left sick or 
dying as a result of their service in the production of our country's 
nuclear deterrent. I am proud to have had a role in ensuring their 
voices were finally heard, and I would work to ensure all congressional 
witnesses and whistle blowers are heard and protected.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                          resume of april boyd
Professional Experience
    Congresswoman Ellen Tauscher, Chief of Staff, Washington, D.C., 
August 2006 to January 2009.

        Served as top strategic advisor to leader of the 68-Member 
        House New Democrat Coalition, the largest bloc of moderates in 
        Congress, and House Armed Services Subcommittee Chair.

        Managed annual budget of $1.3 million and diverse staff of 17 
        in Washington and three district offices.

        Directed all aspects of active Congressional operation, 
        including policy, communications, scheduling, political and 
        outreach.

        Oversaw development of international bipartisan Congressional 
        Delegation trips to ensure policy goals were achieved.

        Built targeted constituent outreach program, including 
        strategies to grow opt-in e-mail list and redesign of website, 
        requiring three-fold increase in outreach budget achieved 
        through budgeting and staffing efficiencies.

        Reduced mail response time from 120 to 10 days by better 
        utilizing technology and streamlining approval process.

    Senator John Kerry, National Press Secretary, Washington, D.C., 
November 2004 to August 2006.

        Served as spokesperson for Senator in national and 
        international media outlets.

        Developed multi-pronged roll-out strategies for major policy 
        initiatives involving speeches, press events, targeted op-eds, 
        interviews, background briefings with reporters and columnists, 
        press packets, and website content.

        Responsible for daily management of media inquires in fast-
        paced office, including supervising Deputy Press Secretary, 
        Committee Communications Director and Massachusetts Press 
        Secretary.

    Official Press Secretary, Washington, D.C., April 2004 to November 
2004.

        Developed and edited rapid response communications to clarify 
        Senator's record and distribute to Hill surrogates.

        Identified potential legislative communications opportunities.

        Responsible for daily management of press inquires on Senator's 
        record and votes.

    Congresswoman Ellen Tauscher, Communications Director, Washington, 
D.C., January 2001 to April 2004.

        Devised and implemented redistricting communications strategy 
        to introduce Congresswoman to 200,000 new constituents.

        Leveraged Congresswoman's appointment as National Vice Chair of 
        the Democratic Leadership Council to elevate her national 
        profile, including being named one of the ``50 most powerful 
        people in Washington'' by George magazine.

    U.S. Department of Energy, Press Officer and Special Assistant, 
Washington, D.C., February 2000 to January 2001.

        Played lead role in media strategy for landmark legislative 
        proposal to compensate sick nuclear workers, including 
        coordinating with press offices at field sites in 12 states, 
        placing surrogates in key markets, and briefing reporters and 
        editorial boards.

        Acted as traveling press secretary to Secretary Bill Richardson 
        on foreign and domestic trips.

        Served as spokesperson for agency and Secretary on nuclear 
        safety, electricity crisis and other issues.

        Worked with Communications Director to develop crisis 
        management strategies for breaking public health stories.

    U.S. General Services Administration, Media Liaison, Washington, 
D.C., April 1998 to February 2000.

    The Hauser Group, Public Relations Consultant, Washington, D.C., 
March 1998 to April 1998.

    The White House, Presidential Advance, Washington, D.C., March 1998 
to April 1999.
Political Experience
    Presidential Debates 2004--Assisted Kerry-Edwards campaign with 
media booking and surrogate staffing Democratic National Convention 
2004--Network Liaison.

    DNC Convention Response Team--Assisted in Democratic response to 
2004 Republican National Convention.

    Gore-Lieberman 2000--Assisted Ohio Press Secretary with statewide 
surrogate pitching efforts.
Education
    Loyola Marymount University, Los Angeles, Bachelor of Arts, 1997, 
Magna Cum Laude.
Distinctions
    Named one of the best press officers in the Clinton administration 
by the Regional Reporters Association, 2000 Secretary of Energy's Award 
for Excellence for the Energy Employees Occupational Illness 
Compensation Program Act, 2000.
                                 ______
                                 
                                                  February 20, 2009
Ms. Barbara S. Fredericks,
Assistant General Counsel for Administration,
U.S. Department of Commerce,
Washington, DC.

Dear Ms. Fredericks:

    The purpose of this letter is to describe the steps that I will 
take to avoid any actual or apparent conflict of interest in the event 
that I am confirmed for the position of Assistant Secretary for 
Legislative and Intergovernmental Affairs, United States Department of 
Commerce.
    As required by 18 U.S.C.  208(a), I will not participate 
personally and substantially in any particular matter that has a direct 
and predictable effect on my financial interests or those of any person 
whose interests are imputed to me,. unless I first obtain a written 
waiver, pursuant to 18 U.S.C.  208(b)(1), or qualify for a regulatory 
exemption, pursuant to 18 U.S.C.  208(10)(2). I understand that the 
interests of the following persons are imputed to me: any spouse or 
minor child of mine; any general partner of a partnership in which I am 
a limited or general partner; any organization in which I serve as 
officer, director, trustee, general partner or employee; and any person 
or organization with which I am negotiating or have an arrangement 
concerning prospective employment.
    Within 90 days of my confirmation, my spouse and I will reduce our 
interests in Exxon Mobil and Johnson & Johnson sufficiently to allow my 
participation in matters of general applicability, consistent with 5 
CFA.  2640.202(c). We will divest enough shares of Exxon Mobil to 
reduce the value of our interest to no more than $20,000. We will 
divest enough shares of Johnson & Johnson to reduce the value of our 
interest to no more than $20,000, with the aggregate value of our 
interests in Johnson & Johnson, General Electric, and Pfizer being 
reduced to no more than $45,000. With regard to Exxon Mobil and Johnson 
& Johnson, I will not participate personally and substantially in any 
particular matter that has a direct and predictable effect on the 
financial interests of these entities until we have divested our 
interests to a value below the ceiling of the regulatory exemption 
allowing participation in matters of general applicability, unless I 
first obtain a written waiver, pursuant to 18 U.S.C.  208(b)(1). After 
these initial divestitures, I will monitor the values of my interests 
in these companies carefully to ensure that I remain eligible to 
participate in matters of general applicability affecting them.
    Moreover, if I rely on a de minimus exemption under 5 C.F.R.  
2640.202 with regard to any of my financial interests, I will monitor 
the value of all such interests. If the aggregate value of interests 
affected by a matter of general applicability increases and exceeds the 
de minimis threshold or if the value of an individual holding exceeds 
the de minimus threshold, I will not participate in the matter, unless 
I first obtain a written waiver under 18 U.S.C.  208(b)(1).
    My spouse is employed as an associate by the law firm Holland & 
Knight, LLP, from which he receives a fixed salary and an annual bonus. 
I will not participate personally and substantially in any particular 
matter that has a direct and predictable effect on my spouse's, 
compensation or employment with Holland & Knight, LLP, unless I first 
obtain a written waiver, pursuant to 1.8 U.S.C.  208(b)(1). I also 
will not participate personally and substantially in any particular 
matter involving specific parties in which the firm or any client of my 
spouse is a party or represents a party, unless I am first authorized 
to participate, pursuant to 5 C.F.R.  2635.502(d). In addition, for 
the duration of my appointment to the position of Assistant Secretary 
for Legislative and Intergovernmental Affairs, my spouse has agreed not 
to communicate with the Department of Commerce on behalf of the firm or 
any client.
            Sincerely,
                                              April S. Boyd

    Senator Dorgan. Ms. Boyd, thank you very much.
    Mr. Kerry, your entire statement will be made a part of the 
permanent record, as well as Ms. Abbott's when she testifies.

   STATEMENT OF CAMERON F. KERRY, GENERAL COUNSEL-DESIGNATE, 
                     DEPARTMENT OF COMMERCE

    Mr. Kerry. Thank you, Chairman Dorgan and Ranking Member 
Hutchison and Members of the Committee. I am honored to be here 
today, and I am humbled by the trust that President Obama and 
Secretary Locke are placing in me. I am grateful for this 
opportunity to serve the American people as General Counsel at 
the Department of Commerce.
    I am also very honored to join a distinguished group of 
lawyers from both parties who have held this post who have set 
the bar very high.
    I do want to thank my brother, Senator Kerry, for his very 
generous introduction today. Sometimes, between siblings, words 
like that do not come easily, so I am certainly enjoying the 
occasion. I think the Committee can rest assured that I will be 
very attentive to this body because if I am not, my big brother 
is going to beat me up.
    [Laughter.]
    Mr. Kerry. In truth, I have always looked up to my big 
brother because of the way that he has invested his life in 
public service, and I have seen up close the sacrifices that 
public servants, both elected officials and government workers, 
make and how hard they work. I am awed and humbled by their 
example and gratified by the opportunity to serve myself.
    I would like to take a moment to introduce to the members 
of the Committee who were not presented to my family earlier, 
my wife, Kathy Weinman. Kathy and I actually met here in the 
City of Washington as young associates at a law firm. This is 
where we fell in love. So this city has romantic associations 
for us. Since we have made our home in Boston, she has, as my 
brother mentioned, become a distinguished lawyer there and now 
heads the Boston Bar Association, which is the Nation's oldest. 
It was founded by John Adams.
    Our youngest daughter, Laura is keeping her college class 
schedule in Senator Snowe's State, but we are proud to have 
with us here my daughter Jessica as well.
    The Department of Commerce, as April Boyd has discussed, 
has a broad mandate of stewardship of knowledge, of innovation, 
and of economic growth. As the agency's chief legal officer, 
the General Counsel faces an array of complex problems from 
trade to climate science, to Internet technology, to fisheries, 
to intellectual property, among many others. And the General 
Counsel has to manage some 400 lawyers in 14 bureaus and face 
the difficult issues ahead immediately of the 2010 Census, the 
stimulus program, and patent reform.
    All this will be a challenge, but it is a challenge that I 
welcome. In 30 years as a regulatory lawyer, as a litigator, I 
have had to master a number of complex areas of the law from 
the time that I started practice here in Washington at Wilmer, 
Cutler as a communications and antitrust lawyer, to teaching 
communications at Suffolk Law School, to reaching beyond those 
boundaries to litigate complex cases in environmental cleanup 
and toxic torts, in insurance regulation, all of which demanded 
the mastery of expert witnesses in a variety of scientific and 
professional disciplines. And I have appeared in various 
jurisdictions not just in New England but around the country 
and here in the District of Columbia.
    So I come before you today with much to learn, but I 
believe also with the skill, the judgment, and the range to 
address the broad array of issues at the Department of 
Commerce. I plan to give this job every bit of energy, 
creativity, versatility, curiosity, and intellect that I can 
muster.
    As I do that, I will have the help of an experienced career 
staff. A law office depends on its intellectual capital, and 
that is something that the General Counsel's Office has in 
abundance.
    My goal, members of the Committee, if I am confirmed, is to 
make sure that this intellectual capital is harnessed in the 
service of economic recovery in the national task of creating 
jobs and economic growth. The lawyers of the Department can 
support that task by turning to it urgently with their most 
thorough analytical skills, their most creative imagination, 
and their most careful ethical judgment.
    If I am confirmed, I will also bring the experience--in 
politics and in my brother's national campaign. This has 
bearing because each of the members of this Committee and of 
this body knows well that campaigns are a crucible, and in some 
small measure, I have been through that crucible and had the 
opportunity to deal with national issues, to advise on national 
issues, and to have, as I have gotten to know the States of 
some of the members here, the opportunity to have some of the 
conversations you have had with people who wonder how they are 
going to be able to pass on to their children what our parents 
passed on to us.
    I believe I can be a better advisor to the Secretary, a 
better Counsel to the Department, and more attentive to the 
members of this body because of those experiences.
    This is an extraordinary time of challenge, a time to be in 
public service. I am honored to be asked to serve as General 
Counsel, and I am grateful for the opportunity not just to be 
here today but to the members who have shared their time, their 
insights on the issues before the Department of Commerce, and I 
hope that those conversations are just a beginning, that 
Secretary Locke and the Department of Commerce can look forward 
to a productive partnership with this Committee, with this body 
in the work of lifting the Nation out of its economic crisis 
and renewing prosperity and opportunity.
    I would be happy to answer any questions the Committee has.
    [The prepared statement and biographical information of Mr. 
Kerry follows:]

  Prepared Statement of Cameron F. Kerry, General Counsel-Designate, 
                         Department of Commerce
    Chairman Rockefeller, Senator Hutchison and Members of the 
Committee, thank you. I am honored to be here and humbled by the trust 
President Obama and Secretary Gary Locke are placing in me. I am 
grateful for the opportunity to serve the American people in the 
challenging post of General Counsel of the Department of Commerce.
    I am also honored by the chance to join the distinguished group of 
lawyers from both parties who have held the same post. They have set 
the bar high.
    I want to thank my brother for his generous introduction. Sometimes 
between siblings words like those don't come easily, so I certainly am 
enjoying the occasion. You can rest assured that I will always be 
attentive to this Committee.
    I have always looked up to my brother. He has invested his life in 
public service. Too many people put down elected officials, and 
government workers, too easily. But I have seen up close the sacrifices 
that public servants make and how hard they work. I am awed and humbled 
by their example, and gratified to have this opportunity to make some 
contribution myself.
    I'd like to take a moment to introduce my wife Kathy Weinman. We 
met and fell in love here in Washington as young associates at a law 
firm. Since we made our home in Massachusetts, she has become a leading 
litigator there and now serves as President of the Boston Bar 
Association, the Nation's oldest, founded by John Adams.
    Our youngest daughter Laura is keeping her college class schedule 
in Senator Snowe's state, but Kathy and I are proud to have with us 
today our other daughter Jessica.
    The Department of Commerce has a broad mandate for stewardship of 
knowledge, innovation, and economic growth. As the agency's chief legal 
officer and a counselor to the Secretary and other officers of the 
Department, the General Counsel faces an array of complex issues, from 
trade to the environment to Internet technology to intellectual 
property, among others. The General Counsel must manage some 400 
lawyers in 14 bureaus and divisions. Right away, the next General 
Counsel will face difficult and important issues arising from the 2010 
Census, the stimulus program, and patent reform.
    All this is will be a challenge, but it is a challenge I welcome. 
In my 30 years of practice as a regulatory lawyer and a litigator, I 
have had to master a number of diverse and complex areas of the law. I 
began practice here in Washington at Wilmer, Cutler & Pickering as a 
communications and antitrust lawyer. I broadened my communications 
practice when I returned to Boston and joined Mintz Levin, and also 
taught in this rapidly-changing field as an Adjunct Professor at 
Suffolk University Law School. But I have reached out beyond the 
boundaries of a single field of law to try challenging cases in areas 
such as environmental litigation, toxic torts, and insurance 
regulation. One of the demands of such cases was master expert 
testimony in a variety of scientific and professional disciplines. I 
have appeared in courts and agencies in most of the New England states 
as well as New York, Illinois, Florida, and here in the District of 
Columbia, among other venues. Though I have more to learn, I believe I 
come before you with the range, the skill, and the judgment to address 
the broad array of legal issues at the Department of Commerce.
    If confirmed, I will give this job every bit of energy, curiosity, 
creativity, versatility, and intellect I can muster. And I will have 
the help of a talented and experienced career staff. A law office 
depends on its intellectual capital--the store of the knowledge and 
experience of its professionals. This is one resource the Office of 
General Counsel, like much of the Department of Commerce, has in 
abundance.
    My goal if I am confirmed is above all to make sure this 
intellectual capital is fully harnessed in the service of economic 
recovery. The programs of the Department of Commerce are invaluable 
tools for the national task of creating jobs and jump-starting economic 
growth, and the lawyers of the Department can support this essential 
task by turning to it urgently with their most thorough analytical 
skills, their most creative imagination, and their most careful ethical 
judgment.
    I also bring with me my experience in politics and my brother's 
national campaign. It's relevant because, as each one of you knows 
well, campaigns are a crucible. And in some small measure, I have been 
through that crucible. I have been afforded the opportunity to grapple 
with and advise on a range of difficult national issues. I have been 
given the opportunity of getting to know many of your states, and 
having some of the same conversations you have had with people who 
wonder how they will be able to pass on to their children what our 
parents passed on to us. If I am confirmed, I will be a better adviser 
for the Department and the Secretary--and more attentive to members of 
this body--because of these experiences.
    This is a time of challenge such as few generations in American 
history have faced. This is a time to be in public service. I am 
honored that President Obama has asked me to serve as the General 
Counsel of the Department of Commerce, and I am ready to do so if I am 
confirmed.
    I am grateful for the opportunity to be here today, and grateful to 
members of this Committee and their staffs who have shared their 
insights on issues facing the Department. I hope our conversations are 
just a beginning, and that Secretary Locke and the Department of 
Commerce can look forward to a productive partnership with this 
Committee and the Congress in the work of lifting the Nation out of its 
economic crisis and restoring opportunity and confidence.
    I would be pleased to answer any questions.
                                 ______
                                 
                      a. biographical information
    1. Name (include any former names or nicknames used):

        Cameron F. Kerry (Cam Kerry).

    Position to which nominated: General Counsel, Department of 
Commerce.
    3. Date of Nomination: April 20, 2009 (expected).
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Mintz Levin Cohn Ferris Glovsky & Popeo. P.C., One 
        Financial Center, Boston, MA 02111.

    5. Date and Place of Birth; September 6, 1950; Washington, D.C.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    I am married to Kathy B. Weinman, who is a partner at Dwyer & 
Collora, LLP in Boston, MA. We have two daughters, Jessica Weinman 
Kerry, 23: and Laura Weinman Kerry, 19.
    7. List all college and graduate degrees. Provide year and school 
attended.

        Boston College Law School, 1975-78, J.D., magna cum laude.

        Harvard College 1968-72, B.A., cum laude in General Studies 
        (concentration in American History).

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Member, Mintz Levin Cohn Ferris Glovsky & Popeo, P.C., Boston, 
        MA (Associate, 1983-1987; Member 1987-present).

        Adjunct Professor, Suffolk University Law School, Boston, MA 
        (1997-2002).

        Associate, Wilmer, Cutler & Pickering, Washington, D.C. (1979-
        1982; on leave of absence 1982).

        Campaign Manager, John Kerry for Lieutenant Governor, Boston, 
        MA (1982).

        Law Clerk to Senior Judge Elbert P. Tuttle, U.S. Court of 
        Appeals for the Fifth Circuit, Atlanta, GA (1978-79).

        Summer Associate, Ropes & Gray, Boston, MA (Summer 1977).

        Intern, Massachusetts Executive Office Consumer Affairs, 
        Boston, MA (Summer 1976).

        Campaign Director, Paul Guzzi for Secretary of State, Newton, 
        MA (1973-74).

        Freelance Writer and Political Consultant, Cambridge, MA 
        (1973).

        Taxi Driver, Cambridge Yellow Cab, Cambridge, MA (part-time. 
        1973-74).

        Strategy Director, John Kerry for Congress, Lowell, MA (1972).

        (Because the position of General Counsel involves a wide range 
        of legal duties, I have highlighted all the full-time legal 
        positions as well as those positions that involved management-
        level jobs.)

    9. Attach a copy of your resume. Attached as Attachment A.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    Member, Civic Engagement Working Group, Massachusetts, Patrick-
Murray Transition Committee (December 2006).
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

    Employers

        Mintz Levin Cohn Ferris Glovsky & Popeo, P.C., Boston, MA, 
        Member of firm (April 1987 to present; Associate since 1983).

        Suffolk University Law School, Boston, MA, Adjunct Professor 
        (January 1997 to May 2002)

    Non-profit board memberships

        Citizen Schools Boston, Boston, MA, Council of Champions 
        Advisory Board Member (November 2006 to present).

        New England Nordic Skiing Association, New Gloucester, ME, 
        Member of Board of Directors (December 1999 to present)

        National Jewish Democratic Council, Washington, D.C., Vice-
        Chair (January 2008 to present); Executive Committee (January 
        2006 to February 2008): Board Member (February 2005t o 
        present).

    Law Firm Clients

        Adelphia Cable Communications, Coudersport, PA, outside 
        attorney (May-September 2005).

        Alticomm, Inc., Canton, MA, outside attorney (February 2001 to 
        May 2004).

        Comcast Corporation (and subsidiaries), Philadelphia, PA, 
        outside attorney (February 2002 to present).

        Coyote Springs investments LLC, Sparks, NV, outside attorney 
        (January 2005 to May 2007).

        Fibertech Networks, LLC, Rochester, NY, outside attorney (March 
        2001 to February 2005).

        Virginia Fruh, Newburyport, MA, outside attorney (January 2002 
        to present).

        Greater Boston Interfaith Organization, Boston, MA, outside 
        attorney (March 2006 to March 2008).

        The Hartford, Hartford, CT, outside attorney (April 2006 to 
        September 2007).

        Infinity Broadband Ltd., Grand Cayman, outside attorney 
        (November 2006 to May 2007).

        Inside Cable, Inc., Billerica, MA, outside attorney (June 2004 
        to present).

        Maurice Khawam, NexTFund Capital, Paris, France, outside 
        attorney (December 2006).

        Massachusetts Property Insurance Underwriting Association, 
        Boston, MA, outside attorney (July 1991 to present).

        MetroPCS Communications, Inc., Richardson, TX, outside attorney 
        (December 2008 to present).

        New England Sports Network, Watertown, MA, outside attorney 
        (March 1993 to present).

        New England Cable & Telecommunications Association, Braintree, 
        MA, outside attorney (June 1985 to July 2006).

        SAS Institute, Cary, NC, outside attorney (September 2007 to 
        March 2008).

        Terra Mark, LLC, Stamford, CT, outside attorney (January 2006 
        to January 2008).

        Time Warner Cable, Inc., New York, NY, outside attorney (July 
        1992 to present).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    A list of memberships is attached as Attachment B. It includes 
organizations such as public radio stations where ``membership'' 
involves primarily making a contribution but also provides some 
membership benefits such as a magazine subscription or a discount card, 
but does not include general contributions. To the best of my 
knowledge, none of these organizations restricts membership on the 
basis of sex, race, color, religion, national origin, age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has an outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Yes. During 2005, I was an active candidate for Secretary of the 
Commonwealth (Secretary of State) in Massachusetts but ended the 
candidacy when the incumbent decided not to run for other office. The 
campaign committee (The Cam Kerry Committee) has no outstanding debts.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    A list of such contributions since 1998 is attached as Attachment 
C. It includes contributions made by The Cam Kerry Committee, the 
Massachusetts political committee formed for the candidacy described in 
response to Question A.13.
    In 2003-04, I was a traveling surrogate and senior advisor to John 
Kerry for President, Inc. and the Democratic National Committee, in 
connection with which I also served as Co-Chair of Lawyers for John 
Kerry and Lawyers for Kerry-Edwards, and Chair of the Kerry-Edwards 
Middle East Advisory Committee. My expenses were paid.
    In 2006, I co-chaired Massachusetts Victory 2006, the coordinated 
campaign of the Massachusetts Democratic Party from March through 
November. This was a volunteer position.
    In 2008, from October to November I was senior advisor to the Ohio 
Campaign for Change, the Democratic coordinated campaign, working on 
voter protection. This was a volunteer position. I was also a member of 
the Obama National Finance Committee and New England Finance Committee, 
and a Chair of the New England Jewish Leadership Committee.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Fellow, American Bar Foundation.

        Honored by Mass Vote (voter engagement nonprofit) as a 
        ``Champion of Democracy'' (September, 2008).

        Cited by the National Press Photographers Association for 
        ``outstanding support in promoting and protecting the First 
        Amendment freedoms for working photojournalists with legal 
        action in America's courtrooms'' (July 1990).

        Order of the Coif.

        Executive Editor, Boston College Law Review (1977-78).

        Overall winner and winner of Best Speaker and Best Brief 
        awards, Grimes Moot Court Competition, Boston College Law 
        School (1978).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Publications
        Obama Is Calling to Jews, Jewish Telegraphic Agency (April 18, 
        2008).

        Unpacking the Massachusetts Preliminary Injunction Standard, 
        Massachusetts Law Review (Winter 2007).

        Contributor, Report and Recommendations, Civic Engagement 
        Working Group, Patrick-Murray Transition Committee (December 
        2006).

        Voting Made Easy, Boston Globe Op-Ed (Oct. 3, 2005).

        Counting Every Vote, Boston Globe Op-Ed (Jan. 6, 2005).

        Coordinating editor, Special Millennium Issue, The Constitution 
        in The 21st Century, 44 Boston Bar J. No. 1 (Jan. 2000) (a 
        collection of articles by judges and prominent BBA members on 
        current constitutional issues).

        Door Left Open For Operators to Sue for Access to Rights of 
        Way, 17 Cable TV & New Media Law & Finance 1 (Sept. 1999), with 
        Frank W. Lloyd and Scott A. Samuels (a note on a First Circuit 
        decision on provisions of the Telecommunications Act of 1996).

        Kumho Tire Widens The Gate, Toxic Torts & Environmental Law 
        (Summer, 1999)(analysis of Supreme Court decision on 
        admissibility standards for expert testimony under Fed. R. 
        Evid. 702).

        Feds Finding That Old Rules Don't Work on Net, Mass High Tech 
        (April 5-11, 1999) (reporting on communications regulation 
        issues affecting the Internet).

        A Sword And A Shield: The Effect of New Standards on Lead 
        Liability Litigation, in Conference Materials, Lead and the Law 
        Conference presented by IAQ Publications, Washington, D.C., and 
        conference presentation on Lead Exposure--A Critical 
        Examination of Legal, Medical, and Bureaucratic Models (March 
        1997) (analysis of the impact of HUD and EPA regulations on 
        liability standards in lead litigation).

        Playing The Odds in Lead Litigation, in Conference Materials, 
        Lead Tech Conference presented by IAQ Publications in 
        Arlington, Virginia, and conference presentation (Oct. 1996) 
        (statistical analysis of verdicts).

        A Statistical Analysis of Lead Litigation Verdicts, Mealey's 
        Litigation Reports--Lead (July 3, 1996 ) (same).

        Lanigan's Wake: Has a New Standard Emerged for Admitting 
        Scientific Evidence in Massachusetts Court? 40 Boston Bar, J. 8 
        (Jan.-Feb. 1996), with Andrew N. Nathanson (review and analysis 
        of Massachusetts SJC's adoption of Daubert standards in 
        Commonwealth v. Lanigan).

        Franchise Fees Enforcement Under The Cable Act: An FCC 
        Responsibility, 39 Fed. Communications Law J. 53 (1985), with 
        Frank W. Lloyd (analysis of Communications Act provisions and 
        FCC authority relating to local cable television franchise 
        fees).

        Principal author and editor, State and Municipal Regulation of 
        Cable Television, and editor, Federal Regulation of The Content 
        of Programming Originated by Cable Systems, in C. D. Ferris, F. 
        W. Lloyd & T. Casey, Cable Television Law (Matthew Bender & 
        Co., 1983 & Supps. 1984-96) (treatise chapters and periodic 
        updates on title subjects).

        Regulation of Internal Union Affairs--Access to the Union 
        Ballot Under the LMRDA; and Certification of a Discriminatory 
        Bargaining Representative--Bekins Overruled: Handy Andy, Inc., 
        in Annual Survey of Labor Relations and Employment 
        Discrimination Law, 18 Boston College L. Rev. 1045, 1090 (1977) 
        (notes on NLRB decisions).

        Note, Advertising of Prescription Drug Prices as Protected 
        Commercial Speech--Virginia State Board of Pharmacy v. Virginia 
        Citizens Consumer Council, Inc., 18 Boston College L. Rev. 276 
        (1997) (a comment on First Amendment standards of review 
        applicable to commercial speech).
Professional Lectures and Presentations
        Panelist, Review of the 2008 Election And Its Impact on 
        Telecommunications, Boston University College of Communications 
        and Federal Communications Bar Association New England 
        (November, 2008).

        Colloquium Presentation, Economic Warfare on the Internet: The 
        Case of The 2004 Presidential Election, Ecole de Guerre 
        Economique, Paris, France (April 2007, in French).

        Guest Lecturer, Telecommunications Regulation in the United 
        States, Masters in Telecommunications Law Program, Universidad 
        Pontificia de Las Comillas de Madrid/ICADE Madrid, Spain (May 
        1999).

        Program Chair, The 1996 Telecommunications Act: A Guide to The 
        Changing Landscape, Conference presented by Massachusetts 
        Telecommunications Council and Mintz Levin Cohn Ferris Glovsky 
        & Popeo, P.C. (January 1999).

        Conference Presentation, Sources and Impact of Lead: An Update 
        of Environmental Factors, Lead Tech Conference presented by IAQ 
        Publications, Inc., Baltimore, Maryland (October 1998).

        Conference Presentation, Lead and the Law Conference presented 
        by IAQ Publications, Baltimore, Maryland (May, 1998).

        Conference Presentation, Mealey's Publications National Lead 
        Litigation Conference, Philadelphia, Pennsylvania (April 1998).

        Chair, Mealey's Dauber and Expert Admissibility Conference, 
        Philadelphia, Pennsylvania (October 1997).

        Program Faculty, New Opportunities in The Changing 
        Communications Industry, Suffolk University Law School Advanced 
        Legal Studies Program (April 1997).

        Co-Chair, Mealey's Publications National Lead Litigation 
        Conference, Philadelphia, Pennsylvania (May 1996).

        Co-Chair, Mealey's Publications National Lead Litigation 
        Conference, Philadelphia, Pennsylvania (May 1995).

        Panelist, Massachusetts Property Insurance Underwriting 
        Association Seminar on Lead Poisoning Claims and Litigation, 
        Braintree, MA (June 1994).

        Panelist, Coping with the Cable Television Consumer Protection 
        and Competition Act of 1992, New England Cable Television 
        Association (January 1993).

        Panelist, Massachusetts Property Insurance Underwriting 
        Association Seminar on Lead Poisoning Claims and Litigation, 
        Braintree, MA (November 1992).

        Lecturer, Discovery and Investigation of Sources of Exposure 
        and Causes of Injuries, Mealey's Publications Nationaf lead 
        litigation Conference, Philadelphia, Pennsylvania (May 1992).

        Panelist, How to Try a Lead Poisoning Case, Massachusetts 
        Continuing Legal Education Program (February-March, 1992).

        Panelist, Waste Disposal Liability Workshop, Massachusetts 
        Municipal Association, Westborough, MA (November, 1986).

        In addition to these individually-identified presentations or 
        lectures, I have regularly appeared as a panelist on current 
        regulatory developments at semiannual conferences of the New 
        England Cable & Telecommunications Association; on similar 
        topics at occasional other cable television trade association 
        or continuing legal education conferences; and at Mintz Levin 
        presentations for clients and others on communications 
        regulation, litigation, and environmental exposure issues.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    In June 1986, as counsel for Grant Gear Works, Inc., I appeared 
before the Senate Committee on Environment and Public Works in 
connection with testimony given by John F. Hurley, President of Grant 
Gear Works, Inc. on CERCLA (Superfund) liability standards.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    The Department of Commerce has a broad and diverse portfolio. It 
calls for a General Counsel who is able to bring judgment and facility 
to a range of complex and often novel problems. That has been the 
nature of my practice in my 30 years as a litigator and regulatory 
lawyer at leading law firms in Boston and Washington.
    Trial practice has demanded accelerated and intensive mastery of 
changing subjects and fact patterns, from remediation of PCB pollution 
to the epidemiology of lead poisoning to environmental insurance 
coverage to telecommunications inter-carrier billing to hurricane 
modeling (among others). At the same time, my continuous years of 
practice as well as my teaching in communications law has grounded me 
in issues of technology, regulation, and competition that are central 
to the role of the Department in promoting innovation and broadband 
development.
    More specifically, my work in this field familiarizes me with the 
industry and issues that are front and center in the National 
Telecommunications and Information Administration's work as it oversees 
the digital transition and distribution of stimulus funds for broadband 
development. This familiarity with technology, with electronic 
communications, and with communications networks carries over into the 
work of the Bureau of Industry and Security (cyber-security and 
privacy), trade promotion in the International Trade Administration (e-
commerce and privacy), and the National Institute of Standards and 
Technology (standards). I understand the importance and challenges of 
these sectors to the future of the American economy because they have 
been part of my working life for 30 years.
    In addition to this specific involvement in technology and 
telecommunications, my practice has given me tools to deal with the 
more general role of the Department of Commerce in the promotion of 
science and stewardship of the environment. Although I pursued a 
training in the liberal arts, I have found that my work using or 
challenging expert witnesses and applying the Supreme Court's decision 
in Daubert v. Merrell Dow Pharmaceuticals Corp. On the admissibility of 
seientific evidence has demanded an understanding of science and 
scientific method. In the course of my practice, disciplines I have had 
to cope with include accountants, actuaries, economists, engineers, 
epidemiologists, hydrogeologists, metallurgists, meteorologists, 
neuropsychologists, occupational therapists, pediatricians, and 
toxicologists. Most recently, work on insurance regulation involving 
hurricane risk has delved into catastrophe models based on extensive 
hurricane data developed by the National Hurricane Center of the 
National Weather Service.
    My legal experience and judgment is informed both by my 
representation of clients in the private sector and by my involvement 
in national and state politics. From my clients, I have an appreciation 
of the needs and interests of the Department's business stakeholders, 
and of the frustration they sometimes have with government. At the same 
time, my involvement in politics has engaged me with communities, 
issues, and people outside the usual confines of law practice, and 
deepened my understanding of the issues that America and its people 
face. Political campaigns are a form of conversation between government 
and the people. I will be a better adviser for the Department and the 
Secretary because I have been part of this conversation.
    My work in the political arena reflects my abiding concern for 
public issues and government. Even though I have spent much of my 
career in the private sector, I regard public service as the highest 
calling. This is a time of challenge such as few generations in 
American history have faced. It is a time to be in public service. I am 
honored that President Obama has asked me to serve in the job of 
General Counsel at the Department of Commerce, and I am ready to do so.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The most important management responsibilities of the Office of 
General Counsel, both as counselor to the Secretary of Commerce and 
secretarial officers and as the chief legal officer for the 
Department's operating units, are to anticipate risks that may develop 
into legal problems and to ensure compliance with the Department's 
legal authorities. This responsibility calls above all for a high 
standard of legal judgment and--through leadership and engagement, 
clear communications and accountability--creating a culture within all 
of the Department's legal offices that fosters the exercise of such 
judgment in all their work.
    The direct staff of the Office of General Counsel is comparable to 
(and in some eases smaller than) staffs I have run for cases or clients 
or in political campaigns. The advisory role for the Secretary is 
similar to the roving advisory role I had in the Presidential campaign 
of 2004, where I was able to leverage a similarly-scaled personal staff 
to work with a variety of operating units in a variety of roles. Having 
handled the challenges of that role gives me confidence I am capable of 
the job of General Counsel of Commerce.
    A critical element in managing an organization of any scale is 
seeing that the right people are in the right jobs. I have found that 
people I myself have hired or selected for jobs have generally 
succeeded in those jobs. I believe that judgments I have made about 
people associates, partners, assistants, campaign staff, opposing 
counsel, witnesses--more often than not have proved out over time. 
Recognizing and recruiting talented personnel in the Commerce 
Department's legal offices will be key to success as General Counsel.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The Department of Commerce has a key role in promoting knowledge, 
innovation, and economic growth across many economic sectors. This role 
is essential in these challenging economic times when job creation must 
be job one. Within this broad frame, here are three immediate 
challenges that the Department has thrust on it:

        First and foremost is to focus the Department's mission on the 
        critical task of economic recovery and job creation. This 
        challenge is urgent and will be overriding for the foreseeable 
        future. The programs of the Department of Commerce are key 
        tools for the Nation's task of creating jobs and jump-starting 
        economic growth, and the Department needs to make the most of 
        these tools by ensuring that the priorities of each operating 
        unit put recovery and job creation first.

        Second, the Department is entrusted with specific 
        responsibilities under the American Recovery and Reinvestment 
        Act that require immediate and concentrated attention. These 
        include in particular preparing for $4.7 billion in wireless 
        and broadband infrastructure grants by the National 
        Telecommunications and Information Administration, as well as 
        for research, for construction, and for development grants by 
        the National Institute of Standards and Technology, the 
        National Oceanic and Atmospheric Administration, and the 
        Economic Development Administration (which the 2010 budget 
        proposal increases). The Department needs to make sure these 
        funds are used quickly, fairly, and effectively to meet the 
        goals of the Act.

        Third, the Department has only a short time to complete its 
        ramp-up to the 2010 census. The Inspector General's September 
        2008 Report to Congress identifies this as ``the most 
        significant challenge facing the Department,'' and the 
        Government Accountability Office has placed the census on its 
        list of high-risk programs. At this stage, much of the planning 
        and procurement for the 2010 census has already been set by the 
        systems, technology and personnel in place during the planning 
        since the 2000 census. Nevertheless, the Department still has 
        to put more than one million Americans to work on the census. 
        This important task presents a challenge to hire, train, and 
        manage such a large number of temporary employees and conduct 
        outreach in the very near future.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Please see Schedule C, Part II of my financial disclosure report.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with an business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Over the course of the nomination process, I have consulted with 
the Department of Commerce's designated agency ethics official and the 
Office of Government Ethics to identify potential conflicts of interest 
and have entered into an ethics agreement with the Department's 
designated agency ethics official. Any potential conflicts of interest 
will be resolved in accordance with the terms of this agreement. I am 
not aware of any other potential conflicts of interest.
    4. Describe an business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    A list of employers and of clients I have represented in the past 5 
years is included in my response to Question A.11. Organizations and 
clients that might present a conflict of interest have been disclosed 
to the Office of Government Ethies and to the Department of Commerce 
designated agency ethics official.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    During this time, I have not engaged in any such activity that 
would trigger registering as a lobbyist under Federal or state law. In 
the course of my law practice, I have represented clients in 
adjudicatory proceedings, rulemakings, and policy advocacy before the 
Federal Communications Commission and state and local regulatory bodies 
in Massachusetts, New Hampshire, New York, and Rhode Island, as well as 
in judicial review of agency decisions.
    In addition, I have been involved since 2005 as a citizen in 
seeking the passage of legislation to permit Election Day registration 
in Massachusetts. As a member of the Massachusetts bar, I have 
participated from time to time in lobbying days for legal services 
funding. As Co-Chair of Lawyers for John Kerry, I have organized public 
advocacy for the Federal Count Every Vote Act and opposition to the 
nomination of Samuel Alito to be a Supreme Court Justice. In a broad 
sense, most of my political involvement in this period has sought to 
affect the administration and execution of law and public policy.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In addition to the specific steps detailed in the ethics agreement, 
I will consult with ethics officials of the Department of Commerce to 
resolve any potential ethics issues that may arise.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense'? If so, please explain.
    In 1972, to considerable notoriety, Thomas J. Vallely (later 
elected to the Massachusetts Legislature) and I were arrested in 
Lowell, Massachusetts on the eve of a Congressional primary in the 
basement of a building that contained the telephone junction box for 
our campaign headquarters--and also the headquarters of another 
candidate. We were arrested and charged with breaking and entering in 
the nighttime with intent to commit a felony. After a probable cause 
hearing in Lowell District Court, the matter was bound over to a grand 
jury in Middlesex County, Massachusetts. The grand jury returned an 
indictment on the same charge. Following arraignment in Middlesex 
County Superior Court, the case was continued without a finding (with 
no admissions), and dismissed on the prosecution's motion in 1973.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    In 1991, I was the named defendant and gave deposition testimony in 
a personal injury claim in Manhattan County, New York alleging that a 
car registered in my name was involved in hit-and-run accident. The 
case was dismissed on summary judgment in 1995 based on evidence that I 
was at my office in Boston on the day in question, that the car in 
question was in its garage at home and that, while my ear was a red 
subcompact, the car in the accident was described as white and mid-
sized.
    In 1986, I was sued in Superior Court for Suffolk County, 
Massachusetts, in my capacity as an escrow agent for proceeds from the 
liquidation of assets of a closed corporation of which a client was one 
of two 50-percent shareholders. These funds were held in escrow pending 
agreement on the distribution of these proceeds. When no agreement was 
reached, the other shareholder, represented by my co-escrow agent, 
brought suit against my client and me. The case was resolved with an 
agreement between the shareholders on distribution of the funds at 
issue.
    In 1986, I was the petitioner in an administrative proceeding 
before the Board of Appeal of the Massachusetts State Merit Rating 
Board to challenge a Safe Driver Program Insurance Plan surcharge. The 
surcharge was deleted.
    In 1978, I was a party to a landlord-tenant proceeding before the 
Cambridge, Massachusetts Rent Control Board arising from my withholding 
rent based on a furnace defect and the landlord in turn commencing 
eviction. The matter was resolved by agreement.
    In 1976, I was one of several defendants in a defamation action in 
Middlesex Superior Court that was dismissed on summary judgment. The 
action arose out of the 1975 city election in Cambridge. Members of an 
organization for which I was consulting received information that 
absentee ballot fraud was taking place in certain precincts. Based on 
this information, I was one of several people who challenged all 
absentee ballots cast in those precincts. An election inquest 
subsequently determined that ballot fraud had taken place, and at least 
one candidate involved was prosecuted and disqualified from office. 
Another candidate who was not involved later sued everyone who 
challenged ballots, claiming that we defamed him by challenging ballots 
in precincts where his support was concentrated. Summary judgment was 
granted in 1977 on the grounds that the communication was privileged.
    In 1971, I was a plaintiff in an action in District Court in Ayer, 
Massachusetts to rescind a contract I made while still a minor for the 
purchase of a car from Union Square Motors of Somerville. The action 
was settled.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    No. Although my law firm has been named as a defendant in such 
matters, these are not cases in which I was personally involved or 
implicated.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees?
    Yes. I will work with management of the Department of Commerce to 
help this and other Congressional committees fulfill their 
responsibilities for legislation and oversight.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures?
    Yes. It is a specific responsibility of the Office of General 
Counsel, working with the Assistant Secretary for Administration, to 
ensure that witnesses and whistleblowers are not subject to retaliatory 
action. As someone who has been engaged in First Amendment matters and 
represented the plaintiff in a whistleblower case, I take this 
responsibility seriously.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                      Attachment A (Question A-9)
                       resume of cameron f. kerry
Curriculum Vitae
        Business Address: One Financial Center, Boston, MA 02111; 701 
        Pennsylvania Avenue, NW, Washington, DC 20004
Professional Background
        Member, Mintz Levin Cohn Ferris Glovsky & Popeo, P.C., One 
        Financial Center, Boston, MA. Practice before state and Federal 
        courts, administrative agencies, and municipal boards in 
        litigation and regulatory law, with emphasis on communications, 
        environmental, and toxic tort law. Member of American 
        Arbitration Association mediation panel. Associate since 1983. 
        Member since April 1987.

        Adjunct Professor, Suffolk University Law School, Boston, MA. 
        1997 to 2002, part-time. Professor in telecommunications law, 
        covering regulation, the 1996 Telecommunications Act and First 
        Amendment issues in broadcasting, cable television, and 
        telephony.

        Associate, Wilmer, Cutler & Pickering, Washington, D.C. October 
        1979 to November 1982, Trial, agency, and appellate litigation 
        of antitrust, communications, and First Amendment matters; 
        antitrust counseling; practice before the Federal 
        Communications Commission, (On leave of absence to manage a 
        political campaign 1/82-11/82.)

        Law Clerk to Senior Judge Elbert P. Tuttle, U.S. Court of 
        Appeals for the Fifth Circuit, Atlanta, GA. August 1978 to 
        August 1979. Drafted and edited opinions and wrote bench 
        memoranda for cases in Fifth and Ninth Circuits and for Special 
        Master's Report in Arizona v. California (Supreme Court, Orig. 
        No. 8).

        Member of the Boston Bar Association (current Steering 
        Committee of Civil Rights/Civil Liberties Committee); 
        Massachusetts Bar Association; Federal Communications Bar 
        Association (current Steering Committee, New England Chapter; 
        Co-Chair, New England Chapter 2001-2003), and American Bar 
        Association (Litigation, Communications Law, Administrative 
        Law, Antitrust, and Tort and Insurance Practice sections); 
        Defense Research Institute (Co-Chair, Publications Subcommittee 
        of Committee on Toxic Tort and Environmental Litigation, 1999-
        2000); International Bar Association (1999-2003).

        Admitted to practice: Massachusetts (1978); District of 
        Columbia (1979); United States District Court for the District 
        of Columbia (1980); United States Court of Appeals for the D. 
        C. Circuit (1980); United States District Court for the 
        District of Massachusetts (1983); United States Court of 
        Appeals for the Second Circuit (1983); United States Court of 
        Appeals for the Sixth Circuit (1996); U.S. Supreme Court 
        (1998); United States Court of Appeals for the First Circuit 
        (2000).
Educational Background
        Boston College Law School 1975-78, J.D., magna cum laude. 
        Executive Editor, Boston College Law Review, 1977-78, Best 
        Speaker, Best Brief and Finals Winner, Grimes Moot Court 
        Competition (1977), Order of the Coif.

        Harvard College 1968-72, B.A., cum laude in General Studies 
        (concentration in American History). Member, Student Advisory 
        Board, John F. Kennedy Institute of Politics, 1971-72. 
        President, Harvard-Radcliffe Young Democrats, 1970-71. Skiing 
        Team, 1968-69.
Professional Lectures and Presentations
        Various presentations at communications industry conferences, 
        1989-present.

        Panelist, Review of the 2008 Election And Its Impact on 
        Telecommunications, Boston University College of Communications 
        and Federal Communications Bar Association New England 
        (November 2008).

        Colloquium Presentation, Economic Warfare on the Internet: The 
        Case of The 2004 Presidential Election, Ecole de Guerre 
        Economique, Paris, France (April 2007, in French).

        Guest Lecturer, Telecommunications Regulation in the United 
        States, Masters in Telecommunications Law Program, Universidad 
        Pontificia de Las Comillas de Madrid/ICADE, Madrid, Spain (May 
        1999).

        Program Chair, The 1996 Telecommunications Act: A Guide to The 
        Changing Landscape, Conference presented by Massachusetts 
        Telecommunications Council and Mintz Levin Cohn Ferris Glovsky 
        & Popeo, P.C. (January 1999).

        Conference Presentation, Sources and Impact of Lead: An Update 
        of Environmental Factors, Lead Tech Conference presented by IAQ 
        Publications, Inc., Baltimore, Maryland (October 1998).

        Conference Presentation, Lead and the Law Conference presented 
        by IAQ Publications, Baltimore, Maryland (May 1998).

        Conference Presentation Mealey's Publications National Lead 
        Litigation Conference, Philadelphia, Pennsylvania (April 1998).

        Chair, Mealey's Daubert and Expert Admissibility Conference, 
        Philadelphia, Pennsylvania (October 1997).

        Program Faculty, New Opportunities in The Changing 
        Communications Industry, Suffolk University Law School Advanced 
        Legal Studies Program (April 1997).

        Co-Chair, Mealey's Publications National Lead Litigation 
        Conference, Philadelphia, Pennsylvania (May 1996).

        Co-Chair, Mealey's Publications National Lead Litigation 
        Conference, Philadelphia, Pennsylvania (May 1995).

        Panelist, Coping with the Cable Television Consumer Protection 
        and Competition Act of 1992, New England Cable Television 
        Association (January 1993).

        Lecturer, Discovery and Investigation of Sources of Exposure 
        and Causes of Injuries, Mealey's Publications National Lead 
        Litigation Conference, Philadelphia, Pennsylvania (May 1992).

        Panelist, How to Try a Lead Poisoning Case, Massachusetts 
        Continuing Legal Education Program (February and March 1992).
Publications
        Obama Is Calling to Jews, Jewish Telegraphic Agency (April 18, 
        2008).

        Unpacking the Massachusetts Preliminary Injunction Standard, 
        Massachusetts Law Review (Winter 2007).

        Contributor, Report and Recommendations, Civic Engagement 
        Working Group, Patrick-Murray Transition Committee (December 
        2006).

        Voting Made Easy, Boston Globe Op-Ed (Oct. 3, 2005).

        Counting Every Vote, Boston Globe Op-Ed (Jan. 6, 2005).

        Coordinating editor, Special Millennium Issue, The Constitution 
        in The 21st Century, 44 Boston Bar J. No. 1 (Jan. 2000) (a 
        collection of articles by judges and prominent BBA members on 
        current constitutional issues).

        Door Left Open for Operators to Sue for Access to Rights of 
        Way, 17 Cable TV & New Media Law & Finance 1 (Sept. 1999), with 
        Frank W. Lloyd and Scott A. Samuels (a note on a First Circuit 
        decision on provisions of the Telecommunications Act of 1996).

        Kumho Tire Widens The Gate, Toxic Torts and Environmental Law 
        (Summer, 1999) (analysis of last year's U.S. Supreme Court 
        decision on admissibility standards for expert testimony under 
        Fed. R. Evid. 702).

        Feds Finding That Old Rules Don't Work on Net, Mass High Tech 
        (April 5-11, 1999)(reporting on communications regulation 
        issues affecting the Internet).

        A Sword And A Shield: The Effect of New Standards on Lead 
        Liability Litigation, in Conference Materials, Lead and the Law 
        Conference presented by IAQ Publications, Washington, D.C., and 
        conference presentation on Lead Exposure--A Critical 
        Examination of Legal, Medical, and Bureaucratic Models (March 
        1997) (analysis of the impact of HUD and EPA regulations on 
        liability standards in lead litigation).

        Playing The Odds in Lead Litigation, in Conference Materials, 
        Lead Tech Conference presented by IAQ Publications in 
        Arlington, Virginia , and conference presentation (Oct. 1996) 
        (statistical analysis of verdicts).

        A Statistical Analysis of Lead Litigation Verdicts, Mealey's 
        Litigation Reports--Lead (July 3, 1996) (same).

        Lanigan's Wake: Has a New Standard Emerged for Admitting 
        Scientific Evidence in Massachusetts Court? 40 Boston Bar, J.8 
        (Jan.-Feb. 1996), with Andrew N. Nathanson (review and analysis 
        of the SJC's adoption of Daubert standards in Commonwealth v. 
        Lanigan).

        Franchise Fees Enforcement Under The Cable Act: An FCC 
        Responsibility, 39 Fed. Communications Law, J. 53 (1985), with 
        Frank W. Lloyd (analysis of Communications Act provisions and 
        FCC authority relating to local cable television franchise 
        fees).

        Principal author and editor, State and Municipal Regulation of 
        Cable Television, and editor, Federal Regulation of The Content 
        of Programming Originated by Cable Systems, in C. D. Ferris, F. 
        W. Lloyd and T. Casey, Cable Television Law (Matthew Bender & 
        Co., 1983 & Supps. 1984-96) (treatise chapters and periodic 
        updates on title subjects).

        Regulation of Internal Union Affairs--Access to the Union 
        Ballot Under the LMRDA: and Certification of a Discriminatory 
        Bargaining Representative--Bekins Overruled: Handy Andy, Inc., 
        in Annual Survey of Labor Relations and Employment 
        Discrimination Law, 18 Boston College L. Rev. 1045, 1090 (1977) 
        (notes on NLRB decisions).

        Note, Advertising of Prescription Drug Prices as Protected 
        Commercial Speech--Virginia State Board of Pharmacy v. Virginia 
        Citizens Consumer Council, Inc., 18 Boston College L. Rev. 276 
        (1997) (a comment on First Amendment standards of review 
        applicable to commercial speech).
Professional Awards and Honors
        Fellow, American Bar Foundation.

        Listed in ``Who's Who in America.''

        Honored by Mass Vote voter engagement nonprofit as a ``Champion 
        of Democracy'', (September 2008).

        Cited by the National Press Photographers Association in 1990 
        for ``outstanding support in promoting and protecting the First 
        Amendment freedoms for working photojournalists with legal 
        action in America's courtrooms.''
Political Background
        Member, Obama for America National Finance Committee and New 
        England Steering Committee; Chair, New England Jewish Community 
        Leadership Committee; and Senior Adviser to Ohio Campaign for 
        Change Voter Protection Team, 2008.

        Member, Civic Engagement Working Group, Patrick-Murray 
        Transition Committee. November 2006-January 2007. Conducted 
        public meetings and developed policy proposals to expand 
        citizen participation in state government and engagement in 
        Massachusetts communities.

        Co-Chair, Massachusetts Victory 2006. 2006. Led successful 
        joint campaign on behalf of Democratic ticket leading to 
        election of Deval L. Patrick as Governor of Massachusetts.

        Prospective Candidate for Secretary of The Commonwealth of 
        Massachusetts. 2005. Assembled campaign for putatively open 
        seat and terminated candidacy when incumbent chose to run for 
        re-election.

        Senior Advisor, John Kerry for President. 2002-2004. Diverse 
        roles as member of campaign leadership, traveling surrogate, 
        and fundraiser.

        Senior Advisor, John Kerry for U.S. Senate, Boston, 
        Massachusetts. 1984, 1990, 1996 and 2002 campaigns.

        Campaign Manager, John Kerry for Lieutenant Governor, Boston, 
        Massachusetts. January 1982-November 1982.

        Self-Employed Political Consultant, Cambridge, Massachusetts. 
        January-October, 1975. Consulted on communications and 
        fundraising for local political campaigns and organizations.

        Campaign Director, Paul Guzzi for Secretary of State, Newton, 
        Massachusetts. November 1973-November 1974.

        Strategy Director, John Kerry for Congress, Lowell, 
        Massachusetts. April-November, 1972.

        Field Director and Communications Director, Chester Atkins for 
        State Representative, Concord, Massachusetts. July-November, 
        1970.

        Regional Coordinator, Joseph Bradley for Congress, Newton, 
        Massachusetts. July-September, 1968.

        Full-Time Volunteer and Office Manager, The Vietnam Summer 
        Project, Cambridge, Massachusetts. June-September, 1967. Local 
        community organizing project on Vietnam War canvassing, local 
        referendum signature drive.
Other Employment
        Freelance Writer and Political Consultant, Cambridge, 
        Massachusetts. January 1973-November 1973. Articles published 
        in Boston Phoenix; direct mail and display advertising.

        Taxi Driver, Cambridge Yellow Cab, Cambridge, Massachusetts. 
        August 1973-January 1974 (part-time).
Other Activities
        Council of Champions, Citizen Schools, 2006-present, member; 
        Vice-Chair, National Jewish Democratic Council, 2008-present 
        and Board Member, 2005-present: Chair, Boston College Law 
        School Class of 1978 25th Reunion, 2002-04; New England Nordic 
        Skiing Association, 1999-present, board member; Writing Coach. 
        Citizen Schools 8th Grade Academy, 2001-03; Boston Police 
        Foundation, 1995-2000, board member and Clerk; Brookline Soccer 
        Club and Brookline Youth Soccer, 1993-2002, coach; Brookline 
        Democratic Town Committee; competitor active in endurance 
        sports (Gold Medalist, 2001 National Master's Cross-Country Ski 
        Championship, Men's Relay, Age 50-55).

        Married to Kathy B. Weinman, 1983. Two children: Jessica (b. 
        1986) and Laura (b. 1990).
                                 ______
                                 
                      Attachment B (Question A-12)

                       Organizational Memberships
------------------------------------------------------------------------
         Organization               Dates              Positions
------------------------------------------------------------------------
American Bar Association        1998-present
American Bar Foundation         2005-present  Fellow
American Cross-Country Skiers   1998-2001
American Civil Liberties Union  1998-present
Anti-Defamation League          2001-present
Appalachian Mountain Club       1998-present
Boston Bar Association          1998-present  Section Steering Committee
                                               2007-present
Boston College Law School       1998-present  Major Gifts Committee,
 Alumni Association                            2002-2003
Brookline Soccer Club           1999-2002     Coach
Brookline Greenspace Alliance   1998-present
Brookline Democratic Town       1998-present
 Committee
Cambridge Sports Union          1998-present
Charles River Wheelmen          2005-present
Defense Research Institute      1997-2001     Co-Chair, Publications
                                               Subcommittee, Committee
                                               on Toxic Tort and
                                               Environmental Litigation
Emerald Necklace Conversancy    2000-present
Environmental League of MA      1998-present
Federal Communications Bar      1998-present  New England Chapter Co-
 Association                                   Chair 2001-03; Steering
                                               Committee 2007-08
Friends of the Arnold           1998-present
 Arboretum
Friends of the Muddy River      1998-present
High Street Hill Association    1998-present  Board of Directors, 1995-
                                               96
Massachusetts Audubon Society   2003-2007
Massachusetts Bar Association   1998-present
Massachusetts Horticultural     1999-2003
 Society
National Jewish Democratic      2005-present  Board of Directors, 2005-
 Council                                       present; Executive
                                               Committee 2006-07; Vice-
                                               Chair 2008-present
New England Nordic Skiing       1998-present  Board of Directors, 1999-
 Association                                   present
Supreme Court Historical        1999-2000
 Society
Temple Israel, Boston           1998-present
WBUR                            1998-present
WGBH                            1998-present
USA Track & Field               1998-2000
------------------------------------------------------------------------

                      Attachment C (Question A-14)

                         Political Contributions
------------------------------------------------------------------------
 
------------------------------------------------------------------------
                                  1998
------------------------------------------------------------------------
Harshbarger for Governor (MA)                                    1,500
Lois Pines Election Committee (MA Attorney General)                500
Shannon O'Brien for Treasurer (MA)                                 500
Warren Tolman for Lt. Governor (MA)                                500
Friends of Harry Reid (NV, Federal)                                500
Schumer '98 (NY, Federal)                                        1,000
Tierney for Congress (MA, Federal)                                 500
------------------------------------------------------------------------
                                  1999
------------------------------------------------------------------------
Kennedy for Senate (Federal)                                       500
Friends of Wade Sanders (CA, Federal)                            1,000
------------------------------------------------------------------------
                                  2000
------------------------------------------------------------------------
Martha Coakley Committee (MA, District Attorney)                   500
Gore 2000, Inc. (Presidential)                                   1,000
Gore-Lieberman GELAC (Federal)                                     500
Licht 2000 Committee Senate (RI, Federal)                          500
Kennedy For Senate (MA, Federal)                                 1,000
------------------------------------------------------------------------
 
                                  2001
------------------------------------------------------------------------
Friends of Carl Levin (MI, Federal)                                500
John Kerry Committee (MA, Federal)                               1,000
The Markey Committee (MA, Federal)                                 500
------------------------------------------------------------------------
                                  2002
------------------------------------------------------------------------
James Segel for Treasurer (MA)                                     500
O'Brien for Governor (MA)                                          500
Chris Gabrieli for Lt. Governor (MA)                               500
John Kerry for President, Inc. (Federal)                         1,000
New Hampshire Senate 2002 (Federal)                                500
------------------------------------------------------------------------
                                  2003
------------------------------------------------------------------------
John Kerry for President, Inc. (Federal)                         1,000
James Segel for Treasurer (MA)                                     500
Leahy for U.S. Senator Committee (VT, Federal)                     500
Kennedy for Senate (MA, Federal)                                 1,250
------------------------------------------------------------------------
                                  2005
------------------------------------------------------------------------
Kennedy for Senate (MA, Federal)                                   850
Kathleen Sebelius Committee (KS, state)                            500
Harold Ford for Tennessee (TN, Federal)                            500
Allen for Congress (ME, Federal)                                   500
Stabenow for U.S. Senate (MI, Federal)                             500
Chet Culver Committee (IA Governor)                                500
Bob Casey for PA (PA Senate, Federal)                              500
Friends of Chairman McAuliffe ( Federal)                           500
Friends of Hillary (NY, Federal)                                 1,000
------------------------------------------------------------------------
                                  2006
------------------------------------------------------------------------
Granholm for Governor (MI, state)                                1,000
Tierney for Congress (MA, Federal)                                 500
Keeping America's Promise (Federal PAC)                          2,000
Kendrick Meek Campaign for Congress (FL, Federal)                  500
Perlmutter for Congress (CO, Federal)                              500
Klein for Congress (FL, Federal)                                   500
Patrick Murray Victory Fund (MA)                                 2,500
Cahill for Treasurer (MA)                                          500
Paul Hodes for Congress (NH, Federal)                            1,550
Friends of Sherrod Brown (OH, Federal)                           1,000
Barney Frank for Congress (MA, Federal)                            500
Democratic Congressional Campaign Committee                      2,500
Tim Murray for Lt. Governor (MA)                                   500
The Deval Patrick Committee (MA Governor)                          500
------------------------------------------------------------------------
                                  2007
------------------------------------------------------------------------
Powers for Congress                                              1,500
Barney Frank for Congress (MA, Federal)                            500
Niki Tsongas Committee (MA, Federal)                             2,300
Footlik for Congress (IL, Federal)                               1,000
The Reed Committee (RI, Federal)                                   500
Katherine Clark for State Rep (MA, state)                          500
John Kerry for Senate (MA, Federal)                              2,300
Paul Hodes for Congress (NH, Federal)                            1,000
The Martha Coakley Committee (MA Attorney General)                 500
Jeanne Shaheen for Senate (NH, Federal)                          1,300
Friends of Max Baucus (MT, Federal)                                500
Al Franken for Senate (MN, Federal)                                500
Tom Allen for Senate (ME, Federal)                               1,500
MA Democratic State Committee (State Account)                    1,500
Democratic Senate Campaign Committee                             5,000
Democratic National Committee                                    2,500
The Deval Patrick Committee (MA Governor)                          500
------------------------------------------------------------------------
                                  2008
------------------------------------------------------------------------
We The People PAC (Federal)                                        500
Obama for America (Federal)                                      2,300
Udall for Us All (NM, Federal)                                     500
Democratic National Committee                                    2,500
Courtney for Congress (CT, Federal)                                500
Patrick Murphy for Congress (PA, Federal)                          500
Tom Allen for Senate                                               500
Al Franken for Senate (MN, Federal)                                500
Massachusetts Democratic Party (Federal)                           500
Obama Victory Fund (Federal)                                     7,500
Jeanne Shaheen for Senate (NH, Federal)                          1,500
Jeff Merkley for Oregon (OR, Federal)                            1,000
Friends of Senator Carl Levin (MI, Federal)                        500
Musgrove for U.S. Senate (MS, Federal)                             500
The Coakley Committee (MA, AG)                                     500
Cahill for Treasurer (MA)                                          500
The Deval Patrick Committee (MA Governor)                          500
Franken Recount Fund (MN Federal)                                  500
Katherine Clark for State Rep. (MA)                                500
------------------------------------------------------------------------
                      The Cam Kerry Committee--2006
------------------------------------------------------------------------
Committee to Re-elect Governor Baldacci (ME, state)                500
Massachusetts Victory '06 (Federal account)                      1,000
Midwest Values PAC (MN, state)                                   1,000
Paul Aronson for Congress (NJ, state)                            1,000
The Chet Culver Committee (IA, state)                              500
Democratic Congressional Campaign Committee                      1,000
Vote Vets (Federal PAC)                                            500
New Hampshire Democratic Party (Federal account)                 1,000
Friends of Sherrod Brown (OH, Federal)                           1,000
Paul Hodes for Congress (NH, Federal)                            1,000
Friends of Jim Marshall (GA, Federal)                              500
Meeks for Congress (NY, Federal)                                 1,000
------------------------------------------------------------------------
                      The Cam Kerry Committee--2007
------------------------------------------------------------------------
Footlik for Congress (IL, Federal)                               1,000
Massachusetts Democratic Party (Federal account)                 1,000
Niki Tsongas Committee (MA, Federal)                             1,000
Re-Elect McGovern Committee (MA, Federal)                          500
Lautenberg for Senate (NJ, Federal)                              1,000
------------------------------------------------------------------------
                      The Cam Kerry Committee--2008
------------------------------------------------------------------------
Klein for Congress (FL, Federal)                                   500
Powers for Congress (NY, Federal)                                1,000
Hillary Clinton Debt Retirement Fund (Federal)                   1,000
Massachusetts Democratic Party (Federal account)                 1,000
Martin for Senate (GA, Federal)                                    500
Shulman for Congress (NJ, Federal)                                 500
Rural Votes (Federal PAC)                                          500
------------------------------------------------------------------------


               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell [presiding]. Thank you, Mr. Kerry. Thank 
you for your testimony, and welcome to your wife. Thanks for 
coming back to Washington, D.C. Thanks to both of you for Mr. 
Kerry's willingness to serve.
    So, Ms. Abbott, would you like to make a statement?

                STATEMENT OF SHERBURNE B. ABBOTT

          ASSOCIATE DIRECTOR OF ENVIRONMENT-DESIGNATE

            OFFICE OF SCIENCE AND TECHNOLOGY POLICY

               EXECUTIVE OFFICE OF THE PRESIDENT

    Ms. Abbott. Thank you, Madam Chairman. If the Committee 
will indulge me, I will introduce my family in waves because 
there are several here.
    Thank you, Senator Hutchison, for your kind remarks of 
introduction and other members of the Committee.
    I am honored to appear before you as President Obama's 
nominee for Associate Director for Environment of the Office of 
Science and Technology Policy within the Executive Office of 
the President. If confirmed, I look forward to working with all 
of you to support and improve our Nation's environmental 
science and technology efforts.
    My presence here today represents a journey in science and 
the natural world that began with a little girl's curiosity. It 
was guided by a crew of mentors and was shored up by the 
support of family and friends. Some of my fondest childhood 
memories were of walks with my brother in the woods of New 
England, discussions with my grandfather and father, both 
engineers, about the power of technology, and talks with my 
mother and grandmothers about the improbable women scientists 
who are nested in our family tree. I am grateful to introduce 
my father, my mother, my brother at this moment.
    Along the way to the present, I have been privileged to 
encounter some remarkable educators and practitioners who 
shaped my view of science and public service, from a high 
school physics teacher who danced on lab tables to show that 
science had a human side, to Nobel Laureates who used their 
celebrity to promote hands-on science teaching across the 
globe, and to many individuals all over the world who volunteer 
their time in pursuit of international scientific cooperation 
so the benefits of their knowledge accrue to everyone.
    For the final and central leg of the journey to this table, 
I have been accompanied by my husband whose intellect and 
integrity I admire more with each day and by my kids whose 
future on this planet and the planet of the future is what our 
work is about. Jim Steinberg and Emma and Jenna Steinberg.
    Senator Cantwell. Welcome to all of you.
    Ms. Abbott. Thank you.
    I am hoping that if confirmed by the Senate, I can draw 
from these lessons of optimism and opportunity to refine our 
national strategy for environmental research and development 
with the primary goal of moving the Nation toward a clean 
energy economy and on a path toward sustainability. This is the 
vision President Obama and the Director of OSTP, Dr. John 
Holdren, have presented to the Nation and to you and one that I 
enthusiastically share.
    I am currently a faculty member and Director of the Center 
for Science and Practice of Sustainability at the University of 
Texas at Austin. I work with all departments and colleges to 
build university-wide research and education programs focused 
on sustainability issues. These efforts and others like it in 
higher education institutions are breaking down the barriers 
between the academic disciplines and between scholarship and 
practice. They are building new, integrative, and 
interdisciplinary problem-solving approaches to the complex 
concerns of environment and development. They call for 
rethinking the ways we teach, the ways we support research, and 
the ways we partner with the private sector and other 
stakeholders.
    Most important, they are revealing that we no longer have 
to choose between the economy and the environment. Providing 
energy that is reliable, affordable, and clean will have the 
intended and added benefits of reducing the emissions that 
contribute to global climate change, as well as create jobs and 
reduce our dependence on foreign oil.
    Considering the challenges ahead on all fronts of the 
economy and environment where science matters, OSTP has an 
opportunity to help produce information and analysis that 
contributes both to the resolution of the environmental issues 
of today and to the better management of natural resources for 
future generations. Though climate change is at the center of 
these discussions, we cannot overlook the quality of our air 
and watersheds, the toxins in our soil and foods, the 
conditions of our forests and oceans, and the diversity of life 
that inhabits our planet. Tomorrow's celebration of Earth Day 
provides a well-timed reminder of this.
    For the past 25 years, I have worked at the intersection of 
science and public policy on environmental issues ranging from 
global climate change to regional issues of high latitudes, to 
the health of marine mammal populations and fisheries. I 
believe that science should inform our decisions. Therefore, I 
believe we need strong and balanced Federal research programs 
that support the promising areas of R&D that contribute to 
understanding and solving these environmental concerns. There 
are substantial tools at our disposal and enormous talent 
across our Nation. We must find imaginative ways to better 
deploy the tools and bring new perspectives and experience to 
the challenges facing our Government. We also need to reach out 
to communicate findings and warnings in ways that build 
confidence in our ability to protect the health and the safety 
of the public, as well as preserve and restore the ecosystems 
on which their livelihoods depend.
    If confirmed by the Senate, I look forward to working with 
the exceptional science and environment team assembled by 
President Obama, with the Congress, and particularly with the 
members of this Committee on the environmental challenges and 
opportunities facing our Nation. I am grateful for the courtesy 
shown by your staff over the past several weeks and I look 
forward to continuing and deepening our discussions.
    I will be pleased to try to answer any questions that you 
may have.
    [The prepared statement and biographical information of Ms. 
Abbott follows:]

Prepared Statement of Sherburne B. Abbott, Associate Director-Designate 
       of Environment, Office of Science and Technology Policy, 
                   Executive Office of the President
    Mr. Chairman, Senator Hutchison, and distinguished Members of the 
Committee, I am honored to appear before you as President Obama's 
nominee for Associate Director for Environment of the Office of Science 
and Technology Policy (OSTP) within the Executive Office of the 
President. If confirmed, I look forward to working with all of you to 
support and improve our Nation's environmental science and technology 
efforts.
    My presence here today represents a journey in science and the 
natural world that began with a little girl's curiosity. It was guided 
by a crew of mentors, and was shored up by the love and support of 
family and friends. Some of my fondest childhood memories are of walks 
with my brother in the woods and salt marshes of New England, 
discussions with my grandfather and father, both engineers, about the 
power of technology, and talks with my mother and grandmothers about 
women's roles and the improbable women scientists who are nested in our 
family tree. I am grateful that my family is here with me today.
    Along the way to the present, I have been privileged to encounter 
some remarkable educators and practitioners who shaped my view of 
science and public service--from researchers who took time from field 
studies to bestow their passion for nature on young children like 
myself (at the time) at a summer science school; to a high school 
physics teacher who danced on lab tables to show that science had a 
human side; to college professors who offered flexible labs so 
students, including myself, did not have to choose between majoring in 
biology and playing competitive sports; to Nobel laureates who used 
their celebrity to promote ``hands on'' science teaching across the 
globe; and to many individuals all over the world who volunteer their 
time in pursuit of international scientific cooperation so the benefits 
of their knowledge accrue to everyone.
    For the final and central leg of the journey to this table I've 
been accompanied by my husband whose intellect and integrity I admire 
more with each day, and by my kids whose future on this planet and the 
planet of the future is what our work is about.
    I am hoping that if confirmed by the Senate, I can draw from these 
lessons of optimism and opportunity to refine our national strategy for 
environmental research and development, with the primary goal of moving 
the Nation toward a clean energy economy and on a path toward 
sustainability. This is the vision President Obama and the Director of 
OSTP, Dr. John Holdren, have presented to the Nation and to you, and 
one that I enthusiastically share.
    I am currently a faculty member and director of the Center for 
Science and Practice of Sustainability at the University of Texas at 
Austin. I work with all departments and colleges to build university-
wide research and education programs focused on sustainability issues. 
These efforts and others like it in higher education institutions are 
breaking down the barriers between the academic disciplines and between 
scholarship and practice. They are building new, integrative and 
interdisciplinary problem-solving approaches to the complex concerns of 
environment and development. They call for rethinking the ways we 
teach, the ways we support research, and the ways we partner with the 
private sector and other stakeholders.
    Most important, they are revealing that we no longer have to choose 
between the economy and the environment. Providing energy that is 
reliable, affordable, and ``clean'' will have the intended and added 
benefits of reducing the emissions that contribute to global climate 
change, as well as create jobs and reduce our dependence on foreign 
oil.
    Considering the challenges ahead on all fronts of the economy and 
environment where science matters, OSTP has an opportunity to help 
produce information and analysis that contributes both to the 
resolution of the environmental issues of today and to the better 
management of natural resources for future generations. Though climate 
change is at the center of these discussions, we cannot overlook the 
quality of our air and water sheds, the toxins in our soil and foods, 
the conditions of our forests and oceans, and the diversity of life 
that inhabits our planet. Tomorrow's celebration of Earth Day provides 
a well-timed reminder.
    For the past 25 years I have worked at the intersection of science 
and public policy on environmental issues ranging from global climate 
change, to regional issues of the high latitudes, to the health of 
marine mammal populations and fisheries. I believe science should 
inform our decisions. Therefore, I believe we need strong and balanced 
Federal research programs that support the promising areas of R&D that 
contribute to understanding and solving these environmental concerns. 
There are substantial tools at our disposal and enormous talent across 
our Nation. We must find imaginative ways to better deploy the tools, 
and bring new perspectives and experience to the challenges facing our 
government. We also need to reach out and communicate findings and 
warnings in ways that build confidence in our ability to protect the 
health and safety of the public, as well as preserve and restore the 
ecosystems on which their livelihoods depend.
    If confirmed by the Senate, I look forward to working with the 
exceptional science and environment team assembled by President Obama, 
with the Congress, and particularly with the members of this Committee 
on the environmental challenges and opportunities facing our Nation. I 
am grateful for the courtesy shown by your staff over the past several 
weeks, and I look forward to continuing and deepening our discussions.
    I will be pleased to try to answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (include any former name or nicknames used):

        Sherburne Bradstreet Abbott.

    2. Position to which nominated: Associate Director for Environment, 
Office of Science and Technology Policy.
    3. Date of Nomination: March 10, 2009.
    4. Addresses (List current place of residence and office 
addresses):

        Residence: Information not released to the public.

        Office: University of Texas at Austin, 1 University Station, 
        Austin, TX 78712.

    5. Date and Place of Birth: December 8, 1955; Brookline, MA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: James Braidy Steinberg, Dean, University of Texas at 
        Austin; children: Jenna Yuanye Steinberg (age 6); Emma Lingling 
        Steinberg (age 4).
    7. List all college and graduate degrees. Provide year and school 
attended.

        Yale University, School of Forestry and Environmental Studies, 
        August 1982 to June 1984, Master of Forest Science.

        Goucher College, September 1973 to June 1977, Bachelor of Arts.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

    January 2006 to Present--Director, Center for Science and Practice 
of Sustainability, Office of the Executive VP and Provost, University 
of Texas at Austin, Austin, TX.

        Established center to build university-wide research and 
        education programs focused on sustainability issues, and 
        managed administrative research, and graduate research staff 
        members. Co-chair UT President's Task Force on Sustainability, 
        which develops university policies to promote environmental 
        stewardship and sustainability.

    March 2003 to December 2005--Chief International Officer, American 
Association for the Advancement of Science, Washington, D.C.

        Managed programs to reflect the professional society's 
        international interests in science and technology policy and 
        managed administrative and research staff. Established an 
        interdisciplinary center to advance science and innovation for 
        sustainability.

    April 2000 to November 2007--Consultant. Worked with the World Bank 
(2001-2002; 2007) the Environmental Defense Fund (2002-2003), The 
Brookings Institution (2002), the John D. and Catherine C. Rockefeller 
Foundation (2001), the David and Lucille Packard Foundation (2000-
2001), and The National Academies' National Research Council (2000-
2001).

        Provided advice on environmental research, science and 
        technology policy, and educational programs.

    January 1998 to July 2000--Executive Director, Board on Sustainable 
Development, The National Academies' National Research Council, 
Washington, D.C.

        Led advisory committees that reviewed and made recommendations 
        on science and technology programs for sustainable development 
        and a decadal research plan for the U.S. Global Change Research 
        Program.

    August 1992 to December 1996--Director, Committee on International 
Organizations and Programs, The National Academies' National Research 
Council, Washington, D.C.

        Managed the U.S. program to support scientific planning and 
        coordination efforts of the International Council for Science 
        and other international scientific and engineering 
        organizations, focusing on S&T policies, environmental research 
        and science education.

    May 1989 to August 1992--Director, Polar Research Board, The 
National Academies' National Research Council, Washington, D.C.

    Supervised a wide-ranging advisory structure for Arctic and 
Antarctic S&T policy and research, including international committees.

    December 1986 to April 1989--Assistant Scientific Program Director, 
U.S. Marine Mammal Commission, Washington, D.C.

        Oversaw research program and provided analyses of science and 
        policy issues bearing on the conservation and protection of 
        marine mammals and their marine and coastal habitat.

    June 1984 to December 1986--Program Officer, Polar Research Board, 
The National Academies' National Research Council.

        Managed projects on Antarctic environmental research issues and 
        Arctic science and technology policy.

    September 1980 to June 1982--Science Teacher, Buckingham Brown and 
Nichols Upper School, Cambridge, MA.

        Designed and taught a course on environmental science and 
        taught biology.

    September 1977 to August 1980--Laboratory Assistant, Tufts 
University School of Medicine, Boston, MA.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        City of Austin, Community Advisory Committee, Austin Climate 
        Protection Program (2008-2009).

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        2006 to Present--Director, Center for Science and Practice of 
        Sustainability, University of Texas at Austin.

        May 2007 to November 2007--Consultant, The World Bank.

        2003 to 2005--Chief International Officer, American Association 
        for the Advancement of Science.

        2005--Treasurer, Leonard Rieser Interciencia Endowment Fund.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Member, American Association for the Advancement of Science 
        (2003-Present).

        Contributing Editor, Environment, Heldref Publications (2001-
        Present) (unpaid).

        Member, Priority Area Assessment Panel on Capacity Building in 
        Science, International Council for Science (2004-2005).

        Member, Lady Bird Johnson Wildlife Center (2006-Present).

        Member, Austin Children's Museum (2006-Present).

        Member, Austin Historical Society (2006-Present).

        None of these organizations restricts membership on the basis 
        of sex, race, color, religion, national origin, age, or 
        handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Dodge Fellow in Human-Animal Ecology (1983-1984).

        W. Alton Jones Foundation Fellowship (Summer 1983).

        Cash Award for Exceptional Service, U.S. Marine Mammal 
        Commission (December 1988).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

    Publications:

        ``The Dawn of an Urban Millennium,'' Review article, Editor's 
        Picks, Environment (September/October 2008).

        ``A Contract with the Earth,'' by Newt Gingrich and Terry L. 
        Maple, Johns Hopkins University Press, Baltimore, MD, 2007, 256 
        pp. Book review, Books of Note, Environment (July/August 2008).

        Abbott, S.B. and W.S. Benninghoff, 1990. Orientation of 
        environmental change studies to the conservation of Antarctic 
        ecosystems. In: Antarctic Ecosystems, K.R. Kerry and G. Hempel 
        (eds), Springer-Verlag, Berlin, Germany.

        National Academies' Publications (authored with others):

        Board on Sustainable Development, 1999. Our Common Journey: A 
        Transition Toward Sustainability. National Academy Press, 
        Washington, D.C.

        Committee on Global Change Research, 1999. Global Environmental 
        Change: Research Pathways for the Next Decade. National Academy 
        Press, Washington, D.C.

        Committee on Global Change Research, 1998. Global Environmental 
        Change: Research Pathways for the Next Decade: Overview. 
        National Academy Press, Washington, D.C.

        Polar Research Board, 1993. Arctic Contributions to Social 
        Science and Public Policy. National Academy Press, Washington, 
        D.C.

        Polar Research Board, 1991. Opportunities and Priorities in 
        Arctic Geoscience. National Academy Press, Washington, D.C.

        Polar Research Board, 1986. Recommendations for a U.S. Ice 
        Coring Program. National Academy Press, Washington, D.C.

        Polar Research Board, 1986. Antarctic Treaty System: An 
        Assessment. Proceedings of a Workshop Held at Beardmore South 
        Field Camp, Antarctica, January 7-13, 1985. National Academy 
        Press, Washington, D.C.

        Polar Research Board, 1985. National Issues and Research 
        Priorities in the Arctic. National Academy Press, Washington, 
        D.C.

        U.S. Antarctic Report to the Scientific Committee on Antarctic 
        Research (Numbers 32, 31, 30, 27, 26) 1989-1991, 1985-1987. 
        National Academy Press, Washington, D.C.

    Speeches:

        ``Environmental Trends and Sustainability Challenges,'' 
        November 18, 2008, Fire Protection Research Foundation, 
        Washington, D.C.

        ``Sustainability: To Lead or LEED?,'' September 9, 2008, 
        Compass 2008, University of Texas at Austin.

        The Buzz and the Biz of Sustainability,'' October 29, 2008, 
        Houston State Community College, Houston, Texas.

        ``The Buzz and the Biz of Sustainability,'' May 27, 2008, 
        National Institute for Staff and Organizational Development, 
        Austin, Texas.

        ``University Sustainability: From Ideas to Actions,'' April 29, 
        2008, Texas Association of Physical Plant Administrators, 
        Austin, Texas.

        ``The Promise and Practice of Sustainability Science,'' 
        February 27, 2008, University of Texas Mexican Universities' 
        North American Conference, Mexico City, Mexico.

        ``The Challenge of Institutionalizing Sustainability Research 
        and Education Programs in Higher Education,'' September 1, 
        2007, Engineers Workshop, Austin, Texas.

        ``Science and Technology in the Americas,'' March 24, 2006, S&T 
        Policy in the Americas Conference, UT Mexican Center, Austin, 
        Texas.

        ``Scientist-Practitioner Dialogue: Lessons for the Arab 
        Region,'' April 16, 2005, Arab Region Roundtable on Harnessing 
        Science, Technology, and Innovation for Sustainability, Dubai, 
        UAE.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Our Nation confronts great challenges of economic and national 
security, environmental quality, and health that also present 
opportunities where science and technology can and will play an 
essential role. The White House Office of Science and Technology 
Policy's (OSTP) mission is to ensure that policies, budgets and 
partnerships advance the full capabilities of science, technology and 
innovation across all sectors, both public and private, to confront 
these challenges and seize the opportunities. The OSTP advises the 
President on the effects of science and technology on domestic and 
international affairs and coordinates the research and development 
necessary to harness the power of science and technology to improve the 
quality of life for the American people. With respect to the 
environment, the OSTP ensures a sound scientific and technical 
underpinning for policy formulation and an interagency research and 
development strategy for environment and natural resource issues.
    I have spent most of my professional life at the crossroads of 
science and policy that intersects with OSTP's mission, with an 
emphasis on efforts that reach across the boundaries of knowledge to 
solve problems of environment and development. I have worked on 
environmental issues, ranging from global concerns about climate change 
and sustainability, to regional issues of the high latitudes or marine 
mammals and fisheries, to local considerations of ecosystem management 
and biodiversity protection. Over the past 25 years, I have held 
executive or senior positions in higher education (the University of 
Texas at Austin), non-profit scientific institutions (the National 
Academies and the American Association for the Advancement of Science), 
and government (the U.S. Marine Mammal Commission). Most of this work 
involved interdisciplinary environmental research planning and 
education.
    While working at the National Academies, I directed studies that 
advised the government on science and technology for sustainability, 
global environmental change, polar research, and international science 
and organizations. These studies produced consensus reports and other 
documents on setting priorities for research. While serving as Chief 
International Officer of the American Association for the Advancement 
of Science, I forged relationships not only across the scientific 
disciplines, but across the continents to develop new approaches to 
environmental research focused on the challenges of sustainability. 
These efforts required extensive knowledge of Federal environmental R&D 
programs and coordination and communication with Federal agencies, the 
scientific community and the private sector. In addition, my academic 
background in environmental science, with a master's degree from Yale 
University, and an undergraduate degree in biological sciences from 
Goucher College, along with my more recent appointment at the 
University of Texas at Austin, provides the scholarly tools and 
substantive context to address the broad range of environmental issues 
that hinge on strong environmental R&D programs.
    I feel that serving as the Associate Director for Environment of 
the Office of Science and Technology Policy would be a tremendous 
opportunity to work with the science community, the agencies and the 
Congress to improve Federal environmental science and technology 
programs. Considering the challenges ahead on all fronts of the economy 
and environment where science matters, the OSTP has an opportunity to 
help produce scientific information and knowledge for the Congress and 
other decisionmakers in the public and private sectors that contribute 
both to the resolution of the complex environmental issues of today and 
the better management of natural resources for future generations.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The OSTP works on behalf of the American people to advise the 
President, and therefore, must establish management and accounting 
controls that uphold public scrutiny. First and foremost, if confirmed 
by the Senate, I will do this by working with the OSTP Director to 
attract a first-class professional staff with expertise and experience 
appropriate to the priorities of the office, whether they come from 
outside the government or are detailed from other government 
departments. Second, I will assure that we establish effective 
procedures for personnel management and accounting, and respond to all 
reporting requirements in a timely manner.
    I have managed professional and administrative staff in almost 
every position I have held for the past 25 years, and I have always 
established clear lines of communication and authority to assure that 
there is full understanding of the responsibilities of each employee to 
fulfill their duties and to adhere to all rules and regulations of the 
parent organization. As a principal officer of the National Academies 
and the American Association for the Advancement of Science, I had 
fiduciary responsibility for my office or department and developed 
accounting procedures and conducted business audits to carry out that 
responsibility. I also served as the principal investigator on several 
million-dollar Federal agency contracts and grants over this period. I 
assured that the work was performed within the terms of the award and 
within budget.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The most important task facing the Office of Science and Technology 
Policy is to help the Administration, the Congress and the public get 
the best outcomes from the wise use of science and technology. This 
requires policies that deploy science and technology to its full extent 
for the health and security of the Nation's economy, its environment 
and its citizens. It also requires policies for security, economy, 
health and the environment that are built on sound scientific 
foundations.
    The first challenge that the Office of Science and Technology faces 
is how to meet the diverse and extensive responsibilities in assisting 
the development of these policies without adequate resources. The most 
important lever will be human capital--recruiting talented personnel to 
work with the Administration and Congress on priority areas and 
developing an efficient and outcome-driven interagency process for 
guiding policy development. Beyond sharing personnel, a strong 
interagency mechanism has the advantage of leveraging resources for 
developing joint initiatives to address priorities.
    The second challenge is establishing effective networks across the 
White House--especially with the Office of Management and Budget, the 
National Security Council, and the National Economic Council--and 
across the agencies and the Congress to address the priority issues. 
Without productive working relationships that engage all stakeholders 
across the government and the Congress, the Office of Science and 
Technology Policy cannot do its job of establishing policies for 
science and technology or helping to build the base of science and 
technology knowledge with which to shape national policy.
    The third challenge is how best to use science and technology to 
promote human well-being and security while protecting the 
environment--the challenge of sustainability. The pursuit of human 
well-being is no longer a choice between economic prosperity or 
environmental protection. Science and technology are engines of 
economic prosperity, tools for peace, and implements for advancing 
environmental knowledge. The challenge the Office of Science and 
Technology Policy faces is to find new ways of addressing all three 
issues (economy, security and environment) simultaneously to promote 
sustainability. This will require working across fields, across 
sectors, and across departments, and with the Congress to develop 
policies and programs for advancing our understanding of problems of 
the environment and sustainability and to find solutions.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    None, consistent with my SF-278 and ethics agreement. I have the 
following (defined contribution) retirement accounts:

        TIAA--Traditional Annuity

        Vanguard 500 Index

        TIAA-CREF Global Equities

        TIAA-CREF International Equity

        TIAA-CREF International Equity Index

        TIAA-CREF Stock

        TIAA-CREF Growth

        TIAA-CREF Equity Index

        University of Texas Saver TSA 403(b) Fidelity Balanced

        University of Texas Saver DCP-457(b) Fidelity Balanced

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    None. Per my ethics agreement, I will take a leave of absence from 
the University of Texas at Austin and am resigning my unpaid position 
with Heldref Publications.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Office of Science and 
Technology Policy's designated agency ethics official to identify 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of an ethics agreement 
that I have entered into with the Office's designated agency ethics 
official.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Office of Science and 
Technology Policy's designated agency ethics official to identify 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of an ethics agreement 
that I have entered into with the Office's designated agency ethics 
official.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have not personally been engaged in any activity for the purpose 
of directly or indirectly influencing the passage, defeat, or 
modification of any legislation or affecting the administration and 
execution of law or public policy. However, I was associated with the 
American Association for the Advancement of Science, which did work on 
behalf of unfettered climate and health research, enhancing the United 
States' innovation potential, and Federal R&D budget issues. While I 
was employed by the organization, I did not personally advocate any 
positions on these or other issues of science and technology policy.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Office of Science and 
Technology Policy's designated agency ethics official to identify 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of an ethics agreement 
that I have entered into with the Office's designated agency ethics 
official.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should he disclosed in 
connection with your nomination.
    I am not aware of any additional information that should he 
disclosed in connection with my nomination.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees?
    Yes, I will ensure that all deadlines are met.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures?
    Yes, I will ensure that OSTP protects Congressional witnesses and 
whistleblowers from reprisal for their testimony and disclosures.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?
    Yes, I will cooperate fully with the Committee in providing 
witnesses, technical experts, and career employees.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    Yes, I am willing to appear and testify before any duly constituted 
committee of Congress if requested.
                                 ______
                                 
                 resume of sherburne bradstreet abbott
    Environmental scientist with 25 years of experience in research 
planning, assessment, education, and policy related to, and 
communicating about, human development and the environment. Held senior 
positions in higher education, non-profit institutions and government 
and developed an extensive network of high-level scientists and 
officials within the national and international community. Directed 
studies of science and technology for sustainability, global 
environmental change, polar research, and international science and 
organizations that produced consensus reports and documents on setting 
priorities for research and on building the capacity of international 
organizations to link scientific and technical knowledge with decision-
making. Routinely invited to make presentations at major national and 
international conferences and events to promote the flow of innovative 
ideas and solutions to problems of globalization, sustainability and 
conservation of planetary resources.
Professional Experience
    (January 2006-Present) Director, Center for Science and Practice of 
Sustainability, Office of the Executive VP and Provost; Faculty, 
College of Liberal Arts, University of Texas at Austin. Austin, TX. 
Direct program on sustainability science and policy that builds 
university-wide multidisciplinary approaches to problems of environment 
and development. The Center is developing a 2050 Initiative to promote 
research and innovation related to sustainability within the state, the 
Nation and the global community. Co-chair the President's Task Force on 
Sustainability, which was established to recommend policies and actions 
recognizing the university's commitment to sustainability and 
environmental stewardship. Additional activities include: lecturer in 
the Liberal Arts Honors Program, faculty panel member, Bridging 
Disciplines Program on Environment; Faculty Cluster on Science, 
Technology and Development Policy, Teresa Lozano Long Institute for 
Latin American Studies.

    (March 2003-December 2005) Chief International Officer, American 
Association for the Advancement of Science, Washington, D.C.--the 
largest general science organization in the world, with over 120,000 
members in 130 countries, and publisher of Science magazine. Directed 
the AAAS Office of International Initiatives (approximately $1.3 
million of activity and small staff), and designed and established the 
AAAS Center for Science, Innovation and Sustainability. Served as 
senior manager responsible for promoting AAAS leadership 
internationally, providing the central point of contact with senior 
representatives of international scientific and technical organizations 
and programs; developing and coordinating international programs to 
advance concerns of science education and careers, science and 
technology policy, and scientific communication, including promoting 
international participation in Science magazine; performing internal 
management functions, and working with other senior managers to 
implement overall goals of the professional society.

        Established new center to advance science and technology for 
        sustainability, build scientific capacities of developing 
        countries to address the challenges of sustainable development 
        and strengthen the links between science, engineering and 
        development. Awarded $350K grant hunt the National Science 
        Foundation for a review of an international research institute 
        promoting regionally and policy relevant research on global 
        environmental change in the Americas.

        Developed a 5-year strategic plan to improve international 
        scientific cooperation and build global work forces to respond 
        to the challenges of sustainable development, and secured 
        funding for new projects. Managed approximately $2M National 
        Science Foundation-supported program on Women's International 
        Scientific Cooperation that provided some 400 grants to 
        increase the participation of U.S. women scientists in 
        international scientific collaboration.

        Raised the profile of AAAS at major international meetings and 
        events in Europe, Japan, China and the Middle East through 
        speaking engagements, media interviews and proposed 
        collaborative projects.

    1999-Present Consultant.

        Contributed to the World Bank's 2007 Global Forum: Building 
        Science, Technology and Innovation Capacity for Sustainable 
        Growth and Poverty Reduction, and wrote summary of session on 
        gender and development for the proceedings volume.

        Assisted the President of the Brookings Institution 
        (Washington, D.C.) in developing an initiative on science and 
        technology policy for economic and national security.

        Evaluated the Environmental Science Program of the 
        Environmental Defense Fund (New York, NY).

        Conducted research, analysis and writing for the World Bank in 
        preparation of its World Development Report 2003 on 
        Transforming Growth: Neighbor, Nature, Future.

        Carried out research and analysis on the governance of science 
        in service of the poor and excluded for the Rockefeller 
        Foundation's Global Inclusion Program.

        Conducted research for the David and Lucile Packard Foundation, 
        suggesting a rationale and grantmaking strategy for an 
        initiative in conservation and sustainability science, and 
        assessing research needs to meet objectives for grantmaking in 
        fisheries, land management and energy.

        Assisted the National Academies' Coordinating Committee for a 
        Sustainability Transition in developing a long-term program of 
        work and governance structure for the Academies in science, 
        engineering and health for sustainable development.

    (1996-2000) Executive Director, Board on Sustainable Development, 
National Academies (National Academy of Sciences, National Academy of 
Engineering and Institute of Medicine), Washington, D.C. Managed 
oversight board of 25 members (leading scholars in natural and social 
sciences, former CEOs of Fortune 500 companies, former cabinet 
secretary and senior government officials, directors of research and 
policy institutions, university president) and subcommittees in 
conducting studies for U.S. Government agencies and private 
foundations. Directed the Sustainability Transition Study, Private 
Sector Initiatives in sustainable development and the Global Change 
Research Program.

        Sustainability Transition Study assessed trends in social 
        development and environmental change, threats to global 
        sustainability and methods for analysis of possible future 
        development pathways and their implications for sustainability. 
        Undertaken over 4 years, involved the integration of 
        commissioned research, workshop findings and summer studies. 
        Produced the path-breaking report Our Common Journey: A 
        Transition Toward Sustainability, which proposes a strategy for 
        using scientific and technical knowledge to better inform 
        future action in the areas of energy and materials use, 
        fertility reduction, urban systems, agricultural production, 
        ecosystem restoration and biodiversity conservation, including 
        a research agenda for sustainability science and an action 
        agenda to link science and technical innovation with 
        internationally sanctioned goals for meeting human needs, 
        preserving the planet and reducing hunger and poverty. Report 
        used as framework for symposium on challenges for science and 
        humanity in the 21st Century; an institution-wide focus on the 
        transition to sustainability announced by the presidents of the 
        National Academy Sciences, Institute of Medicine, and National 
        Academy of Engineering; an international conference and 
        consensus statement of 63 academies of science on the 
        transition to sustainability; and an emerging international 
        initiative that aims to clarify concepts of sustainability 
        science, assist capacity building of science and technology in 
        developing countries and connect the results and outcomes to 
        international programs and consultations.

        Private Sector Initiatives, supported by the Turner Foundation, 
        proposed to establish a dialogue among representatives of 
        industry and the scientific and technical community to help 
        inform business incentives and best practices with the latest 
        scientific knowledge and information on sustainability, and 
        explore common interests in technical innovation.

        Global Change Research Program provided guidance to $2 billion, 
        multi-agency U.S. Global Change Research Program. Coordinated 
        overall program (synthesis committee and study committees on 
        climate, human dimensions, ecosystems, and data), directed 
        synthesis committee staff, negotiated and managed multi-year 
        contracts, and provided link with international programs. 
        Oversaw review of global change research that produced the 
        report Global Environmental Change: Research Pathways for the 
        Next Decade and an overview volume of findings and 
        recommendations which were used in formulating a Federal 
        Government 10-year plan for global change research, developing 
        new foci for international programs and guiding development of 
        a summary report on global and regional change issues for the 
        new U.S. Federal administration.

    (1992-1996) Director, Committee on International Organizations and 
Programs, National Academies. Managed committee (2 Nobel Laureates, CEO 
of Global Environment Facility, former director of the U.S. National 
Science Foundation, foreign secretaries of National Academies, leaders 
of professional societies) to advise on international scientific 
affairs and U.S. participation in international scientific and 
engineering organizations. Directed program to strengthen U.S. 
participation in disciplinary unions and interdisciplinary programs of 
the Paris-based International Council for Science (ICSU). Staffed 
international review of the goals, structure and programs of ICSU to 
meet the changing needs of society and public policy; helped establish 
new international Program for Capacity Building in Science, focusing on 
primary and secondary science education in developing countries; and 
organized and hosted the 25th General Assembly of ICSU in the United 
States to increase the visibility of international science to Federal 
officials and expose U.S. academic and government scientists to new 
international partners and programs. Managed grants program for U.S. 
contributions to scientific and engineering programs of the U.N. 
Educational, Scientific, and Cultural Organization. Programs led to 
renewed interest of U.S. funding agencies in international science 
cooperation, as well as strengthening and reform of international 
organizations.

    (1989-1992) Director, Polar Research Board, National Academies. Led 
projects in science and technology affecting public policy on 
environmental quality, natural resources, indigenous communities, and 
other issues in the polar regions. Produced reports on scientific 
priorities to advance national interests and meet international 
obligations and helped found an international organization for arctic 
scientific cooperation to serve regional needs for human and industrial 
development.

    (1986-1989) Assistant Scientific Program Director, U.S. Marine 
Mammal Commission, Washington, D.C. Managed the research and arctic 
programs, reviewed environmental impact statements on offshore oil and 
gas activities, and formulated agency positions on issues bearing on 
marine conservation. Co-authored paper on environmental research and 
monitoring that served as a model for meeting requirements of a 
protocol to the Antarctic Treaty to monitor the environmental effects 
of scientific and other activities undertaken in Antarctica.

    (1984-1986) Program Officer, Polar Research Board, National 
Academies. Managed studies of interdisciplinary polar science and 
resource policy, with emphasis on innovative tools for conservation and 
arctic research priorities. Helped develop a framework linking research 
priorities with national needs in the Arctic for the interagency 
committee of the U.S. Government charged with formulating arctic 
research policy for the Nation.

    (1979-1982) Science Teacher, Buckingham, Browne and Nichols Upper 
School, Cambridge, MA. Taught environmental science and biology, 
coached 3 varsity sports teams and served on Admissions Committee, with 
responsibility for ninth grade admissions. Designed environmental 
science curriculum to build environmental awareness and community 
responsibility in student body.
Education
        M.F.S., 1984, Yale University, School of Forestry and 
        Environmental Studies, ecology and natural resource policy.

        A.B., 1977, Goucher College, biological sciences.
Fellowships and Awards
        Senior Research Fellow, J.F. Kennedy School of Government, 
        Harvard University, 2000 (appointment only).

        Dodge Fellow in Human-Animal Ecology, 1983-1984.

        College Athlete of America, 1977.
Professional Activities
    Contributing Editor, Environment magazine (December 1999-present).

    Editor, AAAS/ISTS Forum on Science and Technology for Sustainable 
Development (2005-2008).

    Member, Priority Area Assessment Panel, Capacity Building in 
Science, International Council for Science (2004-2005).

    Treasurer, Leonard Rieser Endowment Fund for the Interciencia 
Association (2005).

    Selection Committees:

        Environment, Health and Services Director Selection Committee, 
        University of Texas-Austin (2007).

        Facilities Services Director Selection Committee, University of 
        Texas-Austin (2007).

        Harry S. Truman Fellowship Selection Committee, University of 
        Texas-Austin (2007).

        AAAS Diplomacy Fellowship Program (2004, 2005).

        AAAS Roger Revelle Fellowship in Global Stewardship (1998; 
        1999; Chairman, 2000).

    Guest editor, March 2000 Issues in Science and Technology, ``A 
Delicate Balance: Environment, Economics, Development.''

    Group of Specialists on Environmental Affairs and Conservation, 
(1990-1993), Finance Committee (1989-1992), Subcommittee on 
Conservation (1984-1988) of the Scientific Committee for Antarctic 
Research, International Council for Science.
Publications
    Abbott, S.B. and W.S. Benninghoff, 1990. Orientation of 
environmental change studies to the conservation of Antarctic 
ecosystems. In: Antarctic Ecosystems, K.R. Kerry and G. Hempel (eds.), 
Springer-Verlag, Berlin, Germany.

    Articles in the Antarctic Journal of the United States, the Arctic 
Journal of the United States, and Science International, the newsletter 
of the International Council for Science, and Environment.

    Lead staff contributor and editor of National Research Council 
reports, including:

        Board on Sustainable Development, 1999. Our Common Journey: A 
        Transition Toward Sustainability. National Academy Press, 
        Washington, D.C.

        Committee on Global Change Research, 1999. Global Environmental 
        Change: Research Pathways for the Next Decade. National Academy 
        Press, Washington. D.C.

        Committee on Global Change Research, 1998. Global Environmental 
        Change: Research Pathways for the Next Decade: Overview. 
        National Academy Press, Washington, D.C.

        Polar Research Board, 1993, Arctic Contributions to Social 
        Science and Public Policy. National Academy Press, Washington. 
        D.C.

        Polar Research Board, 1991. Opportunities and Priorities in 
        Arctic Geoscience. National Academy Press, Washington, D.C.

        Polar Research Board, 1986. Recommendations for a U.S. Ice 
        Coring Program. National Academy Press, Washington, D.C.

        Polar Research Board, 1986. Antarctic Treaty System: An 
        Assessment. Proceedings of a Workshop Held at Beardmore South 
        Field Camp, Antarctica, January 7-13, 1985. National Academy 
        Press, Washington, D.C.

        Polar Research Board, 1985. National Issues and Research 
        Priorities in the Arctic. National Academy Press, Washington, 
        D.C.

        U.S. Antarctic Report to the Scientific Committee on Antarctic 
        Research (Numbers 32, 31, 30, 27, 26), 1989-1991, 1985-1987. 
        National Academy Press, Washington, D.C.
References available upon request.

    Senator Cantwell. Thank you, Ms. Abbott. I am going to 
start with you. Thank you for your willingness to serve, and it 
is a pleasure to have your family with you here at the hearing. 
So thank you for attending this hearing.
    I wanted to ask specifically about NOAA and your role with 
NOAA in our efforts to make sure that oceans policy and 
particularly coastal science programs. What are your thoughts 
on how we improve those to work better with local governments? 
My main concern is that we talk a lot about climate mitigation 
and we have had legislation through this Committee to talk 
about adaptation and what we need to do to better plan for 
climate change. I do not know if you want to comment on how you 
think that we can provide better science and information 
through your agency and office to work with local governments.
    Ms. Abbott. Thank you for that question, Senator Cantwell. 
President Obama has made it very clear that the cornerstone of 
his activity is a robust strategy for research dealing with 
climate change. And I see that the Office of Science and 
Technology Policy, together with the OMB, will provide a very 
strong and helpful, coordinated research program across the 
budgets and across the agencies. And I look forward, if 
confirmed, to helping that process.
    NOAA is a very strong element of those agencies, and one of 
the great opportunities that we have ahead of us is that many 
of us, including myself--and I have known Dr. Lubchenko for 
some 20-odd years or longer than I care to admit, as well as 
other members of the team. And I think we will work very 
strongly together so that the coordination function across the 
agencies, I would assume, would be quite substantial and I 
think that there is a long way that we can go in that 
direction.
    Senator Cantwell. What do you think are some of the 
mistakes that we will make if we do not focus on the right kind 
of adaptation and climate information and how that information 
is shared?
    Ms. Abbott. I think your point is well taken. I think 
adaptation research has been one of the overlooked or at least 
one of the less-funded efforts of the climate science program, 
and I think, going forward, we need to look at the various 
strategies that have been put forward to try to get the best 
out of our research activity, including an adaptation research 
strategy. We need to look at the national assessment that is 
mandated by the U.S. Global Change Research Act looking across 
the sectors and across the regions, and we also need to look at 
a strategy for addressing the climate services that all of our 
communities are going to depend upon to make decisions about 
their going forward.
    Senator Cantwell. You would agree that it is impossible for 
them to do that kind of research--the local communities.
    Ms. Abbott. It is impossible for them to do it alone 
without help from the Federal Government.
    Senator Cantwell. Thank you.
    Mr. Kerry, obviously, as General Counsel, part of your 
activities is lowering barriers to trade opportunities for U.S. 
companies as they look for market opportunities abroad. One of 
the issues is a lack of infrastructure of commercial law in 
those countries. My understanding is that the General Counsel's 
office provides commercial law assistance to those foreign 
officials. How do you think we should enhance that or change 
that or grow that function to better serve the United States?
    Mr. Kerry. Well that, Senator, is part of one piece in an 
overall review that the Administration has undertaken of trade 
policy and all of its various components about the market 
access, the countervailing duties, and antidumping aspects, and 
review of the trade agreements. Certainly one of the functions 
that I look forward to, if confirmed, is the opportunity to 
work on the commercial law development program to try to 
promote transparency in other countries and to promote 
transparency in market access.
    Senator Cantwell. Would you say that the program could grow 
in our efforts on the international basis to support more 
activities?
    Mr. Kerry. Well, I think, Senator, the role that that 
program is going to play in the overall trade strategy is 
something that will emerge from that review. I certainly look 
forward to a discussion with you and with your very capable 
staff of ways that that program can help advance the choices 
that we need to make in the area of trade.
    Senator Cantwell. Thank you. I see my time is up.
    Senator Hutchison?
    Senator Hutchison. Thank you, Madam Chairman.
    I want to ask each of you to answer the same question that 
I asked of the first panel, and that is, would each of you work 
with committee members on both sides of the aisle and give 
information and any answers to requests that are made so that 
we can do our job of oversight of your agencies? Ms. Boyd?
    Ms. Boyd. Yes, Senator Hutchison, absolutely. I would see 
that as the primary function of my office. I would also like to 
note that I think our Federal Government works best when it has 
a healthy relationship with Congress. So I would absolutely do 
my part to ensure that.
    Senator Hutchison. Thank you.
    Mr. Kerry?
    Mr. Kerry. Senator Hutchison, I took notes during your 
introductory comments when you said the Committee cannot 
perform its functions without information from the legislative 
and legal staff. So my answer to that question is yes.
    Senator Hutchison. Ms. Abbott?
    Ms. Abbott. And yes, Senator Hutchison, along with my 
fellow nominees, I share their view. Also, with respect to the 
fact that the President has made openness a very strong 
commitment on the part of the Government. So yes, I would.
    Senator Hutchison. Thank you.
    My only other question I have is for you, Ms. Abbott. The 
OSTP really is an office that can be whatever you make of it. 
It can be very active and productive and give the kind of 
guidance in science that we really need, and it would be a 
wonderful service if you do. But many times we never hear much 
from OSTP. So it would be very helpful for you all to be active 
because I think there are some areas where your input would 
move the ball forward.
    One of those areas concerns a bill that I introduced in the 
last two Congresses to do more research in weather patterns and 
mitigation to determine how mitigation works, how it affects 
not only the area where it might be occurring, but other areas 
around it. For instance, cloud seeding--does it affect areas in 
the north, south, east, or west of the area where clouds would 
be seeded?
    There are really no records that have been kept in the last 
few years. They used to keep them at OSHA and the Weather 
Service, but--not OSTP. NOAA and the National Weather Service 
used to do some of this record keeping, but they do not 
anymore.
    I talked to the head of OSTP when he was here, and he was 
interested in participating and working with us on this bill. I 
have the bill's directives now housed at the National Science 
Foundation, but I would be pleased to work with OSTP on moving 
it forward so that we could get data to determine if the 
changes in weather and the violence of the weather that we have 
seen in the last few years can in any way be mitigated or let 
us look at the patterns and see if there is something that they 
might tell us.
    So my question is, would you work with me on that and maybe 
help us push something through that would be helpful in 
gathering data in the beginning and then seeing if that leads 
us somewhere?
    Ms. Abbott. Yes, Senator Hutchison, I would be pleased to 
work with you as we go forward.
    The intensity of storms and frequency is obviously a very 
important problem and something that we have to address both 
from its impact on public welfare, as well as on the economy. 
About a third of our GDP comes from coastal communities and 
clearly any impact from hurricanes on coastal communities is 
felt across the Nation. So our understanding of the dynamics of 
these storms, together with their consequences, and also 
looking at the various strategies for mitigation and adaptation 
has to be a very strong part of the portfolio of research that 
we work with you in an effort to produce for the Nation.
    Senator Hutchison. Well, thank you. I know that you have 
now lived in Texas, you have seen----
    Ms. Abbott. We have experienced it firsthand.
    Senator Hutchison.--and the surges. You know, Katrina. The 
big damage was from surge, not from the hurricane. Then, of 
course, Hurricane Ike, we saw it in Galveston just last year. 
So it is something that I think is high time we look at, study, 
see what the patterns are, if any, and then see if there is 
something we ought to be doing. But we cannot take that step 
until we know what the patterns are and if we can do something 
with that information.
    So I thank you and I look forward to working with all of 
you in your capacities. Thank you.
    Senator Cantwell. Thank you and thank you, Senator 
Hutchison for being here today and allowing the hearing to go 
forward on these confirmations so that we can get the agency 
the personnel that it needs to do its job and to work with us 
here in Congress.
    I want to remind my colleagues that the Committee does want 
to move on these nominees very quickly, so if they have 
questions for the nominees, to have them in by noon tomorrow so 
that they can get a response. And obviously, if members who 
were not here today have questions, you do not have to wait 
until noon tomorrow, you can start getting them to the 
Committee to get to these individuals sooner than that. The 
sooner you get them, the sooner the answers can come back.
    So with that, again thank you all for being here and for 
your testimony and for willingness to serve.
    This hearing is adjourned.
    [Whereupon, at 4:21 p .m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Peter H. Appel
    Question 1. As RITA's strategic plan comes to an end in Fiscal Year 
2010, what are the priorities you envision for the agency?
    Answer. If confirmed, I plan to work closely with Secretary LaHood 
to advance the goals of safety, mobility, livability, sustainability, 
and economic growth. The Research and Innovative Technology 
Administration (RITA) is well-positioned to provide Departmental 
leadership on these priorities. If confirmed, I would charge RITA's 
Research, Development and Technology program with coordinating forward-
thinking research priorities, including those on climate change, for 
the Department. Further, I would work with the Intelligent 
Transportation Systems (ITS) program to research cutting-edge 
technologies for deployment into our transportation system to help 
ensure that our infrastructure investments make the best use of the 
taxpayers' dollars. I would also look forward to working with the 
Bureau of Transportation Statistics to produce sound data upon which 
policy decisions could be made. There is an opportunity for RITA to 
bring together first-rate transportation research, technologies, and 
data to ensure a safe, efficient, sustainable and robust transportation 
network across every mode.

    Question 2. How will you coordinate RITA's efforts between modal 
administrators to incorporate technological solutions to transportation 
problems?
    Answer. I firmly believe that RITA can do a better job providing 
coordinated research and analytical results to Departmental 
decisionmakers, to support Administration and Secretarial policy 
initiatives. If confirmed, I will seek to reach across the modal 
administrations, and to outside research and technology organizations, 
to identify technology readiness; to promote those which may be 
commercialized; and to further develop those with the best chance of 
improving intermodal connectivity. This effort may only be successful 
if we have a full partnership with all modal administrations and their 
stakeholder partners.

    Question 3. What is your assessment of the FAA efforts to use 
technology to address environmental issues, particularly through the 
NextGen, CLEEN and CAFFI programs?
    Answer. I have not had an opportunity to assess these programs. If 
confirmed, I will work with the FAA to assist in any way I can to 
address aviation environmental issues, and bring the knowledge of the 
Volpe National Transportation Systems Center to bear on this topic. As 
you may know, the Volpe Center already provides significant support to 
the FAA in air traffic system design and research, and in aviation 
environmental assessment and modeling.

    Question 4. What role do you believe RITA can play in supporting 
the FAA's environmental efforts?
    Answer. Aviation emissions, noise and fuel use are three 
significant issues in which FAA is working to fulfill, or even lead, 
International Civil Aviation Organization (ICAO) environmental 
standards, as well as being an important part of the transportation 
environmental equation. If confirmed, I look forward to working with 
the FAA, through the DOT Center for Climate Change, through RITA's 
leadership in alternative fuel technology and standards, and in other 
ways to ensure that the work that FAA is doing both supports and is 
supported by what RITA does across all modes on this critical topic.

    Question 5. How do you anticipate the Office of Intermodalism 
working to coordinate the development of a national intermodal 
transportation system?
    Answer. RITA activities, cutting across all modes, need to provide 
an intermodal perspective. If confirmed, I plan to examine all RITA 
programs in terms of how they can promote intermodal thinking in the 
agency and within the Department. As part of that examination, I will 
look into the status and potential for the Office of Intermodalism to 
help coordinate the development of a national intermodal transportation 
system. As intermodalism involves all of the Department's Operating 
Administrations, I anticipate working closely with the Office of the 
Secretary.

    Question 6. What will you do to advance the development and use of 
new technologies to improve the efficiency of freight flow through the 
marine transportations system and its intermodal connectors?
    Answer. The conduct of applied research through nationally renowned 
institutions such as the National Academies is critical to the 
identification and development of ways to increase operational 
efficiency and throughput of the marine transportation system. If I am 
confirmed, RITA will continue to pursue and conduct such applied 
research opportunities to develop new reliable data, tools, and 
technologies through the National Cooperative Freight Research Program.
    For example, one NCFRP project entitled Preserving and Protecting 
Freight Infrastructure and Routes will specifically address the state 
of maritime infrastructure including truck routes connections between 
manufacturers and ports and the state of intercity highway and rail 
networks around ports. The objective of this research project is to 
provide state and local officials, land use planners, etc. with state-
of-the-practice review of current activities and best practices for use 
in planning and development of facilities in proximity to freight, 
port, and rail operations. RITA will continue to support the critical 
efforts of the Committee on Maritime Transportation System (CMTS) 
through the involvement of the Bureau of Transportation Statistics. 
RITA, through BTS, will continue to sponsor the Maritime Data Working 
Group which produces analytical and technical reports on maritime trade 
and transportation.
    In addition, RITA will conduct the validation of the use of new 
technologies through deployment of proof-of-concept projects in several 
areas of freight transportation management ranging from applied 
technologies in intelligent transportation systems, remote sensing 
technologies to spatial information-based decision support systems to 
enhance the overall freight system performance. The Intelligent 
Transportation System Program also has technological developments which 
I will look at for applicability to intermodal connectivity. All of 
these efforts will be coordinated with the Federal Highway 
Administration's programs in intermodal connectors and freight 
management.

    Question 7. What do you see as the greatest gap or deficiency in 
scientific research that your office can fill to address vehicle safety 
and transportation issues?
    Answer. Today, when we drive, we are limited by human capabilities 
regarding what is happening on the roadway around us. In the future, we 
can greatly improve safety if our vehicles are smarter and aware of 
other cars on the roadway and potential hazards that drivers may not 
see. These capabilities require vehicles to be able to communicate with 
one another and with signals and other roadway features. Thus, 
technology offers the potential to transform vehicle safety.
    Specifically, RITA's Intelligent Transportation Systems Joint 
Program Office, is working hand-in-hand with the National Highway 
Traffic Safety Administration (NHTSA) to research and develop vehicle-
to-vehicle and vehicle-to-infrastructure communication technologies for 
safety applications. This suite of technologies, collectively referred 
to as IntelliDrive(SM), holds the potential to transform vehicle safety 
by giving the vehicle 360-degree awareness to warn the driver of 
hazards and, as technology advances, to ultimately take limited control 
to avoid a crash.
    While research progress is being made, the business model that will 
provide a funding approach to equip vehicles and to deploy roadside 
infrastructure must be found. In addition, several key issues, such as 
privacy and security, must be addressed to bring this ground-breaking 
technology to fruition. However, the potential benefits of this 
technology fully justify the investment.

    Question 8. In your opinion, what challenges do scientists face 
when attempting to produce vehicle safety research that is useful to 
the automotive industry?
    Answer. The most recent challenge is to sustain the automotive 
industry's focus on research in the current business climate. Their 
attention is diverted and their resources are strained. Despite these 
challenges, the automotive industry must be a full partner in the 
technical and non-technical research. It is essential that USDOT 
nurture and maintain strong relationships with the automotive industry. 
Through that relationship, research can be cooperatively developed that 
will meet the needs of the industry. To this end, USDOT enabled the 
creation of the Vehicle Infrastructure Integration Consortium (VIIC) as 
a venue for the automotive industry to work with each other and with 
USDOT in a non-competitive environment to conduct research pertinent to 
the automotive industry. The research identified above must be designed 
with the support of the automotive industry so that it satisfies their 
needs for ultimate implementation.

    Question 9. As the administrator of RITA, what approach will you 
take to addressing these challenges?
    Answer. If confirmed as Administrator, I would use this leadership 
position to strengthen and sustain the relationship with the automotive 
industry. RITA can do much to reassure the industry of the government's 
commitment to this research and its belief in the potential to 
substantially improve safety. Further, RITA, as an agency with a multi-
modal mission, can and will continue our strong relationship with the 
National Highway Traffic Safety Administration (NHTSA) in the 
development and execution of this research program. NHTSA has a long-
standing relationship with the automotive industry and they are a key 
partner in the research.

    Question 10. How will you adequately provide current and thorough 
reporting of your statistical research and analysis?
    Answer. RITA, through the Bureau of Transportation Statistics 
(BTS), regularly communicates with stakeholders and customers in 
providing statistical products and services that meet priority needs of 
policy leaders and decisionmakers and ensures that decisionmakers have 
access to the relevant, accurate, timely, and reliable information and 
analyses needed to make informed decisions and improve safety and 
livability, reduce congestion, and boost overall transportation system 
performance. To achieve this goal, BTS engages in three central 
activities: creating, managing, and sharing transportation statistical 
knowledge.
    BTS has already scheduled updates and online releases of airline 
data, international data, the Transportation Services Index and other 
key transportation indicators. BTS produces analytical reports on key 
transportation trends including passenger intermodal connectivity and 
national and state transportation statistics. BTS will continue to 
develop statistical products and services that enhance knowledge 
regarding other pressing domestic and international transportation 
topics as they evolve. BTS actively contributes to the Nation's 
geospatial knowledge by developing software to improve the estimation 
of travel routes and by collaborating with Federal agencies and 
stakeholders to advance geographic data efforts. The BTS also 
administers the National Transportation Library. The National 
Transportation Library maintains a substantial presence in both digital 
and traditional library environments.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                             Peter H. Appel
    Question 1. What role do you see the University Transportation 
Centers (UTC) playing in the formulation of national transportation 
policy?
    Answer. The University Transportation Centers continue to play an 
increasing role in forming national transportation policy, as evidence 
by several UTC directors testifying recently before the Congress on 
topics as diverse as livability, infrastructure maintainability, and 
rural transportation issues. It is becoming increasingly known that the 
UTCs house thoughtful knowledge creation and analysis capabilities upon 
which state Departments of Transportation, Metropolitan Planning 
Organizations, and private logistics firms are drawing increasingly. I 
am a firm believer in the value of the UTCs, and if confirmed, will 
seek to draw the UTCs, their research results and policy analysis 
skills, more into the national policy debate through the Department.

    Question 2. More specifically, what role do you see the Alaska 
University Transportation Center playing in the formulation of the 
Nation's transportation policy and arctic policy?
    Answer. The Alaska University Transportation Center is addressing 
extreme environment transportation issues in a way that few others can, 
yet is doing so in a collaborative manner with others who work in the 
field. Bringing this specific knowledge together will be useful in 
informing national transportation policy as it affects arctic 
environmental and transportation issues.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Joseph C. Szabo
    Question 1. While changes to the regulatory structure governing 
railroad rates matters are generally handled by the Surface 
Transportation Board, as Administrator of the Federal Railroad 
Administration, your actions will have a tremendous effect on the role 
that both freight and passenger railroads play in our surface 
transportation system. Are you willing to work with me to expand 
competition and improve service in the rail industry while ensuring 
that railroads have the resources they need to serve the nation?
    Answer. The economic regulatory structure governing railroads faces 
the difficult challenge of balancing the often conflicting needs of the 
railroads, shippers and communities. Adequate financial returns for the 
railroads are necessary to encourage investment in additional capacity 
and new technologies that will provide the safe, efficient and growing 
rail system we need for both freight and passenger service. Reasonable 
rates and reliable service are critical for the economic development of 
our communities. The impact on communities from changes in railroad 
service must also be considered. As you note, the responsibility for 
balancing these needs has been placed principally with the Surface 
Transportation Board (STB). FRA, in cooperation with the General 
Counsel (OST) and other DOT modes, participates in proceedings before 
the STB and this provides an opportunity for the agency to influence 
policy on these issues. I believe the Department's filings before the 
STB should continue to urge the STB to balance the needs of the 
railroads for adequate financial returns with the needs of shippers for 
reasonable rates and reliable service. If confirmed as FRA 
Administrator, I would be pleased to work with you and the Committee to 
consider ways to better achieve the goal of expanding competition and 
improving service.

    Question 2. What will you do to make sure that the Federal Railroad 
Administration is an active participant in the Department of 
Transportation's (DOT) Office of Climate Change to make sure that rail 
is adequately represented in the Department's climate change efforts? 
What will you do at the Federal Railroad Administration to promote rail 
as an environmentally friendly transportation option?
    Answer. If confirmed, I will work to assure that FRA is an active 
participant in the DOT Office of Climate Change to make sure that rail 
is adequately represented in the Department's efforts on this issue. I 
understand that FRA has been an active participant with that office in 
the past. With respect to efforts to promote rail as environmentally 
friendly transportation option, there are a number of initiatives 
currently planned or underway that I fully support. On April 16, the 
Department of Transportation released Vision for High-Speed Rail in 
America, its strategic plan for the use of the high-speed rail and 
intercity passenger rail funding provided through the American Recovery 
and Reinvestment Act of 2009. This Strategic Plan is just the first of 
several steps intended to further refine and elaborate on this high-
speed rail corridor vision--including the program guidance, the 
President's detailed Fiscal Year 2010 budget request, the National Rail 
Plan called for by Congress, and discussions over upcoming surface 
transportation legislation. I believe that enhanced passenger rail can 
play an important role in our Nation's overall climate change strategy.

    Question 3. How will you as Administrator help the Federal Railroad 
Administration meet the deadline for the new hours of service regime 
enacted in the Rail Safety Improvement Act of 2008? And the 
implementation of positive train control?
    Answer. Mr. Chairman, I'm informed that FRA has already completed 
work within the Railroad Safety Advisory Committee toward issuance of a 
final rule on Hours of Service Record Keeping and Reporting and that 
they are finalizing partial agreements on Positive Train Control, as 
well. If confirmed, it would be my responsibility to work with FRA's 
safety staff and counsel to make sure that initial policy decisions on 
work such as this are made early in the process of regulatory 
development and that my colleagues in the Administration are kept fully 
briefed so that we do not lose time in ``review and clearance'' that 
could be spent implementing safety rules in the field. I know the FRA 
staff is working to be part of the solution here and to ensure that the 
detail work that Congress directed the agency to do is completed as 
quickly as possible. Nothing that I could do as Administrator could be 
more important than pushing to resolution the work the agency must do 
to implement the Rail Safety Improvement Act of 2008.

    Question 4. The American Recovery and Reinvestment Act of 2009 
provides funding to the several grant programs that the Federal 
Railroad Administration administers, such as the Amtrak capital grant 
program and the State Intercity Passenger Rail Grant program. How will 
you make sure projects that are selected to receive funds are the ones 
that are best suited to contribute to a national rail system? 
Similarly, how will you make sure that funds provided to these programs 
will be distributed quickly and efficiently so that projects can begin 
to be constructed as soon as possible?
    Answer. On April 16, the Department of Transportation released 
Vision for High-Speed Rail in America, its strategic plan for the use 
of the high-speed rail and intercity passenger rail funding provided 
through the American Recovery and Reinvestment Act of 2009. As outlined 
in that strategic plan, and as specified by President Obama's March 20 
memorandum on the use of Recovery Act funds, projects will be selected 
based on transparent, merit based criteria, including projects' ability 
to produce economic stimulus, achieve the goals for high-speed rail and 
intercity passenger rail development specified in the Passenger Rail 
Investment and Improvement Act of 2008, and mitigate financial and 
implementation risks. It is my understanding that FRA will be providing 
addition details on these merit-based criteria as part of the interim 
guidance it will issue by June 17. If confirmed as Administrator, I 
look forward to working to develop and implement these merit-based 
criteria.
    The expeditious management of the grant-making and construction 
processes will unquestionably be one of the greatest challenges facing 
FRA. I hope that the interim guidance, which will establish the exact 
procedures and standards to be applied under these programs, will serve 
as a first step to ensuring that projects move forward without delay, 
and are completed as quickly as is prudently possible.

    Question 5. The Passenger Rail Investment and Improvement Act of 
2008 included a requirement for the Federal Railroad Administration and 
Amtrak in consultation with other specified parties to develop metrics 
and standards for the performance and service of train operations. As 
Administrator, will you be committed to fully establishing fair metrics 
and standards for performance and service of train operations, 
including measurements of on-time performance and delays of intercity 
passenger rail on rail carrier's lines?
    Answer. I understand that FRA has been working diligently with 
Amtrak to develop the required metrics and standards, and I look 
forward to reviewing the progress made in these efforts. Intercity 
passenger rail service can only be successful if the trains operate 
reliably, and the standards and metrics called for under the Passenger 
Rail Investment and Improvement Act of 2008 represent a key component 
of the efforts that are necessary to ensure improved intercity 
passenger rail reliability.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                            Joseph C. Szabo
    Question 1. While freight railroad rates and practices are 
generally handled by the Surface Transportation Board, as Administrator 
of the FRA, your actions will impact the role that both freight and 
passenger railroads play in our surface transportation system. How can 
you help us to expand competition and improve service in the freight 
rail industry?
    Answer. The FRA, in cooperation with the General Counsel (OST) and 
other DOT modes, participates in proceedings before the Surface 
Transportation Board (STB). I believe the Department's filings before 
the STB should continue to urge the STB to balance the needs of the 
railroads for adequate financial returns with the needs of shippers for 
reasonable rates and reliable service.
    Adequate financial returns for the railroads are necessary to 
encourage investment in additional capacity and new technologies that 
will provide the safe, efficient and growing rail system we need for 
both freight and passenger service. Reasonable rates and reliable 
service are critical for the economic development of our communities. I 
believe the Department should also continue to urge the STB to consider 
the impact on communities from changes in railroad service.

    Question 2. How will you make sure projects that are selected to 
receive funds from the American Recovery and Reinvestment Act of 2009 
are the ones that are best suited to contribute to a national rail 
system?
    Answer. On April 16, the Department of Transportation released 
Vision for High-Speed Rail in America, its strategic plan for the use 
of the high-speed rail and intercity passenger rail funding provided 
through the American Recovery and Reinvestment Act of 2009. As outlined 
in that strategic plan, and as specified by President Obama's March 20 
memorandum on the use of Recovery Act funds, projects are to be 
selected based on transparent, merit based criteria, including 
projects' ability to produce economic stimulus, achieve the goals for 
high-speed rail and intercity passenger rail development specified in 
the Passenger Rail Investment and Improvement Act of 2008, and mitigate 
financial and implementation risks. It is my understanding that FRA 
will be providing addition details on these merit-based criteria as 
part of the interim guidance it will issue by June 17.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Kerry to 
                            Joseph C. Szabo
    Question 1. Last Congress, Senator Specter and I introduced the 
High-Speed Rail for America Act of 2008 which provides tax exempt bonds 
and tax credit bonds for high-speed rail. The American Recovery and 
Reinvestment Act of 2009 included $8 billion for high-speed rail 
projects. I believe that more than $8 billion is necessary to create a 
high-speed rail system and that tax exempt bonds and tax credit bonds 
would provide a constant source of funding that would complement the 
initial investment of $8 billion. Would you support such a program?
    Answer. As stated in Vision for High-Speed Rail in America, and 
emphasized in President Obama's April 16 remarks at the release of that 
strategic plan, the Administration views the $8 billion provided under 
the Recovery Act and the $1 billion per year funding proposal contained 
in the President's Fiscal Year 2010 budget as a down payment to jump-
start the development of high speed rail in America, recognizing that 
additional funding will be required to realize the full potential of a 
nationwide high-speed rail system. As such, if confirmed, I would look 
forward to working with others in the Administration and with Congress 
to identify the precise sources and mechanisms for providing additional 
funding.

    Question 2. I have proposed creating an Office of High-Speed Rail 
within the Federal Rail Administration to focus solely on developing 
high-speed rail. Do you think such an office is needed?
    Answer. Faced with an unprecedented increase in grant funding and 
policy responsibilities, there is no question that FRA will require 
additional resources to guide the development of the Nation's high-
speed rail system and oversee the use of Federal funding in that 
effort. If I am confirmed, I would look forward to working with 
Department of Transportation officials and the Congress to determine 
what organizational structure will best suit these needs.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Joseph C. Szabo
    Question 1. There has been little Federal investment in our freight 
rail infrastructure, even as we face a significant increase in freight 
traffic. What should be the Federal Government's role in maintaining 
and enhancing freight-related infrastructure?
    Answer. The Federal Government provides limited financial 
assistance for investment in our freight rail infrastructure, most 
prominently through the loans and loan guarantees available in FRA's 
Railroad Rehabilitation and Improvement Financing Program (RRIF) and in 
Fiscal Years 2008 and 2009 the Rail Line Relocation and Improvement 
Program. The freight railroads are best positioned to determine their 
investment needs to meet anticipated demands on the freight rail 
system. The critical Federal role is to continue to support a rail 
regulatory environment that permits the freight railroads to earn an 
adequate return on their investment, thereby permitting and encouraging 
the freight railroads to invest in needed infrastructure. The Federal 
Government may have a role in providing additional support to foster 
capacity growth beyond what private investment provides in certain 
areas, for example, to support passenger rail, or in providing funding 
to accelerate the adoption of new technologies with safety or 
environmental benefits. However, no additional specific Federal funding 
role for freight rail has been identified at this point.

    Question 2. In the Passenger Rail Investment and Improvement Act of 
2008, we required that the Northeast Corridor be brought into a state-
of-good-repair by 2018. As Administrator of the FRA, how will you 
implement this law to meet this deadline and ensure the Northeast 
Corridor can meet the increased demand for rail travel?
    Answer. I understand that FRA works closely with Amtrak as part of 
its administration of the railroad's Federal capital grants to ensure 
that the funding provided to Amtrak is used to further the railroad's 
key strategic goals, including the bringing of the Northeast Corridor 
to a state-of-good-repair. As you know, Amtrak is also required under 
section 211 of the Passenger Rail Investment and Improvement Act of 
2008 to prepare a capital spending plan identifying the capital 
projects required to achieve this important goal. If I am confirmed as 
Administrator I would like to see the final state-of-good-repair plan 
serve as a cornerstone in the process of identifying capital projects 
to be included future Federal capital grants to Amtrak.

    Question 3. Last year, I worked to enact the Clean Railroads Act of 
2008 in response to the proliferation of companies abusing a Federal 
loophole that prevented New Jersey from enforcing important public 
health, safety, and environmental standards at rail sites. As 
Administrator of the FRA, how will you ensure that rail operators abide 
by Federal and State requirements preventing pollution, protecting the 
environment, and protecting the public health, especially laws 
governing solid waste?
    Answer. If I am confirmed, I look forward to learning more about 
the Clean Railroads Act of 2008 and how FRA in carrying out its 
railroad safety responsibilities might assist the Surface 
Transportation Board as it implements the Clean Railroads Act and the 
Environmental Protection Agency in its role in preventing pollution, 
protecting the environment, and protecting the public health, 
especially with respect to laws governing solid waste.

    Question 4. The Act to reauthorize the FRA signed into law last 
year included a number of important provisions to improve rail safety. 
One of these is the implementation of positive train control systems, 
which will help reduce collisions and derailments. What will you do as 
FRA Administrator to ensure this requirement is implemented effectively 
and on time?
    Answer. I look forward to seeing that FRA finishes developing 
proposed performance-based regulations to govern the implementation and 
use of mandatory PTC systems. Under the law, each applicable railroad 
will have to submit a PTC implementation plan for approval by April 16, 
2010. If confirmed, I will do everything I can to carry forward FRA's 
objective of issuing a final rule providing requirements for such plans 
no later than October 2009. I am aware that FRA is asking for plans 
describing the technology that the railroads will use by next April, as 
well; and I believe that this is necessary if we are going to ensure 
completion of these systems by the statutory deadline of December 31, 
2015.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Begich to 
                            Joseph C. Szabo
    Question. The Department of Defense has identified the Alaska 
Railroad as a part of the Strategic Rail Corridor Network (STRACNET) as 
a Defense Connector Line. You may be aware that the Alaska Railroad is 
proposing an expansion, the Northern Rail Corridor Extension Project, 
which may be relevant to the DOD, and is supported by many Alaskans. 
Can you explain to the committee what, if any, judgments you may have 
made about of the viability of the Alaska Railroad's Northern Rail 
Corridor Extension Project, as well as the STRACNET designation of this 
rail corridor by the DOD?
    Answer. I have not as yet made any judgments about the viability of 
the Alaska Railroad's Northern Rail Corridor Extension Project but 
would be interested in learning more about the project if I am 
confirmed as FRA Administrator. It do understand that the FRA is a 
cooperating agency on the draft environmental impact statement (EIS) 
prepared by the Surface Transportation Board and published in December 
2008 and that FRA has provided grant funds to the Alaska Railroad 
Corporation to advance the planning, design, and environmental review 
of the project.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Joseph C. Szabo
    Question 1. In my state, safety at railroad crossings is an 
important issue since we have had several fatal accidents. These 
accidents have taken place with cars at grade crossings and with people 
walking along tracks when they should not be. The Railroad Safety 
Enhancement Act of 2008 included grants to states for grade crossing 
safety and the ``Operation Life Saver'' program to raise public 
awareness of railroad safety hazards. Will you aggressively implement 
these programs to prevent rail crossing accidents? Will you work to 
introduce new technologies to improve rail safety, especially for 
tracks that cross roads and pass through populated areas?
    Answer. Yes. Highway-rail grade crossing safety would be a priority 
for me as Administrator of FRA. If confirmed, I would continue FRA's 
longstanding partnership with Operation Lifesaver and countless other 
outreach efforts with the rail industry, State and local governments, 
and transportation organizations in schools, in workplaces, and in 
communities all across our Nation to raise public awareness about 
highway-rail grade crossing safety. As I have testified, given my 
railroad background it would be a special honor for me to help 
implement the measures in the Rail Safety Improvement Act of 2008 to 
improve railroad safety, including all measures to promote highway 
grade-crossing safety. If confirmed, I would indeed work with FRA staff 
to explore additional ways to improve highway-rail grade safety, taking 
advantage of new technologies that hold promise for reducing the risks 
posed to both highway and rail users in high traffic areas. Improving 
high-rail grade crossing safety simply improves safety for all of us, 
and it would be a key focus for me as Administrator.

    Question 2. Mr. Szabo, relocating freight rail out of congested 
urban areas is an issue across the country, including in the Chicago 
area where you are from. In the border areas of Texas and New Mexico, 
several proposed rail relocation projects could potentially reduce 
congestion, improve border security, and increase safety. My 
understanding is that the Federal Railroad Administration does assist 
with such rail relocation projects, primarily through loans and loan 
guarantees. Would you support increased FRA funding for rail relocation 
projects? Through what programs?
    Answer. FRA currently administers the Rail Line Relocation and 
Improvement program, the purpose of which is to provide financial 
assistance through grants for exactly the type of projects highlighted 
in your question. FRA also manages the Railroad Rehabilitation and 
Improvement Finance program, which provides loans and loan guarantees 
to help finance a variety of railroad projects, including those 
involving railroad relocations. I understand that interest and 
participation in both of these programs has been very high, and in the 
case of the Rail Line Relocation and Improvement program, that demand 
has far outstripped the supply of available funding.
   Response to Written Questions Submitted by Hon. Sam Brownback to 
                            Joseph C. Szabo
    Question 1. In the past the U.S. DOT appears to have opposed the 
use of RRIF financing for refinancing. Refinancing is a stated 
eligibility under the statute and can be enormously helpful to short 
line railroads that generally have difficulty securing reasonably 
priced financing in the private market. What assurances can you give 
that this bias against refinancing will not resurface in the new 
Administration?
    Answer. I am cognizant of the financing needs of the short line 
railroads, including the need to refinance various kinds of debt that 
are eligible under the RRIF program. I understand that in the past this 
program has not been implemented as widely as Congress would have 
liked. If confirmed, I will work within this Administration to make 
sure that RRIF is one of the many tools available to address the 
investment needs of the railroad industry.

    Question 2. My next two questions for you are more of a statement, 
but I would appreciate your response. I know that your past work has 
allowed you to become very familiar with the Class I railroad industry 
and this experience and knowledge will no doubt be important as you 
make decisions concerning the industry. If you are not as familiar with 
the short line railroad industry, I want to encourage you to become so 
as quickly as possible. These small businesses are preserving rail 
service and rail jobs in areas of the country that the Class I no 
longer serves. In my own state of Kansas short lines operate 42 percent 
of the state's total rail network and are absolutely critical in moving 
grain for a huge number of area farmers. I want to make sure that you 
have a real appreciation for what short lines mean for vast areas of 
rural and small town America. In that regard, I commend for your 
reading file recent Congressional testimony given by Rick Webb, CEO of 
Watco Companies which own and operates 19 short lines across the 
country. The testimony was given on January 28 before the House 
Railroad Subcommittee and it does a good job of explaining why short 
lines are such an important part of the Nation's transportation 
network.
    Answer. I and the Federal Railroad Administration (FRA) are well 
aware of the importance of the short line railroads. While the Class I 
railroads generate far more ton-miles of traffic, a significant portion 
of that traffic either originates or terminates on short line 
railroads. They form a critical link to the national economic system 
for many communities while reducing wear and tear on rural roads not 
designed for heavy truck traffic. The ability of short lines to provide 
local ``retail'' service, vital to small communities, assembling small 
shipments into larger blocks of cars that are then interchanged with 
the Class I's allows many smaller communities to receive good quality 
rail service despite their smaller size and gives them access to the 
world's markets. I am also aware of some of the unique challenges short 
line railroads face, including the lack of financing. The RRIF program 
was created to help address these needs. Funding the track and other 
improvements needed by short line railroads not only improves safety 
and service, it reduces pollution and puts people to work.

    Question 3. In that same regard, I want to make sure that you are 
committed to working with the short lines with regard to implementing 
the recently passed Rail Safety Legislation. That legislation was aimed 
primarily at safety issues on the Class I railroads. While many of the 
provisions are relevant to all rail operations, there are a number of 
rules regarding hours of service and the installation of Positive Train 
Control systems where the short lines are going to have to engage in 
very expensive compliance measures in areas where their operating 
characteristics do not match the Class I characteristics and where 
there is no safety benefit associated with the action. I hope you 
intend to pay close attention to this issue and to make regulatory 
adjustments where that is appropriate.
    Answer. I certainly appreciate the fact that one size doesn't 
always fit all. Although FRA has an obligation to ensure that the law 
is enforced and that safety needs are met, the agency also has a 
responsibility to ensure that small entities, including small 
railroads, are not subject to requirements that are unnecessary. As a 
safety stakeholder in my current job, I have watched the FRA work 
closely with the American Short Line and Regional Railroad Association 
through the Railroad Safety Advisory Committee and in other forums. I 
know many short line and regional railroaders, and I respect the role 
that they play in the national rail system. If confirmed, I will 
welcome the chance to work closely with smaller railroads to ensure 
that the Rail Safety Improvement Act of 2008 is implemented in an 
effective but rational way which takes into account real differences in 
safety exposure.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Dana G. Gresham
    Question 1. How do you plan to facilitate open, honest, and timely 
communication between the Department of Transportation and Congress? 
What process will you establish to make certain that the Administration 
consults with this Committee in a timely fashion before implementing 
major policy shifts?
    Answer. I recognize the facilitation of open, honest, and timely 
communication between the Departments of the Executive Branch and 
Congress, conducted in a bi-partisan manner as emphasized by Ranking 
Member Hutchison at the Committee hearings on my nomination, to be a 
primary function of the Office of Governmental Affairs. Timely 
communications would be a focus of my management of the Office should I 
be confirmed, including notice to Congress of impending policy shifts. 
To make that happen, I would expect to work closely with the senior 
policy staffs of the Secretary, Deputy Secretary, and Under Secretary, 
as well as the Administrators, to remain cognizant of developing policy 
and to make clear the need for consultation, as appropriate, with the 
appropriate Senate and House committee leaderships.

    Question 2. The Administration's FY 2010 budget is expected to be 
received by Congress in the coming weeks. Can we depend on more 
aggressive support of critical rural air service programs, both 
Essential Air Service (EAS) and the Small Community Air Service 
Development program, from the Obama Administration?
    Answer. The President signaled his strong support for, and 
recognition of the value of, the Essential Air Service Program in his 
preliminary Budget message in February. From all that I have learned 
about the objectives of the EAS program and Small Community Air Service 
Development program since being nominated, I am convinced that these 
two programs can play a valuable role in maintaining a network of air 
service in areas that have historically been underserved.

    Question 3. How will you work to improve relationships, 
communications and understanding between your Department and the 
Department of Homeland Security to ensure the DHS is well informed 
about the operational impacts to their security regulations?
    Answer. I understand that DOT and DHS have developed a productive 
working relationship and coordinate often on matters that are relevant 
to or affect both Departments. For example, DOT coordinates frequently 
with DHS via quarterly staff-level meetings, and the Secretaries of 
Transportation and Homeland Security are in agreement on continuing the 
routine of quarterly meetings established by their predecessors. Any 
issues concerning security regulations are addressed at the appropriate 
coordination level, whether that is the working group level or 
Secretarial level. I commit to emphasizing the continued need for 
nurturing these close working relationships.

    Question 4. How will you work to ensure efficient coordination 
between the Maritime Administration and Department of Homeland 
Security's Customs and Border Protection to ensure strong enforcement 
of the Jones Act?
    Answer. I am told that the Department of Transportation's Maritime 
Administration is in regular, close contact with the Department of 
Homeland Security's United States Customs and Border Protection (CBP) 
element to assure vigorous enforcement. If confirmed, I will work to 
ensure that the relationship remains strong.

    Question 5. Last fall, a 5-year Amtrak reauthorization was signed 
into law, which set an aggressive plan for improving Amtrak's network 
and operations. President Obama and Secretary LaHood have indicated 
that they are very supportive of development of high speed rail in the 
United States, as indicated by their $1 billion per year budget request 
for high-speed rail development. Can we expect that the Secretary will 
also be supportive of fully funding Amtrak at the authorized levels?
    Answer. Secretary LaHood has expressed his support for a vital 
Amtrak and I am convinced would press for the level of funding that 
permits the Corporation to fulfill the robust role Congress envisioned 
for it in last October's enactment.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Robert S. Rivkin
    Question 1. What steps would you take to bolster the DOT's efforts 
to enforce passenger rights under existing statutes in order to address 
the consumer protection concerns that have arisen over the past several 
years?
    Answer. The protection of airline consumers is the responsibility 
of the Office of the General Counsel and would be one of my priorities. 
Accordingly, I would ensure that the Department completes in a timely 
fashion its pending consumer protection rulemaking that proposes to 
enhance passenger protections in the following ways: by requiring 
carriers to adopt contingency plans for lengthy tarmac delays; by 
requiring air carriers to respond to consumer problems; by deeming the 
continued operation of a flight that is chronically delayed to be an 
unfair and deceptive practice; by requiring carriers to publish 
information on flight delays on their websites; and by requiring 
carriers to adopt customer service plans, and to audit their own 
compliance with their plans. I would also ensure that the Department 
takes into account the views of Congress and stakeholders on the 
appropriate definitions of tarmac delays and chronically delayed 
flights. It is important to recognize that we cannot rely solely on 
existing regulations, or in the sometimes lengthy process of enacting 
new regulations, to protect consumers in an industry as dynamic as the 
airline industry. If confirmed, I would work to ensure that the 
Department is vigilant in reviewing carriers' evolving practices to 
prevent unfair and deceptive practices or unfair methods of 
competition. I advocate strong enforcement action, as well, to provide 
air travelers the level of protection they deserve.

    Question 2. Under the Bush Administration's leadership, the NHTSA 
has included language in rules stating that Federal safety regulations 
preempted state common law. Many of us on the Committee felt that it 
was highly improper for the Administration to include preemption in 
safety rules that are addressed once every two decades. When the 
Administration included language that removed private rights of action, 
it also eliminated incentives to push industry to innovate and improve 
safety standards outside of the requirements of the rules. Do you agree 
that safety rules should be floors, not ceilings?
    Answer. I am aware that various NHTSA rules promulgated during the 
previous Administration contained language, in the preamble of the 
relevant rule, announcing that the rule was intended to preempt State 
regulatory authority and State common law remedies. Some NHTSA 
regulations can have a preemptive effect on a State's ability to 
provide for its own standards or remedies, and guidance as to the 
preemptive effect of DOT regulations in those limited areas can be 
helpful in explaining the reach of a Federal regulation. However, it is 
my belief that, as a general matter, NHTSA's safety rules should be 
viewed, consistent with NHTSA's statutory authority, as minimum 
standards. It is my understanding that the Administration is currently 
reviewing the prior Administration's expansive approach to the 
preemption of State regulations and common law remedies by Federal 
regulations.

    Question 3. In light of the Supreme Court's decision in 
Massachusetts. v EPA that gave the Environmental Protection Agency the 
authority to regulate greenhouse gas emissions, how do you view the 
NHTSA's legal authority to regulate fuel economy?
    Answer. Under the Energy Policy and Conservation Act of 1975 and 
the Energy Independence and Security Act of 2007, NHTSA retains 
independent statutory authority to set fuel economy standards for 
passenger cars and light trucks, with the requirement to achieve a 
minimum fleet-wide average of 35 miles per gallon by model year 2020. 
The Supreme Court decision recognized the Environmental Protection 
Agency's authority to regulate greenhouse gas emissions, but did not 
alter NHTSA's legal authority to regulate fuel economy. Because of the 
relationship between fuel use and greenhouse gas emissions, NHTSA is 
working closely with the Environmental Protection Agency in this area.

    Question 4. Do you plan to advocate for the Department's continued 
leadership in regulating national fuel economy programs?
    Answer. The Department plays an important role in regulating both 
the fuel economy and the safety of motor vehicles. These issues are 
intertwined and both require careful consideration. This is a 
challenging and evolving area, and we look forward to working with our 
colleagues across Government and in the Congress.

    Question 5. As the Department of Transportation's General Counsel 
how do you intend to ensure that all modes and offices within the 
Department are compliant with our cargo preference laws?
    Answer. If confirmed as General Counsel, I would work with the 
Maritime Administration (MARAD) as it uses new enforcement authority 
enacted in 2008 (P.L. 110-417) to ensure compliance by the Department 
of Transportation and all other government agencies or their 
subcontractors with cargo preference regulations. Under the new 
authority, MARAD may levy a fine of $25,000 per day per violation for 
persons who violate the laws, as well as direct agencies who violate 
the laws to ship make-up cargoes. Specifically, I would work to ensure 
that 100 percent of military and Export-Import Bank cargoes, 75 percent 
of agricultural food aid cargoes, and 50 percent of all other impelled 
cargoes are shipped on U.S.-flag merchant fleet vessels crewed by 
American citizens.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                            Robert S. Rivkin
    Question. Air traffic controllers have been without a collective-
bargaining contract since 2005. How do you recommend DOT move forward 
with air traffic controllers and other FAA unions to negotiate a 
collective bargaining agreement on pay and working conditions? If 
confirmed, will you make this a priority?
    Answer. I can assure you that resolving the contract issues with 
the air traffic controllers is a top priority for this Administration. 
The President and the Secretary have made that very clear. If 
confirmed, I will work closely with the Secretary and the FAA to 
resolve disputes with the National Air Traffic Controllers Association 
(NATCA), which represents the controllers, and with other FAA unions so 
that going forward we are in the best possible position to meet the 
important challenges facing the FAA.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Roy W. Kienitz
    Question 1. What is the current status of the second stage of the 
E.U.-U.S. Open Skies negotiations? What are the primary goals of the 
Administration for the second-stage negotiations?
    Answer. Negotiating teams from the United States and the European 
Union are continuing to explore issues of priority interest to both 
sides, and a third round of negotiations on a second-stage U.S.-E.U. 
aviation agreement has been scheduled during the week of June 22 in 
Brussels. The Administration is still in the process of developing its 
position for these negotiations and will be coordinating with aviation 
stakeholders as part of this process.

    Question 2. U.S. ports are the key modal connector for more than 95 
percent of all overseas trade and currently have no national level 
strategy for development or funding. What do you plan to do to 
adequately prepare the Nation's ports, marine transportation system, 
and intermodal connectors to meet their current needs, to reduce 
congestion, decrease emissions, and to support the doubling of freight 
traffic in the coming decade?
    Answer. There are likely to be shifts in the kinds of 
transportation demands that we will face. It is no secret that the 
economy is becoming increasingly dependent upon global sources of 
supplies, but exports have grown as well. Since 1970, exports as a 
percentage of GDP have almost doubled, and imports have tripled. 
Moreover, the U.S. manufacturing base is increasingly shifting to high-
value, high-tech products like pharmaceuticals and instruments, in 
which we retain a comparative advantage. These high-value products 
require an expedited transportation system that relies increasingly on 
overnight truck and air freight delivery. Our increasing reliance on 
imports of lower-value manufactured goods (and parts for domestic 
manufacturers) places a growing reliance on key ports of entry, such as 
the San Pedro Bay ports of Los Angeles and Long Beach, and the Puget 
Sound ports of Seattle and Tacoma. Landside connections to these ports, 
linked to an efficient domestic intermodal rail and truck freight 
transportation system, will be important to keeping the delivery costs 
of these commodities low. Overall, the shift in GDP from goods 
production to services production will cause freight vehicle-miles 
traveled (VMT) to grow more slowly than GDP, but the growth will still 
be large.

    Question 3. In the past, the Department of Transportation's stove-
piped nature has made it difficult for the modal administrations to 
coordinate on cross-cutting policy issues. What will you do to improve 
coordination between the modes on cross-cutting policy issues? What is 
your plan for coordinating the Secretary's Office of Policy's efforts 
with the modal administrations' policy offices on going work?
    Answer. I recognize that the role of Under Secretary for Policy is 
inherently tasked with improving the communication and efficiency among 
the modes in the interests of multi-modal policy solutions. In that 
regard, I have been struck with the success the Secretary has 
engendered in the so-called ``TIGER Team'' effort to rapidly implement 
the terms of the American Recovery and Reinvestment Act of 2009. The 
combination of new IT technology and cross-modal teams has had 
remarkable success in making available in a mere 9 weeks $37 billion of 
the overall $48.1 billion appropriated to the Department. I would like 
to make that a model going forward for multi-modal initiatives.

    Question 4. Do you support the Jones Act and how will you work to 
ensure strong enforcement of it?
    Answer. If confirmed, I would work with the Maritime Administration 
(MARAD) as it uses new enforcement authority enacted in 2008 (PL110-
417) to ensure compliance by the Department of Transportation and all 
other government agencies or their subcontractors with cargo preference 
regulations. Under the new authority, MARAD may levy a fine of $25,000 
per day per violation for persons who violate the laws, as well as 
direct agencies who violate the laws to ship make-up cargoes. 
Specifically, I would work to ensure that 100 percent of military and 
Export-Import Bank cargoes, 75 percent of agricultural food aid 
cargoes, and 50 percent of all other impelled cargoes are shipped on 
U.S.-flag merchant fleet vessels crewed by American citizens.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                             Roy W. Kienitz
    Question 1. What key steps does the FAA need to take to speed up 
Air Traffic Control modernization?
    Answer. Modernizing the Air Traffic Control system--or moving to 
NextGen as quickly as possible--is a top priority for the President and 
the Secretary. If confirmed, I will work with the Secretary to ensure 
the FAA has the highest level of support in implementing NextGen 
capabilities. To accelerate NextGen, the FAA must work to maximize the 
use of capabilities already resident in today's aircraft and throughout 
the infrastructure. FAA must also work collaboratively with industry to 
encourage equipage to support new aircraft capabilities.

    Question 2. What specific programs should the FAA pursue over the 
next 3-5 years to achieve modernization benefits in the near-term?
    Answer. The FAA should focus on programs that immediately improve 
safety, increase efficiency, and reduce emissions and noise--this means 
accelerating movement toward performance based navigation and 
surveillance, and I believe that those efforts should be the FAA's 
focus over the next 3-5 years. If confirmed, I look forward to working 
with the Secretary and the FAA to support NextGen implementation.

    Question 3. What specific steps can Congress take to help the FAA 
accelerate the date of a complete transition to NextGen?
    Answer. If confirmed, I will work closely with the Secretary and 
the FAA to quickly identify the challenges or obstacles to full 
implementation of NextGen. I believe that working closely with 
Congress, we can identify areas where Congress can help to facilitate 
acceleration. I understand that the FAA has been operating under a 
series of short-term authorizations since October 2007. An immediate 
step that Congress could take to support NextGen is to pass a multi-
year FAA authorization bill, which is needed to clarify the funding for 
NextGen and provide stability over the next few years.

    Question 4. What will you do to improve communication and 
efficiency across the modal administrations in order to create multi-
modal policy solutions?
    Answer. I recognize that the role of Under Secretary for Policy is 
inherently tasked with improving the communication and efficiency among 
the modes in the interests of multi-modal policy solutions. In that 
regard, I have been struck with the success the Secretary has 
engendered in the so-called ``TIGER Team'' effort to rapidly implement 
the terms of the American Recovery and Reinvestment Act of 2009. The 
combination of new IT technology and cross-modal teams has had 
remarkable success in making available in a mere 9 weeks $37 billion of 
the overall $48.1 billion appropriated to the Department. I would like 
to make that a model going forward for multi-modal initiatives.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Roy W. Kienitz
    Question 1. The Essential Air Service program currently ensures 
that there is commercial air service for five small communities in my 
state. While I agree that the program could probably be more efficient, 
could you tell me more about what changes DOT proposes for Essential 
Air Service? What steps would you take to provide a better foundation 
for the Essential Air Service program and otherwise ensure that small 
communities depending on it continue to benefit from airline 
transportation?
    Answer. The Essential Air Service program provides a vital link to 
the national air transportation system for many communities across the 
country. Nonetheless, communities' eligibility for inclusion in the EAS 
program has never been based on individual needs, but, rather, only on 
whether the community was receiving scheduled air service at the time 
of airline deregulation in 1978. The EAS program has remained 
fundamentally unchanged since its inception while the aviation 
landscape has changed dramatically with the spread of the hub-and-spoke 
system, regional jets, and low-fare carriers. In order to ensure that 
the program remains responsive to the needs of rural America, we intend 
to review the challenges facing EAS and we look forward to working with 
Congress in an effort to develop a more efficient and sustainable 
program.

    Question 2. In 2006, a man who was drinking before and during his 
flight to Albuquerque later killed a family of six while driving the 
wrong way down the highway. Although current Federal regulations 
prohibit an intoxicated person from boarding a flight, or from being 
served more alcohol, it is not mandatory for airlines to provide 
training to ensure that these important safety regulations are obeyed.
    I have introduced legislation (S. 743)--supported by unions 
representing flight attendants and Federal air marshals, as well as 
Mothers Against Drunk Driving--that would require that airlines provide 
flight attendants and gate attendants training for identifying 
intoxicated passengers, serving alcohol, and managing drunk or 
belligerent passengers onboard. Do you agree that flight attendants and 
gate attendants should receive such training to help ensure passenger 
safety in the air and protect public safety on the ground?
    Answer. While I am not familiar with the particulars of this safety 
issue, it is only reasonable that flight attendants and gate attendants 
should receive training in matters that affect the safety of the public 
in the air and on the ground.

    Question 3. The State of New Mexico is aggressively addressing the 
problem of drunk driving through a combination of enforcement and 
education efforts. Yet in 2007 alone, there were still 133 fatalities 
involving alcohol impaired drivers in my state. Although the last 
highway bill provided grant programs to help states tackle the problem 
of drunk driving, it is a still a problem of great concern. What would 
you do as Under Secretary for Transportation Policy to further efforts 
to reduce drunk driving?
    Answer. I commend the State of New Mexico for its steady progress 
over recent years in reducing drunk driving. I am aware of Governor 
Richardson's announcement in February that the number of DWI-related 
deaths in your State has decreased 35 percent since 2002. Yet I fully 
agree that 133 drunk driving deaths is far too many and we need to 
continue looking for every possible remedy for this problem, in New 
Mexico and across the Nation.
    If confirmed as Under Secretary for Transportation Policy, I will 
work with the Secretary and Congress to maintain the Department's 
traditional leadership role in providing research, strategies, guidance 
and resources that States need to address the drunk driving problem. I 
will work with NHTSA and the Department to develop evidence-based 
programs that can address recidivist drunk driving behavior as well as 
first time offenders. I also believe the Department must continue its 
partnership with States and communities as laboratories of change and 
innovation to insure that we can evolve our countermeasure strategies 
to meet changes in the highway safety environment.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             Roy W. Kienitz
    Question 1. Mr. Kienitz, I would be interested to know your views 
concerning the current shortfall in the Highway Trust Fund and how you 
envision the Obama Administration will address the significant funding 
needs that exist across the country when it comes to highway and bridge 
infrastructure which is critical to our Nation's economy?
    As a follow up to that question, I would be interested in knowing 
your thoughts when it comes to innovative funding proposals, such as 
the Build America Bonds Act that Senator Wyden and I have advocated, 
which would supplement the funding that States currently receive via 
the Highway Trust Fund, by providing $50 billion in infrastructure 
funding to address critical needs when it comes to highway, bridge, 
transit, rail and waterway infrastructure?
    Answer. There is no doubt that the condition of the Nation's roads 
and bridges is not what it should be. The funding sources that have 
supported investment, mainly the gasoline tax, are less able every year 
to carry the load. If conditions are to improve a change is needed. 
Options for how to handle this challenge are being reviewed within the 
administration, and recommendations may be forthcoming soon.
    In my personal capacity I have worked extensively on innovative 
financing plans over the last several years, including the Better 
America Bonds proposal. President Obama has proposed an infrastructure 
bank as part of his FY2010 budget and hopefully this proposal could be 
part of a broad and inclusive conversation of how to finance 
infrastructure.

    Question 2. Mr. Kienitz, while there was widespread support among 
Democrats and Republicans for infrastructure investment in the economic 
recovery bill, some outside interests attempted to inject a ``no new 
capacity'' policy with respect to the stimulus bill's highway funds. 
That perspective was widely rejected by Congress, but it appears we 
will be dealing with this again in the surface transportation 
reauthorization debate. Since roughly 85 percent of Federal highway 
funds are spent on maintenance activities, this seems to be a solution 
in search of a problem. Can you explain why on one hand some want 
increased flexibility for state and local government transportation 
decisions and on the other hand want that flexibility constrained to 
only certain activities?
    Answer. The Obama Administration has not yet made specific 
proposals for the 2009 surface transportation reauthorization bill so I 
cannot comment on administration policy. For my own part, none of the 
transportation authorizations I have worked on--at the Federal and 
state levels going back more than 20 years--have included or even 
seriously contemplated such a limitation.
    Secretary LaHood has spoken publicly about his desire to modernize 
Federal transportation investments, in part by choosing investments 
based on which projects best serve important national goals. In such a 
system, new capacity projects would compete for funding with other 
types of projects as they do now based on their ability to achieve 
agreed to goals.
    Finally, given the current funding constraints affecting the 
Highway Trust Fund it will be increasingly hard to fund major 
transportation investments of all kinds, and so addressing this issue 
creatively can pay dividends in many areas.

    Question 3. Mr. Kienitz, it has been estimated transportation 
contributes somewhere in the neighborhood of 30 percent of the Nation's 
total greenhouse gas emissions. One of the leading causes of these 
emissions is not necessarily transportation itself, but traffic 
congestion. Vehicles caught in stop-and-go traffic emit far more of 
these pollutants than they do operating without frequent braking and 
acceleration. To date, climate change initiatives have focused on 
getting people out of their cars as the primary way to reduce traffic 
congestion. Should efforts to reduce greenhouse gas emissions focus 
both on transportation alternatives and direct initiatives to relieve 
traffic congestion?
    Answer. President Obama has said on many occasions that combating 
climate change will be a principal policy focus of his administration, 
and this will no doubt have consequences for the transportation sector. 
This will certainly begin with efforts to make motor vehicles more fuel 
efficient. When it comes to capital projects, investment decisions 
intended to reduce CO<INF>2</INF> emissions should be chosen based on 
the best available science as to what will be effective over the time-
frame identified for reducing the country's CO<INF>2</INF> emissions.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                             Roy W. Kienitz
    Question 1. As Gov. Rendell's chief advisor for Transportation, you 
advocated leasing a Federal highway to a foreign entity and allowing 
that foreign entity to charge tolls. You also advocated adding tolls to 
another U.S. Highway, I-80. The Pennsylvania legislature did not 
approve the lease, and the U.S. Department of Transportation rejected 
this scheme. In your new position would you be inclined to support 
approval of these arrangements that you have previously advocated? Do 
you believe Americans should be required to pay a toll to a foreign 
business to drive on a Federal highway? Do you see any problem with 
entrusting our transportation infrastructure to foreign-based 
companies?
    Answer. The policies advocated by Governor Rendell regarding tolls 
and toll roads in Pennsylvania were chosen by the Governor personally, 
not by me. He is a very hands-on manager.
    The plan to add tolls to I-80 eventually turned down by USDOT did 
not originate with the Governor. However, the plan approved by the 
legislature included new tolls on I-80, and he chose to sign that 
legislation because the billions in road, bridge and transit funding it 
would provide was sorely needed. On the day he announced his intention 
to sign the bill he expressed that it was not his preferred course of 
action. The Governor was not an advocate of this plan in the 
legislative process and as a result neither was I.
    If confirmed, I will follow the direction of the Secretary and 
Congress on tolling policy. Current law allows new tolls on the 
Interstate system in very limited circumstances, and if confirmed I 
will enforce the law as written.
    The proposal to lease the Pennsylvania Turnpike was strongly 
supported by Governor Rendell. As his agent, my role was to help carry 
out his vision. The eventual winning bidder was a consortium that 
included both CitiBank and the Spanish company Abertis. Indeed, each of 
the bidding teams included both U.S. and foreign companies. The 
Pennsylvania DOT and the Office of General Counsel analyzed whether 
foreign companies could be held fully accountable to the terms of a 
lease contract, and once it was determined they could the Governor 
chose to allow bidding to be open to U.S. and foreign companies. As 
long as he could be assured that all rules on toll rates and road 
maintenance would be followed regardless of which bidder was 
successful, he was comfortable selecting the high bidder.
    On this point, if confirmed it will be my duty to follow the laws 
of the United States, which as of now do not differentiate between 
bidders based on their country of origin. Congress will have the 
opportunity to debate this issue in the reauthorization process, and if 
the law should change I will faithfully implement any new requirements 
if confirmed.

    Question 2. From the policies you advocated throughout your career 
in public policy and public service, which generally fall under what 
some call ``Smart Growth,'' you seem to think that Americans need to 
drive less, in favor of other means of transportation. In your new 
position would you show greater favor to alternate means of 
transportation, when driving is still the means of transportation 
favored by most Americans?
    In a paper on road congestion put out by the Surface Transportation 
Policy Project under your direction, the claim is made that road 
construction does not solve traffic congestion problems.\1\ As Under 
Secretary for Policy, would you be inclined to recommend that funds be 
shifted away from road repair and expansion, and if so, to what would 
you shift those funds?
---------------------------------------------------------------------------
    \1\ http://www.transact.org/report.asp?id=64 (Accessed April 20, 
2009).
---------------------------------------------------------------------------
    Answer. If I am confirmed my primary role will be to follow the 
policy direction provided by the President, Secretary LaHood and 
Congress. At this point the Administration has not made policy 
proposals for the reauthorization of surface transportation programs so 
I cannot speak directly to those issues.
    For my own part, I believe investment in roads and bridges is vital 
to the country's future and will continue to support high levels of 
investment just as I did working for Governor Rendell. The condition of 
major roads and bridges steadily improved during the years I was in 
Pennsylvania because a sustained effort was made to invest at very high 
levels where needs were the greatest.
    Driving is America's dominant form of transportation and will 
remain so for the foreseeable future. Secretary LaHood has said on many 
occasions that he supports highway investment. He also supports more 
attention to other types of investment, from high speed rail to transit 
to walking and biking.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Cameron F. Kerry
    Question 1. As General Counsel, your primary job is to provide 
legal counsel to the Secretary of Commerce and senior Department 
leadership. As an active member of U.S. trade policy negotiations, how 
do you foresee your role in counseling Secretary Locke and the Agency 
in this role?
    Answer. The Commerce Department is part of President Obama's 
interagency team that is reviewing strategic and programmatic choices 
for trade policy. As General Counsel, I would work with Secretary 
Locke, Commerce's Under Secretary for International Trade, Ambassador 
Kirk, and our other interagency colleagues to support their review with 
the best possible legal advice and ensure that we are using all 
available tools to address the economic crisis, including achieving 
access to new markets for American businesses large and small.

    Question 2. What is your perspective on the effectiveness of 
Commerce's monitoring and enforcement of current trade agreements?
    Answer. President Obama is determined to aggressively defend our 
rights and benefits under the rules-based trading system. The ongoing 
review of trade policy will include a careful review of existing trade 
agreements with this policy goal in mind.

    Question 3. What would you do differently regarding these 
agreements and how they are monitored and enforced?
    Answer. I have not yet had the opportunity to review how Commerce 
is monitoring and enforcing trade agreements, but Secretary Locke and I 
are committed to enforcement of these agreements. As Secretary Locke 
testified, ``it is pointless to negotiate complex trade agreements if 
we don't intend to enforce them.'' I intend to support him and the 
Department's tradeofficers in this important work and to advise them of 
enforcement opportunities in existing trade agreements.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Sherburne B. Abbott
    Question 1. As the Associate Director for Environment for the 
Office of Science and Technology Policy, what role do you see yourself 
playing regarding the research, development, and adoption of Carbon 
Capture and Sequestration technologies?
    Answer. OSTP plays a vital role in helping to facilitate and 
coordinate across the Executive Branch departments and agencies 
involved in shaping and implementing Federal research and development 
activities on climate technologies, including carbon capture and 
sequestration (CCS) technologies. There are a number of science-related 
challenges that must be overcome to enable wide-scale deployment of 
CCS, including development of more cost-effective carbon capture 
systems; monitoring, verification, and accounting systems for permanent 
CO<INF>2</INF> storage sites; a legal framework for CO<INF>2</INF> 
storage permitting and liability; public support; and a CO<INF>2</INF> 
pipeline infrastructure. OSTP has a vital role to facilitate 
interagency coordination on scientific aspects of these issues through 
the Climate Change Technology Program, which was created under the 
Global Change Research Act, and the National Science and Technology 
Council (NSTC), which is co-chaired by the Director of OSTP. For 
example, the NSTC Subcommittee on Water Availability and Quality, under 
OSTP's guidance, is investigating the impacts that geologic 
sequestration might have on drinking water and aquatic ecosystems now 
and into the future.

    Question 2. The Joint Ocean Commission Initiative recently released 
a report that outlines twenty priority actions needed for improving 
ocean and coastal policy and management, strengthening ocean science, 
and funding ocean and coastal policies and programs. In the area of 
ocean science, the Commission recommended the Federal Government: (1) 
more closely align ocean and coastal science priorities with the needs 
of policymakers and managers; (2) integrate ocean and coastal science 
into the broader climate initiative; (3) improve the availability of 
ocean-related information, products, and services critical to the 
operations of key sectors of the U.S. economy; (4) develop a 
comprehensive strategy to guide marine-related, ecosystem-focused 
research, assessment, and management under the guidance of the Office 
of Science and Technology Policy; and (5) initiate an effort among 
governmental, academic, and private stakeholders engaged in ocean 
science to prioritize competing demands within the ocean and coastal 
science community.
    How do you see the Office of Science and Technology Policy 
coordinating with the National Oceanic and Atmospheric Administration 
to strengthen ocean science programs within the Federal Government, 
prioritize ocean and coastal research efforts, and make sure the ocean 
and coastal science programs meet the needs of managers at the local, 
state, and regional levels?
    Answer. Oceans are crucial to our well-being because they play a 
central role in global weather and climate, are a major source of 
protein for much of the world's population, provide employment in 
fisheries and recreation, serve as home to much of the planet's 
biodiversity, and more. Given this, OSTP will be very active in 
promulgating policies that propel the United States into a leadership 
position in marine stewardship. Included among the Obama Administration 
ocean priorities are to reauthorize the Coastal Zone Management Act in 
ways that strengthen the collaboration between Federal agencies and 
state and local organizations, and strengthen and reauthorize the 
National Marine Sanctuaries and the Oceans and Human Health Acts.
    If confirmed, I will work with NOAA and other relevant agencies, as 
well as with the Congress, to complete and implement the strong, 
integrated, well-managed program of ocean research and stewardship that 
is essential to sustain a healthy and productive marine environment and 
the local, state and regional communities that depend upon it.
    As a general overview, the OSTP works with NOAA (and other Federal 
agencies and Executive Office of the President entities) through both 
the NSTC Joint Subcommittee on Ocean Science and Technology (JSOST) and 
the U.S. Group on Earth Observations (US GEO) to address a number of 
science and technology research issues pertaining to oceans. Reporting 
to the JSOST are a number of functional working groups that exist to 
develop the research and operational priorities for national missions. 
For example, the Interagency Working group on Ocean Observing monitors 
the progress of the U.S. Integrated Ocean Observing System (IOOS) and 
the Oceans Observatory Initiative (OOI) which spans the domain from 
global to the coastal and Great Lakes and functionally from research to 
operations within the ocean observing, monitoring and management of 
information. Additional working groups focus on specific functions, 
such as oceans and human health. The members for these structures also 
participate in the U.S. GEO to ensure that the ocean and coastal 
information is then included in the larger framework of observations 
from land and atmosphere.
    The Ocean Research Priorities Plan and Implementation Strategy 
developed by the NSTC's Joint Subcommittee on Ocean Science and 
Technology in the last administration appears to provide a useful 
framework for analyzing research needs and moving ahead with meeting 
them. A process to refine and update it is underway and I will study it 
closely and seek input from the relevant Executive Branch agencies and 
committees of Congress before reaching any conclusions about what 
revisions in it might be warranted.
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Sherburne B. Abbott
    Question 1. New Mexico is home to Los Alamos and Sandia National 
Laboratories. Our National Labs are crown jewels of our Federal science 
assets, and they play an essential role for national security. Their 
original mission of safeguarding the Nation's nuclear weapons assets is 
well known, but these labs are also at the forefront of energy and 
environmental science which also has very real and direct links to our 
national security. I would appreciate learning your thoughts on your 
role in working with our National Labs. How would OSTP support and 
leverage these scientific and national security assets in the fields of 
energy and the environment?
    Answer. OSTP recognizes that Sandia, Los Alamos, and other national 
laboratories are leaders in the critical research that our Nation needs 
in the areas of energy and the environment. OSTP also recognizes that 
many sensors, analysis, and modeling capabilities developed for nuclear 
weapons and other national security requirements have energy and 
environmental applications.
    Sandia and Los Alamos are leaders in the areas of measurements and 
sensors, data-gathering and analysis; natural system modeling; climate 
modeling and analysis with applications to regional prediction and sea-
level rise; social, economic and political modeling with applications 
to economic impact of greenhouse gas policies, and dynamics of forced 
migration; energy and infrastructure with applications to energy demand 
and growth, and technology insertion. OSTP, through its leadership of 
the interagency process, will ensure that these valuable assets are 
fully utilized.

    Question 2. Ms. Abbott, One of the key missions for the Office of 
Science and Technology Policy, as set out by Congress in its 
authorizing legislation, is to ``work with the private sector to ensure 
Federal investments in science and technology contribute to economic 
prosperity, environmental quality, and national security.''
    A major component of President's Obama's recovery strategy is to 
promote the development of ``green jobs.'' It appears that there's a 
clear role that the Federal Government can play to create jobs to get 
technology out of the laboratories and into the marketplace. How will 
your office promote the commercialization of technologies that will 
improve our energy independence and reduce the harmful effects of 
global warming?
    Answer. Active U.S. Government leadership and coordination is 
necessary to help transition the Nation toward a clean energy economy 
that promotes our security through increasing independence from foreign 
oil and reduces our emissions of greenhouse gases. This transition also 
requires robust Federal support for energy R&D and a framework of 
energy policy that enables commercially attractive solutions. Federal 
investments in energy R&D are essential to ensure that the United 
States is on the cutting edge of clean-energy technologies, giving 
birth to new industries and opportunities that will create jobs. OSTP 
will work closely with the Federal agencies, OMB, and the Congress. to 
identify effective R&D investments and ensure that these investments 
produce results.
    In his FY 2010 budget, the President has proposed a significant 
increase in R&D funding for clean energy technologies, including an 
investment of $150 billion over 10 years using a portion of the auction 
revenues from a greenhouse gas cap-and-trade system. A significant 
fraction of these funds should support transformational research that 
could dramatically reduce cost and increase performance of energy 
technologies, such as solar cells, biofuels, batteries, and buildings. 
In addition, the Recovery and Reinvestment Act provides $6 billion for 
loan guarantees, more than $13 billion in tax credits and grants 
leveraging an estimated $100 billion in private sector investment in 
clean energy and job creation, $2 billion for advanced battery 
manufacturing, and $4.5 billion for modernizing the electric grid. 
Transitioning to the clean economy requires the work of many Federal 
agencies in collaboration with the private sector, National 
laboratories, universities, and international partners. OSTP organizes 
interagency cooperation, with outreach to academia and industry, 
through the National Science and Technology Council (NSTC). Dr. Holdren 
has expressed his intention to revitalize the NSTC, including a greater 
focus on developing and commercializing technologies to address our 
dependence on oil and to reduce greenhouse gas emissions.
    Another priority for OSTP is to educate the next generation of 
scientists and engineers. Increased investment in science, technology, 
engineering and mathematics (STEM) education at all levels is critical 
for building the workforce that will lead the way to a green energy 
economy.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                          Sherburne B. Abbott
    Question 1. Are you aware of the work being done to create 
sustainable northern communities at the Cold Climate Housing Research 
Center (CCHRC)? How can the research at the CCHRC be applied to address 
the energy and sustainability challenges facing our country?
    Answer. The applied research of the CCHRC in developing, advancing 
and promoting the efficient, safe, durable, and sustainable shelter for 
circumpolar people is an excellent example of how technology and the 
natural and social sciences need to come together to respond to 
societal needs for clean energy and concerns about sustainable 
development. The CCHRC and its partnership with the Arctic University 
of the University of Alaska, provides a model for promoting the 
integration of community needs and stakeholders with the research and 
development on sustainability issues.

    Question 2. In what capacity will cold climate research and arctic 
policy play a role in the Office of Science and Technology Policy? What 
deficiencies exist in the current field of knowledge on these subjects?
    Answer. The Arctic Research and Policy Act of 1984 provides for a 
comprehensive national policy dealing with national research needs and 
objectives in the Arctic, for a National Critical Materials Council, 
for development of a continuing and comprehensive national materials 
policy, for programs necessary to carry out that policy, including 
Federal programs of advanced materials research and technology, and for 
innovation in basic materials industries, and for other purposes. Cold 
climate research is an integral part of this R&D effort and OSTP plays 
a role in facilitating coordination among the agencies involved in 
arctic research.
    OSTP is also involved in the interagency coordination of climate 
research and efforts to use observations and models to understand and 
quantify the rate and magnitude of the contributions of ice on land 
(Greenland and Antarctica) to sea-level rise, what controls the rate of 
ice loss from Greenland and Antarctica, and other highly uncertain 
issues, such as carbon feedbacks at high latitudes and the likelihood 
of large releases of carbon from the heating of northern soils.
    In her remarks to the recent (April 6) meeting of the Arctic 
Council, Secretary of State Clinton noted her strong intent to work 
with the Council to continue the international cooperation in research 
that was fostered during the recent International Polar Year. She noted 
that much remains to be learned about the cold regions. OSTP will 
assist in developing a coordinated inter-agency response to addressing 
the research needs, including deficiencies in current programs, related 
to strong U.S. participation in Arctic research related to the U.S. 
interests in the Council.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                          Sherburne B. Abbott
    Question. Ms. Abbott, Do you believe investment in research of 
``high Energy Physics'' should play a role in the Administration's 
scientific agenda? Do you believe a deep underground science laboratory 
would benefit our knowledge of physics, geosciences, engineering and 
biology?
    Answer. President Obama has expressed his strong belief that the 
pursuit of basic scientific research is essential to expand human 
knowledge, and demonstrated his commitment to research through his 
interest in doubling the Federal R&D effort and through $21 billion in 
R&D investments in the Recovery Act. High energy physics research is 
key to expanding the frontiers. It describes the fundamental particles 
and interactions that govern the natural world. It tries to explain how 
the universe was formed, how it evolves, and how it functions at the 
most basic level. These are the kinds of questions that inspire the 
next generation.
    The High Energy Physics community has recently recommended a long-
range strategic plan that includes increased investments in the 
``Intensity Frontier.'' A core component of that plan is a neutrino 
program with a large and sensitive detector in a deep underground 
laboratory. OSTP supports this program, and sees in it great discovery 
potential. The Deep Underground Science and Engineering Laboratory 
(DUSEL) is currently planned to support this experiment. The DUSEL 
facility could also enable a wider range of research areas including 
Geoscience, engineering, and microbiology, all of which would benefit 
from the unique underground conditions.

                                  <all>

</pre></body></html>
